                            CTOR
                      SPE          GE
                 IN                     N
             F                              E
         O                                      R
     E




                                                A
 C




                                                    L
 FI
OF




                                                        OFFICE OF INSPECTOR GENERAL
                                                             EXPORT-IMPORT BANK
                                                              of the UNITED STATES




EVALUATION REPORT RELATING TO
 ECONOMIC IMPACT PROCEDURES




                                                                           OIG-EV-10-03
                                                                      September 17, 2010
___________________________________________________________________________________________________
OSVALDO L. GRATACOS                                     EXPORT-IMPORT BANK
ACTING INSPECTOR GENERAL                                OF THE UNITED STATES



                                                         September 17, 2010


Fred P. Hochberg
Chairman and President
Export-Import Bank of the United States
811 Vermont Ave. NW
Washington, D.C. 20571

RE: Evaluation Report Relating to Economic Impact Procedures (OIG-EV-10-03)

Dear Chairman Hochberg:

The Export-Import Bank of the United States (Ex-lm Bank or the Bank) Office of Inspector General
(OIG) is submitting to you the above referenced evaluation report of Ex-lm Bank's Economic Impact
Procedures, as most recently amended in April 2007 (Economic Impact Procedures or EIP's). Ex-lm
Bank's Economic Impact Procedures are intended to "layout a reasonable and logical process to
analyze the impact of Ex-lm Bank support for a particular transaction" to assure that the Bank does not
"approve a transaction that would, on balance, harm the U.S. economy." 1 While the objective of
economic impact review can be stated simply, it is difficult in practice to achieve due to limitations in
data, time and resources, the need to rely on potentially conflicting data and opinions regarding future
relationships of supply, demand, prices and terms of international trade in changing markets, and the
conflicting interests of different segments of the economy. The statutory requirements for this process
are set forth in Section 2(e) of the Bank's Charter.

The objectives of this evaluation are:

           ■ To independently evaluate Ex-lm Bank's Economic Impact Procedures as well as
             critiques and suggestions for their improvement delivered by the Government
             Accountability Office (GAO), members of the Bank's Board of Directors and
             management, transaction participants, Congress and other U.S. government agencies
             having a role in the economic impact review process.

           ■ To identify opportunities to improve the efficiency and effectiveness of the Economic
             Impact Procedures within the constraints of existing statutory requirements, the
             requirements of transaction proponents, and the resources available to Ex-lm Bank.

Our evaluation has determined that Ex-lm Bank's Economic Impact Procedures can be revised to better
implement the intent of Congress as reflected in the Bank's Charter, to improve transparency,
      _______________________________________________
      1
        Testimony of James L. Lambright, Chairman and President, Export-Import Bank, March 29, 2006, before the Subcommittee on
        International Trade and Finance of the Senate Committee on Banking, Housing and Urban Affairs.

___________________________________________________________________________________________________________________________

                                  811 Vermont Avenue, N.W. Washington, D.C.                       20571
_____________________________________________________________________________________________________________________________


and to make them more manageable for U.S. exporters and other participants in the process, including
the Board of Directors, Congress, U.S. government agencies that review the Bank's actions in this area
and observers in relevant U.S. industries.

Management's response to this Report, which is attached as Appendix I, states that management
intends to consider the suggestions made in this Report in the course of its development of
modifications to the Economic Impact Procedures based upon this Report and other sources of
comments and suggestions, including ideas developed independently by the Bank's Policy and
Planning Group (PPG), the 2007 report prepared by the U.S. Government Accountability Office
(GAO), Export-Import Bank - Improvements Needed in Assessment of Economic Impact (GAO-07-
1071) (2007 GAO Report) and "should coincide with the Bank's impending Congressional
reauthorization".

It should be noted that the PPG staff has been pursuing its own evaluation of the Economic Impact
Procedures and has been accumulating a set of possible modifications. A complete statement of the
modifications under consideration by the PPG staff was not requested by the OIG in the course of
preparing this Report in the interest of maintaining the independence of this review. At the same time,
it was clear in the OIG's interviews with members of the PPG staff that their comments, which have
been incorporated in the findings and recommendations contained in this Report, were informed by
their own ongoing review process. Accordingly, the OIG acknowledges the active assistance and
support for this Report. The OIG also does not claim sole credit for many of the findings and
recommendations in this Report, which were based upon discussions with the PPG staff, the Bank's
management and Board and other interview subjects, including representatives of the Reviewing
Agencies.

This evaluation is not an audit and it was not prepared in accordance with Generally Accepted
Government Auditing Standards. For more information on the background and methodology
underlying this Report, see Appendix D.

Should you or your staff have any questions or wish to discuss the results of our evaluation, please call
me at (202) 565-3908.

Sincerely,



Osvaldo L. Gratacós
Acting Inspector General


Cc: Alice Albright (with attachment)


Attachment: Evaluation Report Relating to Economic Impact Procedures (OIG-EV-10-03)




__________________________________________________________________________________
                EVALUATION REPORT RELATING TO
                 ECONOMIC IMPACT PROCEDURES
                                                                                                                    OIG-EV-10-03
                                    TABLE OF CONTENTS


Executive Summary
   Summary of Findings and Suggestions for Improvement.............................................. i
   Objectives................................................................................................................... ii
   Expanded Summary of Findings and Suggestions for Improvement............................. ii
   Background – Ex-Im Bank Mission and Programs................................................... viii
   Inherent Challenges in the Economic Impact Review Process......................................ix
   Acknowledgement of PPG Staff and GAO Contributions...........................................xii




Section A
  Improve Economic Impact Procedures and Reports to
  Better Support the Board’s Congressionally Mandated
  Role in Deciding Economic Impact Cases
   Conclusion ................................................................................................................ 1
   Findings..................................................................................................................... 1
   Conflicting Congressional Views of Economic Impact................................................ 1
   Resolution of the Conflict – Determination by the Ex-Im Bank Board of Directors..... 5
   Limitations on Board Action Resulting from Content of Economic Impact Reports.... 5
   What the Bank’s Charter Says About the Role of the Board of Directors in Deciding
   Economic Impact Cases.............................................................................................. 7
    The Content of Economic Impact Reports – Five Core Questions to Be Answered...... 9
    Misinterpretation of Section 2(e)(4) by the Bank’s Staff..............................................11
                 EVALUATION REPORT RELATING TO
                  ECONOMIC IMPACT PROCEDURES
OIG-EV-10-03
     Issues in the Bank’s Approach to the Five Core Questions..........................................13
     Question 1 – Oversupply...........................................................................................13
     Question 2 – 1% of U.S. Production..........................................................................16
     Question 3 – Substantial Injury.................................................................................18
     Question 4 – Adverse Impact from Related Goods.................................................... 20
     Question 5 – Balancing of Costs and Benefits by the Board...................................... 20
     Disclosure of Assumptions, Estimates, Data Limitations........................................... 23
     Indications of Sensitivity of Results........................................................................... 24
     Suggestions to Management..................................................................................... 26




Section B
   Develop Improved Criteria to Guide the Board and
   Staff in Deciding Economic Impact Cases
    Conclusion................................................................................................................29
    Findings....................................................................................................................29
    The Limitations of Trade Flow Analysis.....................................................................29
    Limited Transparency of Trade Flow Analytical Method........................................... 30
    Limited Precision of the Trade Flow Analytical Method.............................................31
    Causes of, and Responses to, Imprecision in Trade Flow Methodology.......................31
    OMB Recommendations for Analysis Supporting Regulatory Actions........................33
    Absence of Historical Validation............................................................................... 34
    Development of Additional Criteria...........................................................................35
    Consideration of Benefits to U.S. Economy................................................................35
    Criteria from Congressional Testimony..................................................................... 36
    Trade Flow Analysis and Its Components are not Without Value............................... 36
                EVALUATION REPORT RELATING TO
                 ECONOMIC IMPACT PROCEDURES
                                                                                                                  OIG-EV-10-03
   Criteria Identified in Existing Economic Impact Documentation...............................37
   External Sources of Relevant Data.............................................................................37
   Consideration of U.S. and World Market Dynamics................................................. 38
   Consideration of the Bank’s Mission - “Ties Go to the Exporter.”.............................. 38
   Criteria Addressing Conflicting Congressional Views.................................................39
   Distinguishing Damaged, Concerned and Successful Industries.................................39
   Reconciling Conflicting Perspectives and Industry Conditions................................. 43
   Sensitive Sector Disclosure Driven by Trade Flow Analysis........................................ 44
   Suggestions to Management.......................................................................................47




Section C
  The Bank Should Improve the Transparency of Its Economic
  Impact Procedures and Its Economic Impact Determinations
   Conclusion ...............................................................................................................49
   Findings ...................................................................................................................49
   Causes of Limited Transparency of Economic Impact Procedures...............................49
   The Impact of Low Transparency............................................................................. 50
   President Obama’s Directive on Transparency and Open Government.......................51
   Opportunities to Improve Transparency....................................................................52
   Suggestions to Management......................................................................................53
                 EVALUATION REPORT RELATING TO
                  ECONOMIC IMPACT PROCEDURES
OIG-EV-10-03
Section D
  The Bank Should Improve the Efficiency and
  Responsiveness of the Economic Impact Procedures by
  Simplifying the Process and Reallocating Resources
    Conclusion . ..............................................................................................................55
    Findings.....................................................................................................................55
    Developing Methods to Quickly Clear Low-Risk Transactions.................................. 56
    Develop Screening Method Comparable to Hart-Scott Antitrust Review....................58
    Request Transaction Proponents to Provide Relevant Information..............................58
    Reorder the Stages of Economic Impact Review to Accelerate the Process.................. 60
    Set Reasonable Time Limits for Response by the Reviewing Agencies.........................65
    Obtain Expert Professional Assistance for Difficult Transactions............................... 66
    Suggestions to Management.......................................................................................67
            EVALUATION REPORT RELATING TO
             ECONOMIC IMPACT PROCEDURES
                                                                          OIG-EV-10-03
Appendices
  Appendix A - Statutory Provisions Relevant to Economic Impact Determinations

  Appendix B - Transactions Subject to a Detailed Economic Impact Analysis 2002 - 2009

  Appendix C - Legislative History of Economic Impact at Ex-Im Bank 1968 to 1988

  Appendix D - Methodology and Background of this Report

  Appendix E - Excerpts from Economic Impact Procedures – April 2007

  Appendix F - Trade Flow Analysis Methodology

  Appendix G - 2007 OIG Report to Congress

  Appendix H - Federal Trade Commission’s Hart-Scott Method

  Appendix I - Ex-Im Bank’s Management Comments
                EVALUATION REPORT RELATING TO
                 ECONOMIC IMPACT PROCEDURES
                                                                                              OIG-EV-10-03

                                     Executive Summary


The Export-Import Bank of the United States (Ex-Im Bank or the Bank) Office of Inspector General (OIG)
has completed its evaluation of Ex-Im Bank’s Economic Impact Procedures, as most recently amended in
April 2007 (Economic Impact Procedures or EIP’s). This lengthy Report is provided as a source document
addressing subjects relating to the economic impact of Ex-Im Bank transactions that have not been
addressed publicly, or internally, by the Bank in a comprehensive manner. It is intended to both fill an
informational void and to suggest solutions to problems that have proven difficult to resolve, persistent, and
generally impenetrable to all but a small number of Bank staff, for the benefit of the full range of interested
observers of the Bank’s activities, including exporters, foreign buyers, financing sources, Congress, other
government agencies, members of the Bank’s staff, senior management and Board and the public generally.
See Appendix D for additional information on the background of this Report.

Ex-Im Bank’s Economic Impact Procedures are intended to “lay out a reasonable and logical process to
analyze the impact of Ex-Im Bank support for a particular transaction” to assure that the Bank does not
“approve a transaction that would, on balance, harm the U.S. economy.”1 While the objective of economic
impact review can be stated simply, it is difficult in practice to achieve due to limitations in data, time and
resources, the need to rely on potentially conflicting data and opinions regarding future relationships of
supply, demand, prices and terms of international trade in changing markets, and the potentially conflicting
interests of different segments of the U.S. economy. The statutory requirements for economic impact review
are set forth in Section 2(e) of the Bank’s Charter (see Appendices A and C). The 25 transactions subjected
to a full economic impact review between 2002 and 2009 that were evaluated in connection with this
Report are described in Appendix B.




Summary of Findings and Suggestions for Improvement

The evaluation has determined that Ex-Im Bank’s Economic Impact Procedures can be revised to better
implement the intent of Congress that the Bank’s Board of Directors, not the Bank’s officers and staff,
decide economic impact cases, to improve transparency and to make the economic impact review process
more manageable for U.S. exporters and other participants, including the Board of Directors, Congress,
U.S. government agencies that review the Bank’s actions in this area and interested observers in relevant
U.S. industries. The small number of transactions requiring a full economic impact review that have
been submitted to Ex-Im Bank in recent years suggests that the Bank’s approach to economic impact
analysis has discouraged U.S. exporters of capital equipment from applying for Ex-Im Bank support.

    1	 Testimony of James L. Lambright, Chairman and President, Export-Import Bank,
       March 29, 2006, before the Subcommittee on International Trade and Finance
       of the Senate Committee on Banking, Housing and Urban Affairs.
                                                        i
                  EVALUATION REPORT RELATING TO
                   ECONOMIC IMPACT PROCEDURES
OIG-EV-10-03

 The implementation of the suggestions made in this Report will reduce the uncertainty, delay, and cost
 associated with transactions requiring economic impact review, advancing the Bank’s mission of creating
 jobs for American workers by expanding U.S. exports.

 This evaluation is not an audit and it was not prepared in accordance with Generally Accepted Government
 Auditing Standards. For more information on the background and methodology underlying this Report, see
 Appendix D.2




 Objectives

 The objectives of this evaluation are:

     To independently evaluate Ex-Im Bank’s Economic Impact Procedures as well as critiques and
     suggestions for their improvement delivered by members of the Bank’s Board of Directors and
     management, transaction participants, Congress and other U.S. government agencies having a role
     in the economic impact review process, including the observations and recommendations of the U.S.
     Government Accountability Office (GAO) in the 2007 report Export-Import Bank – Improvements
     Needed in Assessment of Economic Impact (GAO-07-1071) (2007 GAO Report).

     To identify opportunities to improve the efficiency and effectiveness of the Economic Impact
     Procedures within the constraints of existing statutory requirements, the requirements of transaction
     proponents and the resources available to Ex-Im Bank.




 Expanded Summary of Findings and Suggestions for Improvement

 A.	   Improve Economic Impact Procedures and Reports to Better Support the Board’s Congressionally
 Mandated Role in Deciding Economic Impact Cases.

 Congress in Section 2(e) (3) of the Ex-Im Bank Charter assigned to the Bank’s Board of Directors the
 responsibility of determining whether “the short- and long-term benefits to industry and employment in the
 United States [of a transaction proposed for Ex-Im Bank support] are likely to outweigh the short- and long-
 term injury to United States producers and employment of the same, similar, or competing commodity.”
     2	 This Report is largely based on review of economic impact reports relating to the transactions summarized in
        Appendix B and the relevant statutes, policies and procedures and interviews conducted during 2007, 2008 and
        2009 with (i) the Bank’s Board of Directors; (ii) the Bank’s General Counsel; (iii) members of the Bank’s Planning
        and Policy Group; (iv) officials from the Treasury and Commerce Departments, and the Office of the U.S.
        Trade Representative, who participate in the economic impact review process; (v) representatives of GAO; and
        (iv) members of the staffs of the Senate Committees on Finance and Banking, Housing and Urban Affairs.
                                                                  ii
                 EVALUATION REPORT RELATING TO
                  ECONOMIC IMPACT PROCEDURES
                                                                                                          OIG-EV-10-03

This difficult decision was given to the Board of Directors, not the Bank’s staff, in recognition of the
many challenges of assessing the economic impact of transactions proposed for Ex-Im Bank support where
there may be a risk of substantial injury to U.S. manufacturers and employment from increased foreign
competition as a result of the transaction.

In each of the small number of economic impact cases decided between 2002 and 2009, the ability of the
Board of Directors to carry out their responsibility under Section 2(e)(3) of the Charter has been impaired
because the economic impact reports prepared by the Bank’s Planning and Policy Group (PPG) staff and
submitted to the Board to facilitate their decisional process presented data and analysis supporting the PPG
staff ’s recommendation, but (i) did not address directly several elements of economic impact contemplated
by the Charter, (ii) omitted relevant data and analysis beyond that considered necessary to support the
PPG staff’s recommendation, (iii) did not state the limitations and qualifications of the data, assumptions,
estimates, methods and analysis relied upon by the PPG staff and (iv) did not fully address the sensitivity
of the staff ’s conclusions to possible changes in assumptions and estimates that could be reasonably
anticipated.3 See Section A of this Report for an expanded coverage of these findings.




Suggestions for Improvement

       A.1.    The PPG staff’s economic impact reports should present the available quantitative and
               qualitative information obtained by the PPG staff that is material and relevant to the
               determination of economic impact in a concise balancing format that addresses each of the
               elements of economic impact contemplated by the Charter and which will support the Board’s
               decisional process under Section 2(e)(3) of the Charter.

       A.2. Economic impact reports, supplemented by the Bank’s publicly available Economic Impact
            Procedures, should be written to reasonably inform the reader of the limitations and
            qualifications of the data, assumptions, estimates, methods and analysis relied upon by
            the PPG staff and the sensitivity of the conclusions expressed by the PPG staff to possible
            changes in assumptions or estimates that can be reasonably anticipated. The PPG staff should
            consider guidance provided by the Office of Management and Budget (“OMB”) in developing
            specifications for its analysis and reports to the Board.4

        A.3. Reliance on trade flow analysis or any other quantitative methods used by the PPG staff
             that effectively decide economic impact cases should be made subject to Board approval and
             subsequent periodic reaffirmation.

    3	 The most recent two transactions listed in Appendix B, which were decided in 2008 and 2009, were based on
       economic impact reports in which the PPG staff incorporated on a trial basis some of the suggestions contained in
       this Report, and to that extent are not subject to the same level of comment as the reports that preceded them.
    4	 See OMB Circular A-4 “Regulatory Analysis” (“OMB Circular A-4”).
                                                             iii
                     EVALUATION REPORT RELATING TO
                      ECONOMIC IMPACT PROCEDURES
OIG-EV-10-03



 B.	      Develop Improved Criteria to Guide the Board and Staff in Deciding Economic Impact Cases.

 The principal criterion applied by the Bank’s PPG staff to support their recommendations to the Board
 in the economic impact cases reviewed for this report has been a quantitative “trade flow” analysis that
 compares the dollar value of U.S. capital equipment exports (i.e. widget making machinery) attributable
 to a transaction proposed for Ex-Im Bank support to the discounted dollar value of U.S production of the
 products produced with that capital equipment (widgets) that might be “displaced”5 by the new foreign
 production of widgets. In lieu of using the term “widgets” and to maintain consistency with terminology
 used by the PPG staff, the products produced by exported capital equipment that would compete with U.S.
 production are referred to in this Report as “Exportable Goods.” Heavy reliance on trade flow analysis
 reflects the PPG staff’s efforts over the years to work with management, the Board and Congress to develop
 a tool that, within the limited data, time, and staff resources available, would serve as an approximate
 indicator of transactions where adverse economic impact may be an issue.

 Reliance on quantitative trade flow analysis to guide the PPG staff’s recommendation for approval or
 disapproval of economic impact cases by the Board of Directors is responsible for much of the criticism of
 the economic impact process by the Board of Directors and the Reviewing Agencies.6 Trade flow analysis,
 as it has been applied during the period addressed in this Report, appears to be inconsistent with the
 requirements of the Bank’s Charter. Among the weaknesses of trade flow analysis are that (a) it does not
 speak directly to several of the determinations required to be made by the staff and Board under Section 2(e)
 of the Charter, (b) in some cases it excludes or conflicts with material, relevant market data that is persuasive
 as to the likelihood, or unlikelihood, of substantial injury to U.S. producers and employment, (c) it has not
 been empirically validated by the PPG staff or approved by the Board as a controlling decisional tool and
 (d) the PPG staff’s efforts to revise the method to better correlate with conflicting data have been viewed as
 result-driven by members of the Board and the Reviewing Agencies.



       5	 Trade flow analysis assumes that the new foreign production of widgets that might reach the U.S. market will
          capture 100% of the head-to-head sales competition, resulting in that quantity and dollar value of lost sales by
          U.S. producers, an assumption the PPG staff describes as resulting in the most “conservative” possible estimation
          of the adverse impact of the new foreign production on U.S. producers. The PPG staff acknowledges that in real
          markets it is more likely that only a portion of possible sales will be lost as a result of increased foreign production,
          with the market possibly experiencing lower prices as supply increases. These effects are difficult or difficult to
          predict with any certainty. The methodology of trade flow analysis is described in greater detail in Appendix F.
       6	 The Bank’s Economic Impact Procedures provide for the Departments of State, Treasury and Commerce and the
          Office of the United States Trade Representative (the “Reviewing Agencies”) to receive a draft copy of the staff ’s
          economic impact reports, with the opportunity to comment to the staff and the Board. The Secretary of Commerce
          and the U.S. Trade Representative serve as ex officio members of the Bank’s Board of Directors. Section 2(e)(7) of the
          Bank’s Charter, enacted in the Bank’s 2006 reauthorization, requires that summary notice of transactions receiving
          detailed economic impact review be published in the Federal Register and requires that the Bank seek comments
          from the Department of Commerce, the Office of Management and Budget, the Committee on Banking, Housing
          and Urban Affairs of the Senate and the Committee on Financial Services of the House of Representatives.
                                                                       iv
                EVALUATION REPORT RELATING TO
                 ECONOMIC IMPACT PROCEDURES
                                                                                             OIG-EV-10-03

The Bank has cited reliance upon trade flow analysis to support the inclusion on the Bank’s list of “sensitive
sectors” with respect to which “the provision of financing support by the Bank is deemed unlikely by the
President of the Bank due to the significant potential for a determination that such financing support
would result in an adverse economic impact on the United States” as required by Section 2(e)(5) of the
Bank’s Charter. Without any proof of substantial injury to any U.S. industry, the Bank has advised U.S.
capital equipment manufacturers that the Bank is unlikely to support financing for “Products associated
with projects where a significant portion of the output directly produced by the project is destined for the
U.S. market and will compete directly with U.S. production.” This may prevent some U.S. manufacturers
of capital equipment from seeking Ex-Im Bank support for exports to the Western Hemisphere and much
of the Pacific Rim. If trade flow analysis is no longer given decisive effect, this provision would appear to
be overbroad, and may have contributed to the decrease in capital equipment export transactions requiring
economic impact review in recent years despite a significant decrease in the availability of private sector
export credit financing. See Section B of this Report for an expanded coverage of these findings.




Suggestions for Improvement

       B.1. While the data supporting trade flow analysis and the conclusions that may be drawn from
            that data and analysis have relevance to the Board’s consideration and determination of
            economic impact cases, trade flow analysis should not be the sole or primary criterion for
            deciding economic impact cases addressed in the PPG staff’s economic impact reports, and it
            should not be determinative of the PPG staff’s recommendation, or the Board’s decision, in
            economic impact cases.

       B.2. The PPG staff should develop additional criteria for analysis of economic impact that are
            consistent with the Bank’s Charter and Congressional intent to assist the Board in deciding
            economic impact cases. These criteria should focus on the sort of macroeconomic trends that
            were characteristic of the U.S. industries that were cited as experiencing substantial economic
            injury at the hands of foreign competitors in Congressional hearings preceding the enactment
            of the current economic impact requirements expressed in Section 2(e) of the Bank’s Charter.

        B.3 It is suggested that the Bank’s Economic Impact Procedures provide for a periodic backward-
             looking empirical review to determine whether it appears that transactions approved have
             in fact caused or contributed to any substantial injury to U.S. producers of an Exportable
             Good or related employment under the criteria relied upon by the PPG staff and the Board,
             and whether any projected benefits to the U.S. economy and employment of approving, or
             disapproving, specific transactions were in fact realized.

        B.4. It is suggested that in view of the suggestions above at A.1., 2., and 3. and B.1. and 2., the
             PPG staff should reevaluate the “sensitive commercial sectors list” promulgated by the Bank
             pursuant to Section 2(e)(5) of the Charter. In particular, it is suggested that the Bank further
                                                       v
                 EVALUATION REPORT RELATING TO
                  ECONOMIC IMPACT PROCEDURES
OIG-EV-10-03

               refine or omit reference to “Products associated with projects where a significant portion of
               the output directly produced by the project is destined for the U.S. market and will compete
               directly with U.S. production,” which is based on “likely net negative trade flow implication.”
               It is also suggested that the Board be consulted before the sensitive sector list is published
               to confirm that they are in general accord with it in order to avoid the Bank’s President
               effectively misrepresenting, and thereby usurping, the Board’s final authority to decide
               economic impact cases.




 C.	    The Bank should improve the transparency of its Economic Impact Procedures and its economic
 impact determinations.

 The results of economic impact reviews are expressed in relatively brief written reports prepared by the
 Bank’s PPG staff and in minutes of meetings of the Board of Directors, none of which are publicly disclosed
 or thereafter easily accessible by the Bank’s Board and management. The PPG staff’s internal procedures
 for producing economic impact reports rely to a significant extent on the PPG staff’s experience and practice
 in producing prior economic impact reports and are not thoroughly documented. As a result, transaction
 proponents and opponents, the Reviewing Agencies, Bank management, the Board of Directors, Congress
 and the public have a very limited ability to understand the Bank’s economic impact determinations, to
 predict the outcomes of individual cases or to evaluate the consistency and quality of procedure and results
 between cases over time. See Section C of this Report for an expanded coverage of these findings.


 Suggestions for Improvement

 The Bank should advance the transparency of its economic impact policy and determinations by:

        C.1. Revising the Economic Impact Procedures to include more information about the PPG staff’s
             methodology and publishing the expanded description on the Bank’s website.

        C.2. Revising the Bank’s internal procedures to more fully and accurately describe the PPG staff’s
             methodology in preparing economic impact reports.

        C.3. Making economic impact reports publicly available after redacting them, or delaying their
             release, to protect sensitive business confidential information of the transaction proponents.




                                                         vi
                EVALUATION REPORT RELATING TO
                 ECONOMIC IMPACT PROCEDURES
                                                                                             OIG-EV-10-03

D.	    The Bank should improve the efficiency and responsiveness of the Economic Impact Procedures by
simplifying the process and reallocating resources.

Other U.S. government agencies that evaluate the impact on the U.S. economy of specified transactions
or developments apply a number of strategies to advance the goals of achieving transparency, reasonably
accurate determinations and responsiveness to the interests of the public, transaction participants and other
stakeholders that have not been fully evaluated or applied in the context of Ex-Im Bank’s Economic Impact
Procedures. See Section D of this Report for an expanded coverage of these findings.


Suggestions for Improvement

The Bank should increase the efficiency and responsiveness of the Bank’s Economic Impact Procedures by:

       D.1.	 Developing and making public a methodology to identify at an early stage transactions where
             there appears to be little risk of adverse economic impact in order to allow expedited handling
             of those cases.

       D.2.	 Requesting exporters of capital equipment to provide relevant data that is reasonably available
             to them, without undue burden, during the application process to support an accelerated
             review by the PPG staff.

       D.3.	 Inviting (but not requiring) proponents of transactions subject to formal economic impact
             review to submit white paper analyses addressing economic impact concerns that might be
             raised by the transaction.

       D.4.	 Providing earlier notice to Congress and the Reviewing Agencies of the initiation of a
             substantive economic impact review, after an initial screening review but before the PPG staff
             has prepared a complete economic impact report.

        D.5.	 Implementing a policy that the Reviewing Agencies will have a specified limited time period
              after they receive a draft economic impact report in which to submit their comments.

        D.6.	 Hiring, or contracting for the services of, a trained economist with a background in
              macroeconomic market analysis of the sort required by economic impact review to assist in
              implementing the improvements suggested in this Report.




                                                      vii
                 EVALUATION REPORT RELATING TO
                  ECONOMIC IMPACT PROCEDURES
OIG-EV-10-03

 Background – Ex-Im Bank Mission and Programs

 Ex-Im Bank provides support for U.S. exporters and export- related employment by offering guarantees,
 credit insurance and direct loans to augment the availability of financing for foreign purchasers of goods
 and services originating in the United States. Ex-Im Bank is directed by its Charter not to compete with
 the private sector in providing export credit, and to make its support available for transactions where the
 private sector is unable or unwilling to provide credit or where necessary to “level the playing field” for
 U.S. exporters competing with foreign producers offering financing through their governmental programs.
 The Bank may not support transactions unless it is determined that there is a reasonable likelihood of
 repayment. Ex-Im Bank approved 2,891 authorizations in support of U.S. export sales in its 2009 fiscal
 year, representing $21.0 billion in loans, guarantees, and export-credit insurance.

 The terms of Ex-Im Bank support vary by program.

        •	 In guarantee transactions, a U.S. or foreign lender provides a loan to the foreign buyer seeking
           to purchase goods or services acquired from a U.S. exporter. The foreign buyer uses the
           loan proceeds and its own cash to pay for the exported U.S. goods or services. Ex-Im Bank
           guarantees the repayment of the loan by the foreign purchaser/borrower in exchange for a fee. If
           the foreign borrower defaults before the loan is paid in full, Ex-Im Bank reimburses the lender
           for the amount of the loan and then seeks to collect the debt through legal proceedings in the
           U.S. or the borrower’s home country.

        •	 In insurance transactions a lender, generally the exporter selling the U.S. made goods to a foreign
           buyer, provides payment terms to the foreign buyer and obtains a credit insurance policy from
           Ex-Im Bank in exchange for an insurance premium. If the foreign buyer defaults, Ex-Im Bank
           insurance reimburses the exporter and Ex-Im Bank attempts to collect the debt from the foreign
           buyer.

        •	 In direct loan transactions, Ex-Im Bank makes a loan directly to a foreign buyer, who uses the
           proceeds to pay for the U.S.-sourced goods or services. Ex-Im Bank is compensated by the fees
           and interest received on the direct loan and pursues its rights as a creditor directly if the foreign
           buyer defaults.

        •	 Ex-Im Bank also provides guarantees to U.S. lenders that provide working capital financing to
           U.S. exporters to support the inventory and receivables of the exporter that are attributable to
           export sales. Any losses incurred by the working capital lender are reimbursed by the Bank.

 References in this Report to “support” of export transactions by Ex-Im Bank mean any of the forms of
 financial support described above.




                                                         viii
                 EVALUATION REPORT RELATING TO
                  ECONOMIC IMPACT PROCEDURES
                                                                                             OIG-EV-10-03

Ex-Im Bank’s Charter has since 1968 required that “in authorizing any loan or guarantee, the Board of
Directors shall take into account any serious adverse effect of such loan or guarantee on the competitive
position of United States industry . . .”7 The concept underlying this simple statement – that the Board
should consider any adverse economic impact of the transactions supported by the Bank on the U.S.
economy – has since been significantly expanded to encompass a complex set of considerations and
procedures that are all focused on the determination of adverse economic impact. Section 2(e) of the Charter
now prohibits the Bank from supporting export sale transactions that are likely to result in substantial injury
to U.S. producers of competing goods unless the Bank’s Board of Directors determines that, on balance,
there is a net benefit to the U.S. economy from the transaction. The issues associated with this requirement
are the subject of this Report.




Inherent Challenges in the Economic Impact Review Process

The thoughtful implementation of the suggestions set forth in this Report by the Bank’s staff will
significantly improve the statutory soundness, transparency, efficiency and responsiveness of the Economic
Impact Procedures. The suggested changes address many, but not all, of the criticisms of economic impact
review that were provided by the Bank’s staff, management, Board of Directors and the Reviewing Agencies
during the preparation of this Report. The suggested changes are not a panacea, and even if fully and
expertly implemented will not result in economic impact review becoming simple, straightforward and
conflict free.

Many of the causes of continuing complexity and potential dissatisfaction with the Bank’s Economic Impact
Procedures are unavoidable. Economic impact reviews after adoption of all of the suggestions contained
in this Report will still require the Bank’s PPG staff and Board to address conflicting interests, and pick
potential “winners and losers,” under conditions of limited time and resources and incomplete and imperfect
information. It is particularly important in such cases that the process used by the Bank be as transparent,
efficient, procedurally fair and reasonable as is possible under the circumstances so that its results will be
accepted as a valid exercise of governmental power in accordance with the law, even if some of the affected
parties may disagree with the result.

The inherent sources of difficulty associated with the Bank’s Economic Impact Procedures cited by the
individuals interviewed in support of this Report include:

        •	 The Charter uses concepts such as “substantial injury to United States producers,” “excess supply
           on world markets” (referred to in this Report as “oversupply” in order to maintain consistency
           with PPG staff terminology), “short- and long-term benefits to industry and employment in the
           United States” and “short- and long-term injury to United States producers and employment of


    7	 Ex-Im Bank Charter Section 2(b)(1)(B). The legislative history of economic impact
       requirements in the Bank’s Charter is described in detail in Appendix C.
                                                            ix
                 EVALUATION REPORT RELATING TO
                  ECONOMIC IMPACT PROCEDURES
OIG-EV-10-03

            the same, similar, or competing commodity” that do not have commonly accepted meanings
            or criteria for evaluation among business people, academics, professional economists or other
            possible sources of data and expert and non-expert opinion.

       •	 The Charter requires the Bank’s staff to consider the available, but frequently limited, historical
          and projected market data to determine if a transaction supported by the Bank today will exceed
          1% of U.S. production of a particular Exportable Good8 at a projected future date. Future
          conditions of supply, demand and price in international markets are not possible to predict with
          a high degree of confidence in most cases. The difficulty of the task is compounded by the
          necessity to accommodate commercial scheduling requirements.

       •	 Where substantial injury to U.S. producers is presumed to exist because the amount of new or
          expanded production of the Exportable Good proposed to be supported by the Bank will exceed
          1% of U.S. production of the Exportable Good,9 the Charter requires the Board to balance “the
          short- and long-term benefits to industry and employment in the United States” from approving
          Bank support for a transaction against the likely “short- and long-term injury to United States
          producers and employment of the same, similar, or competing commodity” at a projected future
          date. Reliable historical and projected information to support this analysis is frequently not
          available, and there is an “apples and oranges” aspect of non-comparability when evaluating the
          effect on two different U.S. industries of approving or rejecting a given transaction.

       •	 The determinations required to be made by the Bank’s staff and by the Board are not susceptible
          to the application of commonly accepted quantitative methods to readily available and reliable
          data. Because U.S. and international market structures and dynamics are frequently unique
          to specific industries, Board decisions in specific cases may not result in records that can be
          compared for consistency and precedential effect with decisions regarding other transactions
          impacting other industries.

       •	    The Bank’s PPG staff, management and Board have varying degrees of knowledge and
            experience to support their economic impact decisions. None of the individuals interviewed
            during the preparation of this Report claimed professional training or subject matter expertise
            that is closely focused on the EIP process.

       •	    Competition is a painful, but necessary, characteristic of a healthy U.S. and world economy.
            Capitalism has been described as “creative destruction” – marginal competitors suffer losses and
            are driven from existence by more efficient producers on a regular basis. It is a broad, consistent
            and long-standing policy of the U.S. government to support fair but active competition,
            domestically and internationally, because of the benefits to the U.S. economy and population.
            It is also a long-standing policy of individual manufacturers and trade associations to seek to
            avoid or limit the impact of competitive pressures where they can. U.S. government assistance
            of any sort to a foreign purchaser of capital equipment that might increase the extent of foreign
            competition experienced by other U.S. businesses can be of significant concern to the affected

    8	 See definition of this term on page 3.
    9	 See Section 2(e)(4) of the Bank’s Charter (Appendix A) and discussion appearing in Section A of this Report.
                                                                x
                EVALUATION REPORT RELATING TO
                 ECONOMIC IMPACT PROCEDURES
                                                                                               OIG-EV-10-03

           U.S. businesses, even if (i) the resulting injury to their business is not “substantial” at the level
           contemplated by Congress as expressed in Section 2(e) of the Charter, (ii) the same international
           competitive pressure will exist regardless of any action by Ex-Im Bank and (iii) the proposed
           transaction will produce a significant net benefit to another sector of the U.S. economy and
           related employment.

       •	 Ex-Im Bank’s rejection of a transaction because of an adverse economic impact determination
          provides no assurance that U.S. producers of the specific Exportable Good and related
          employment will be protected from substantial injury from new foreign production. Rejection
          of the transaction usually means that the U.S. exporter of capital equipment that requested
          Ex-Im Bank support for the transaction will lose an export sale. In many cases, the new
          foreign production of the Exportable Good, and any corresponding loss of U.S. domestic and
          export sales of the Exportable Good, will still occur because a foreign exporter of competing
          capital equipment will be standing ready to provide the necessary equipment to the foreign
          manufacturer. Rejecting Ex-Im Bank financing for a proposed export of U.S. capital goods
          on economic impact grounds, or because the economic impact process is too cumbersome,
          expensive and unpredictable, has been described as resulting in “a double hit” for the U.S.
          economy – foreign competition increases in the Exportable Good industry and a U.S. export sale
          is lost in the U.S. capital equipment industry.

It is important to note that the determination of economic impact in individual cases by the Bank’s PPG
staff and Board of Directors is not an evidentiary proceeding. Transaction proponents and opponents do
not present evidence or briefs, they do not appear or argue before the PPG staff or the Board and no appeal
rights are provided. Some transaction proponents and opponents have insisted on obtaining a meeting with
the Bank’s staff or a Board member to discuss pending economic impact reviews, but those actions are not
part of the ordinary process for consideration of transactions. Introducing the procedural requirements of
an administrative proceeding would likely increase the cost to the transaction proponents and introduce
further delays, making Ex-Im Bank support less, rather than more, efficient, effective and appealing for U.S.
exporters.

The current procedures used by the PPG staff are designed to rely upon information about the economic
impact of the proposed transaction developed by the PPG staff and obtained in some cases from the
Reviewing Agencies, Congress and parties making note of the Federal Register announcement of the
transaction. This information is then evaluated by the PPG staff and the Board of Directors as they make
their respective judgments of the economic impact implications of a proposed transaction and determine
to approve or decline Ex-Im Bank support. The substantial time and effort that would be required for
formal hearings, and appeals, would likely exceed the time and resources available for completion of most
commercial transactions. Excessive delays in the process, whether resulting from requirements of PPG
staff and Board review or organized opposition, effectively decide economic impact cases against the U.S.
exporter of capital equipment.




                                                       xi
                 EVALUATION REPORT RELATING TO
                  ECONOMIC IMPACT PROCEDURES
OIG-EV-10-03

 This Report does not suggest changes in the Charter that would directly address these challenges, which
 would require legislative action that was determined to be outside the scope of this Report. The findings
 and suggestions presented are focused on opportunities for positive change in the Economic Impact
 Procedures that are believed to be consistent with existing provisions of the Charter, and to address the
 challenges presented by the Charter as described above in a consistent and constructive manner.




 Acknowledgement of PPG Staff and GAO Contributions

 It should be noted that the PPG staff has been pursuing its own evaluation of the Economic Impact
 Procedures and has been accumulating a set of possible modifications independently and in response to the
 2007 GAO Report. A complete statement of the modifications under consideration by the PPG staff was
 not requested in the course of preparing this Report in the interest of maintaining the independence of this
 review. At the same time, it was clear from interviews of members of the PPG staff that their comments,
 which have been incorporated in the findings and suggestions contained in this Report, were informed
 by their own ongoing review process. Accordingly, the active assistance and support for this Report, and
 for positive change in the Economic Impact Procedures, of the PPG staff must be acknowledged. Many
 of the findings and suggestions in this Report are based upon discussions with the PPG staff, the Bank’s
 management and Board and other interview subjects, including representatives of the Reviewing Agencies.
 The contribution to this Report of the 2007 GAO Report is also acknowledged.

 For additional information regarding the background of this Report, please see Appendix D – Methodology
 and Background of this Report.




                                                        xii
                 EVALUATION REPORT RELATING TO
                  ECONOMIC IMPACT PROCEDURES
                                                                                                     OIG-EV-10-03

                                                 Section A

  Improve Economic Impact Procedures and Reports to Better
    Support the Board’s Congressionally Mandated Role in
              Deciding Economic Impact Cases


Conclusion

The PPG staff’s economic impact reports should support the Board’s decisional process under Section 2(e)
(1) and (3) of the Charter by presenting the available quantitative and qualitative information obtained by
the PPG staff that is material and relevant to the determination of economic impact in a concise balancing
format that addresses each of the elements of economic impact specified by the Charter. Economic impact
reports, supplemented by the Bank’s publicly available Economic Impact Procedures, should be written
to reasonably inform the reader of the limitations and qualifications of the data, assumptions, estimates,
methods and analysis relied upon by the PPG staff and the sensitivity of the conclusions expressed by the
PPG staff to possible changes in assumptions or estimates that can be reasonably anticipated. Reliance on
trade flow analysis or any other quantitative methods to effectively decide economic impact cases should be
made subject to Board approval and subsequent periodic reaffirmation thereafter.




Findings

Conflicting Congressional Views of Economic Impact

Ex-Im Bank’s Economic Impact Procedures are intended to “lay out a reasonable and logical process to
analyze the impact of Ex-Im Bank support for a particular transaction” to assure that that the Bank does
not “approve a transaction that would, on balance, harm the U.S. economy.”10 The statutory requirements
for this process are set forth in Section 2(e) of the Bank’s Charter (see Appendices A and C) and have been
implemented by the Bank’s PPG staff through the publicly disclosed Economic Impact Procedures (see
Appendix E) and through internal practices and procedures that have not been publicly disclosed. All
parties participating in this process acknowledge that while the objective of economic impact analysis can
be stated simply, it is difficult in practice to achieve due to limitations in data, time and resources, the need


    10	 Testimony of James L. Lambright, Chairman and President, Export-Import Bank, March 29, 2006, before the
       Subcommittee on International Trade and Finance of the Senate Committee on Banking, Housing and Urban Affairs.
                                                           1
                  EVALUATION REPORT RELATING TO
                   ECONOMIC IMPACT PROCEDURES
OIG-EV-10-03

 to rely on potentially conflicting data and opinions regarding future relationships of supply, demand, prices
 and terms of international trade in changing markets, and the conflicting interests of different segments of
 the United States economy.

 The solution chosen by Congress to address the difficulties of economic impact analysis, as reflected in
 Section 2(e)(1), (3) and (4) of the Charter,11 has been to assign to the Bank’s Board of Directors, a politically
 accountable body nominated by the President and confirmed by the Senate, the job of considering and
 balancing all of the competing interests that can be associated with economic impact cases, and then making
 the final decision as to whether the transaction will or will not receive Ex-Im Bank support:

     (1) In general. The Bank may not extend any direct credit or financial guarantee for establishing or
          expanding production of any commodity for export by any country other than the United States, if
          –

          (A) the Bank determines that –

              (i) the commodity is likely to be in surplus on world markets at the time the resulting
                    commodity will first be sold; or

              (ii) the resulting production capacity is expected to compete with United States production of
                    the same, similar, or competing commodity; and

          (B) the Bank determines that the extension of such credit or guarantee will cause substantial injury
               to United States producers of the same, similar, or competing commodity.

     (2) Exception. Paragraphs (1) and (2) shall not apply in any case where, in the judgment of the Board
          of Directors of the Bank, the short- and long-term benefits to industry and employment in the
          United States are likely to outweigh the short- and long-term injury to United States producers and
          employment of the same, similar, or competing commodity.

     (3) Definition. For purposes of paragraph (1)(B), the extension of any credit or guarantee by the Bank
          will cause substantial injury if the amount of the capacity for production established, or the amount
          of the increase in such capacity expanded, by such credit or guarantee equals or exceeds 1 percent
          of United States production.




     11	 Economic impact is addressed in more general terms in Section 2(b)(1)(B) of the
        Charter and in 12 U.S.C. 635a-2, which are discussed in Appendix C.
                                                                2
                 EVALUATION REPORT RELATING TO
                  ECONOMIC IMPACT PROCEDURES
                                                                                                            OIG-EV-10-03

Section 2(e)(3) of the Charter grants the Board the power to approve a transaction even if there is evidence
that substantial injury to U.S. producers of the relevant Exportable Good12 might result. To exercise this
authority, the Board must determine that the short- and long-term benefits to industry and employment in
the United States accruing from the Bank’s support of the proposed transaction are likely to outweigh the
short- and long-term injury to United States producers of the Exportable Good and related employment that
might result from the transaction.

In developing the detailed decisional process that is currently set forth in Section 2(e) of the Charter over
the past twenty years, Congress has digested significant volumes of testimony and evidence regarding the
objectives and difficulties of this process. Appendix C sets forth the legislative history of the Charter’s
provisions addressing economic impact. That history reflects the tension between the nation’s interest in
supporting the creation of U.S. jobs through expanded exports by U.S. manufacturers of capital equipment
and other goods and the nation’s interest in avoiding transactions where Ex-Im Bank, as a U.S. government
agency, would be perceived as assisting foreign manufacturers whose products might cause substantial injury
to U.S. producers and their employees as a result of lost sales, operating losses and losses of jobs.

Some members of Congress have argued, unsuccessfully, that the Bank’s Charter should contain an absolute
prohibition of Ex-Im Bank support for transactions that might have any significant adverse economic
impact on U.S. producers.13 They have cited transactions where Ex-Im Bank supported significant foreign
purchases of U.S. capital equipment that were used to increase coal production in Colombia, copper
production in Mexico and Chile, phosphate production in Morocco and Tunisia and steel production in
several countries. The Bank’s support of these exports was identified as contributing to persistent, long-term
operating losses and losses of employment by U.S. producers of those products. This perspective is referred
to in this Report as “Economic Impact Advocate” or “Pro-Economic Impact.”
    12 The principal criterion applied by the Bank’s PPG staff to analyze economic impact has been a quantitative “trade
       flow” analysis that compares the dollar value of U.S. capital equipment exports (i.e. widget making machinery)
       attributable to a transaction proposed for Ex-Im Bank support to the discounted dollar value of U.S production
       of the products produced with that capital equipment (widgets) that might be “displaced” by the new foreign
       production of widgets. In lieu of using the term “widgets” and to maintain consistency with terminology used by
       the PPG staff, the products produced by exported capital equipment that would compete with U.S. production
       are referred to in this Report as “Exportable Goods.” This Report in Section B suggests that the Bank should
       significantly decrease, or eliminate, its reliance on trade flow analysis to decide economic impact cases.
    13	 See the arguments made by Representatives Rahall, Craig, Levin, Klecza and Richardson in the
        floor debates occurring in 1986 during the Bank’s reauthorization that led to the adoption of
        Section 2(e) of the Charter excerpted in Appendix C. Representative Rahall’s proposed amendment
        to the Charter would have prohibited Bank support for proposed transactions where:

       (i) the export will be used or is intended for use in the production or manufacture of any commodity, mineral,
            material, or product which is produced or manufactured in substantial quantities in the United States; and

       (ii) the production or manufacture of such commodity, mineral, material, or product by such foreign entity will result in-

          (I) the importation of more than an inconsequential quantity of such commodity,
               mineral, material, or product into the United States; and

          (II) a net domestic increase in unemployment in the United States over the period during
              which any portion of the amount of such credit or guarantee is outstanding.
                                                               3
                   EVALUATION REPORT RELATING TO
                    ECONOMIC IMPACT PROCEDURES
OIG-EV-10-03

 Other members of Congress have sought, unsuccessfully, to eliminate many instances of economic impact
 review from the Ex-Im Bank Charter because they believe that the claimed benefit – avoidance of negative
 impact on the U.S. economy - will not be realized in most cases.14 They have pointed out that denial of
 Ex-Im Bank support will produce a “double hit” to the U.S. economy.15 First, denial will directly and
 unquestionably injure the U.S. exporter of capital equipment that loses a sale to a proposed new foreign
 manufacturing facility. Second, denial of Ex-Im Bank support will not prevent the potential for competitive
 injury to U.S. producers and employment that might result from the new foreign manufacturing facility.
 In most cases, a foreign competitor will step in and provide substitute capital equipment. The new foreign
 manufacturing facility will be built and will still produce the new foreign production that will compete with
 U.S. producers and result in the same degree of any competitive injury to U.S. producers associated with
 that facility. This perspective is referred to in this Report as “Economic Impact Critical” or “Anti-Economic
 Impact.”

 The PPG staff has observed that if the rationale for the Anti-Economic Impact position is fully adopted,
 few if any transactions would ever be deemed to cause substantial injury to U.S. producers because
 the “substantial injury” will occur anyway when a foreign competitor steps in and provides the capital
 equipment to increase foreign production of the Exportable Good. From this perspective, if a U.S. industry
 experiences conditions suggesting substantial injury, it is likely to be attributable to causes other than Ex-Im
 Bank support for a transaction. The Pro-Economic Impact position counters that if other causes have created
 conditions suggesting substantial injury in a particular U.S. industry, Ex-Im Bank should not be “helping”
 foreign competitors buy U.S. capital goods exports that will at some level contribute to making things worse.
 Section B of this Report provides suggestions as to how the Bank could more constructively address this
 inherent conflict.




     14	 Ex-Im Bank is the only one of the export credit agencies of the major industrialized nations that participate in the
        Organisation for Economic Cooperation and Development (“OECD”) that imposes an economic impact condition
        upon its support for domestic exports of capital equipment. Report to Congress on Export Credit Competition and
        the Export-Import Bank of the United States for the period January 1, 2008 through December 31, 2008. http://
        www.exim.gov/about/reports/compet/documents/2008_competitiveness_report.pdf It is fair to point out, however,
        that the U.S. has by far the largest and most diversified manufacturing economy among the industrialized nations,
        and therefore will have a greater potential for apparent or actual conflict between the interests of the manufacturers of
        capital equipment that produces a particular Exportable Good and domestic manufacturers of that Exportable Good.
     15 See the arguments made by Representatives Neal, Leach and Frenzel in the floor debates occurring in 1986 that
        led to the adoption of Section 2(e) of the Charter, excerpted in Appendix C. Representative Neal’s proposed
        amendment to Representative Rahall’s amendment, as adopted by a substantial majority of the House, would
        have permitted the Bank to support U.S. exports to a foreign buyer “which would in the absence of such [Ex-Im
        Bank provided] financing nevertheless produce or manufacture such commodity, mineral, material, or product.”
        The “Anti-Economic Impact” Neal Amendment was approved by the House in a recorded vote of 307-87.


                                                                   4
                 EVALUATION REPORT RELATING TO
                  ECONOMIC IMPACT PROCEDURES
                                                                                                            OIG-EV-10-03

Resolution of the Conflict – Determination by the Ex-Im Bank Board of Directors

To reconcile the conflicting policy perspectives presented in Congressional hearings and debate, Section 2(e)
(3) specifies that transactions proposed for Ex-Im Bank support that might result in substantial injury to
U.S. producers of the Exportable Good (directly, or indirectly because the world market for the Exportable
Good is in a condition of “oversupply”) can only be authorized if the Board concludes that the short- and
long-term benefits to industry and employment in the United States accruing from the Bank’s support of
the proposed transaction are likely to outweigh the short- and long-term injury to United States producers
of the Exportable Good and related employment.16 To exercise this authority the Board relies on the Bank’s
PPG staff to provide it with such information and analysis regarding the costs and benefits of the proposed
transaction and its effects on the U.S. economy as can be gathered, analyzed and presented within the
limited time and resources available.

Cost benefit analysis is at the heart of many governmental decisions. OMB Circular A-4 provides OMB’s
primary source of guidance to executive branch agencies on the development of regulatory analysis, and
particularly addresses how to construct sound cost benefit analysis in the face of significant uncertainty of
the sort that characterizes economic impact analysis. While OMB Circular A-4 is most directly targeted at
rule-making processes, the principles it expresses have broader applicability, and should be considered by
the PPG staff as they review and improve their economic impact methodology. The 2007 GAO Report
notes that “we believe that a consistent set of methodological principles, such as those embodied in OMB
guidance, would nevertheless enhance the economic impact analysis process.”17 Relevant recommendations
from OMB Circular A-4 regarding techniques and approaches that support sound regulatory analysis and
decisions are cited where appropriate in this Report.




Limitations on Board Action Resulting from Content of Economic Impact Reports

There have been only a small number of economic impact review cases in which the PPG staff reported
that the determination of economic impact was difficult or contested.18 In these cases, the ability of the
Board of Directors to carry out its responsibility under Section 2(e) (3) of the Charter appears to have been
impaired by the content and focus of the reports prepared by the PPG staff. The PPG staff reports in the
    16	 This compromise, which resulted in the enactment of Section 2(e)(1) and (3) in substantially their current form,
        was presented by Senator Byrd during the Senate’s consideration of the Bank’s reauthorization during 1986 and
        was accepted by the House during reconciliation. It reflects a consistent perspective in the legislative history
        that the Board should take greater responsibility for restraining the Bank’s staff from approving transactions
        where an adverse economic impact might result. Section 2(e)(4) was not part of the 1986 amendments; it
        was adopted in 1988 without any explanation of its intent being provided in the legislative history.
    17	 2007 GAO Report page 38.
    18	 Appendix B summarizes the 25 transactions that have been the subject of detailed economic impact reports
        prepared by the PPG staff between 2002 and 2009, out of more than 15.000 transactions approved by the
        Bank during that time period. The 2007 GAO Report describes in detail the screening process by which
        the PPG staff identifies the small number of transactions requiring full economic impact review.
                                                              5
                 EVALUATION REPORT RELATING TO
                  ECONOMIC IMPACT PROCEDURES
OIG-EV-10-03

 cases reviewed (i) did not address directly several elements of economic impact contemplated by the Charter,
 (ii) did not include available data and analysis that had relevance to the economic impact of the proposed
 transaction which was not relied upon by the PPG staff to support its recommendation to the Board, (iii)
 did not state the limitations and qualifications of the data, assumptions, estimates, methods and analysis
 relied upon by the PPG staff and (iv) did not fully address the sensitivity of the PPG staff’s conclusions to
 possible changes in assumptions and estimates that could be reasonably anticipated, particularly in cases
 where the data was mixed or inconclusive.

 In the limited number of cases where economic impact has been difficult to determine, where the
 application for Ex-Im Bank support was withdrawn after the PPG staff advised of a likely negative
 economic impact determination (usually in reliance on trade flow analysis) or where active opposition to a
 transaction by an affected industry or manufacturer has developed, the cited conditions have had the effect
 of diminishing the role of the Board of Directors, placing the Ex-Im Bank PPG staff in the position of
 effectively deciding the cases based on the results of trade flow analysis. The cited weaknesses in economic
 impact reports have contributed to confusion, questions, and criticism regarding the Bank’s Economic
 Impact Procedures, and the results of economic impact review, from the Reviewing Agencies and from
 members of the Board of Directors.

 The PPG staff has not directly addressed the conflict between the Pro-Economic Impact and Anti-
 Economic Impact perspectives in the economic impact reports prepared between 2002 and 2009. The PPG
 staff is keenly aware of the conflict, and in interviews identified the difficulty of that conflict as one of the
 drivers of the decision to rely heavily on trade flow analysis to support economic impact decisions. The PPG
 staff takes on a difficult, and statutorily unsupported, task in attempting to resolve the conflict between
 the Pro-Economic Impact and Anti-Economic Impact perspectives – Section 2(e) of the Bank’s Charter
 assigns that responsibility to the Board. The obligation of the PPG staff is to provide to the Board with such
 relevant and reasonably reliable data and analysis as can be gathered within the limits of time and resources
 so that the Board can exercise its responsibility.

 The economic impact reports reviewed in the preparation of this Report, and the trade flow analysis upon
 which they have been based, can be fairly criticized as accepting the Economic Impact Advocate perspective
 and rejecting the Economic Impact Critic perspective. These reports are based upon the assumptions that
 (i) if an additional amount of more than 1% of U.S. production will result from a transaction, substantial
 injury is proven for all purposes, and (ii) if the dollar value associated with a particular volume of new
 production of an Exportable Good that will compete with U.S. production exceeds the dollar value of the
 export transaction proposed for Ex-Im Bank support, there is no basis upon which the Board could conclude
 that substantial injury will not result, demanding that the Board reject support of the transaction.

 Unlike the Pro-Economic Impact position expressed in congressional debate, which pointed at specific
 macroeconomic conditions suggesting substantial injury, such as substantial long-term operating and
 employment losses, the PPG staff’s methodology does not require consideration of whether actual
 substantial injury is occurring or is likely to occur. No mention of the possible applicability of the
 perspective of the Economic Impact Critics to the transaction is made, facts relevant to that perspective are
 generally presented only in passing, if at all, and nowhere in the Bank’s Economic Impact Procedures is
                                                           6
                EVALUATION REPORT RELATING TO
                 ECONOMIC IMPACT PROCEDURES
                                                                                             OIG-EV-10-03

there any discussion that would reasonably support a decision by the Board to act based on the Economic
Impact Critic perspective. The result is that the analytical tools used by the Bank’s PPG staff effectively
usurp the decisional role that Congress intended the Board to exercise.

The only way for the PPG staff’s economic impact reports to do justice to the Pro-Economic Impact and
Anti-Economic Impact perspectives is to expressly acknowledge the two conflicting views, identify criteria
that are relevant to each and provide analysis and data in economic impact reports that address each of them,
to the extent it is available. Any other approach puts the PPG staff in the position of having to take sides
in an argument that Congress could not resolve, and interposes the staff’s judgment for the Board’s. The
absence of active Board involvement and guidance in deciding Ex-Im Bank support for transactions that
present economic impact issues has been a continuing source of frustration to various members of Congress
that is reflected in the legislative history and repeated efforts to modify the economic impact provisions of
the Bank’s Charter.

Consideration of the full range of criteria discussed in this Report, and others that the PPG staff may
identify from the two perspectives in specific cases, may indicate to a neutral observer that one or the other
of the Pro- or Anti-Economic Impact perspectives is most appropriate to facts of a specific case, a conclusion
that the PPG staff could state in its recommendation to the Board. And with which the Board could
disagree, provided that the PPG staff makes available to the Board the analysis and data that would support
a majority of the Board in adopting an opposing view.

What the Bank’s Charter Says About the Role of the Board of Directors in Deciding Economic
Impact Cases

The broad, non-technical and future-oriented language used by Congress in Section 2(e) of the Bank’s
Charter, and the views expressed by Congress and the public in its legislative history, strongly suggest that
Congress did not expect that economic impact decisions regarding Ex-Im Bank transactions would be made
by experts relying upon exhaustive data or finely tuned quantitative modeling of the economy, employment
or international markets. Most of the individual factual determinations required to complete the Board’s
assigned task of balancing future short- and long-term costs and benefits to the U.S. economy are not
capable of certainty. Many are inherently unknowable and can only be indirectly estimated or approximated
by reference to historical market data and the expected duration of current or anticipated trends. Congress’
choice of language reflects an expectation that politically accountable individuals serving on the Bank’s
Board of Directors should make these decisions based upon a reasonable knowledge of U.S. business and
international trade, supported by more expert advice and data developed by the Bank’s staff.

The Bank’s PPG staff is assigned the important role of gathering the available information, and making
preliminary determinations relevant to the ultimate balancing analysis by the Board that will decide an
economic impact case. This task requires that the Bank’s PPG staff have a basic understanding of market




                                                      7
                   EVALUATION REPORT RELATING TO
                    ECONOMIC IMPACT PROCEDURES
OIG-EV-10-03

 dynamics, sources of relevant information and techniques for analyzing that data. The requirement to notify
 and consult with other departments of the government and committees of Congress having knowledge of
 relevant information19 is intended to supplement the knowledge and data possessed by the PPG staff.

 The PPG staff has developed significant experience in analyzing international trade market conditions in
 the context of the Bank’s economic impact cases, although none of the current PPG staff are professionally
 trained as economists in this discipline.20 The PPG staff has observed that one of the significant challenges
 in preparing economic impact reports is that each relevant product market has unique characteristics,
 making it difficult to develop generally applicable procedures and methods, and making it unreasonable to
 expect that the PPG staff could be expanded to include economists with deep experience in specific relevant
 markets.21

 The suggestions made in this and other sections of this Report are based upon the following principles,
 which are believed to be consistent with the authority given to the Board in the Bank’s Charter and Bylaws.
 As a result, it is within the authority of the Board to request, should it so choose, that the Bank’s officers
 and staff implement Section 2(e) of the Charter in a manner consistent with these principles:

         The Board, not the Bank’s staff or officers, should make the balancing decisions contemplated by
           Section 2(e) based upon all material, relevant information that can be reasonably obtained within
           the resources available to the Bank, in a rational way that is consistent with the ordinary meaning
           of the words of the statute.

         The Board cannot exercise its statutory authority unless the Bank’s PPG staff in its economic impact
           reports provides to the Board information, to the extent available, and a balanced supporting
           analysis of that information, that will allow the Board to address the considerations expressed in
           Section 2(e) of the Charter.




     19	 The Departments of State, Treasury and Commerce and the Office of the United States Trade Representative
         receive draft copies of the PPG staff ’s economic impact reports, with the opportunity to comment to the
         staff and the Board. Section 2(e)(7) of the Bank’s Charter requires that the Bank seek comments from the
         Department of Commerce, the Office of Management and Budget, the Committee on Banking, Housing and
         Urban Affairs of the Senate and the Committee on Financial Services of the House of Representatives.
     20	 Section D of this Report suggests that hiring or contracting for the services of a professional
         economist with training in macroeconomic market analysis would improve the quality of the
         PPG staff ’s work on economic impact cases and its reports presented to the Board.
     21	 The PPG staff could obtain meaningful assistance from an economics PhD at a general level if it adopts
         this Report’s suggestion that economic impact analysis should focus more on large scale, macroeconomic
         trends. Complex, difficult or contested cases where it becomes necessary to evaluate significant volumes of
         conflicting market data also represent opportunities to improve the PPG staff ’s economic impact reports, and
         the staff ’s and Board’s decision making, by engaging an appropriately trained and experienced economist.
                                                                    8
                 EVALUATION REPORT RELATING TO
                  ECONOMIC IMPACT PROCEDURES
                                                                                                             OIG-EV-10-03

       Because the Economic Impact Procedures do not provide for proponents and opponents of Ex-
         Im Bank support for a particular transaction to submit evidence and briefs in support of their
         respective views, it is incumbent on the PPG staff to do a credible job of presenting the Board
         with data and arguments on both sides of the question, to the extent that it exists and can be
         developed within the limits of the resources and time available. (Balancing Approach).

       When Congress assigns a specific function or decision to a politically accountable body, as it has in
        the case of the Board’s authority under Section 2(e) of the Charter to decide economic impact
        cases, the informed consent of that body is required to delegate material elements of its decisional
        authority, or to adopt methodologies that implement that authority in a manner that is materially
        different than is expressly set forth in the authorizing statute.22

       When the Board delegates portions of its authority to the Bank’s staff, or approves the adoption
        of decisional methodologies with which to exercise its authority, the Board retains the power to
        review the results of those delegations and methods, and to make changes in them as needed to
        more effectively reflect the Board’s intent, and the intent of Congress as reflected in the Charter.




The Content of Economic Impact Reports – Five Core Questions to Be Answered

Section 2(e) of the Charter (see Appendix A), as implemented through Ex-Im Bank’s Economic Impact
Procedures (see Appendix E), requires that five core questions of economic impact be addressed when a
proposed export of capital equipment will result in the creation of new foreign production of an Exportable
Good that is expected to compete with the same, similar or competing commodity produced by U.S.
manufacturers. Each of these core questions has presented particular challenges to the development of an
effective decisional process relating to economic impact cases. Awareness and attention to the existence
of these questions by the Bank’s Board and staff and of the Board’s responsibility under the Charter will
improve the quality of the results of economic impact analysis:

       Question 1: 	 Has the Bank’s staff determined that there is likely to be a surplus (“oversupply”) of
         the Exportable Good on world markets at the time the new or expanded foreign production of the
         Exportable Good resulting from a transaction supported by the Bank will first be sold? (Charter
         Sec. 2(e)(1)(A)(i), EIP Stage V, Section 3.b.i)



    22 Specific statutes may be drafted broadly or narrowly, which will impact the degree of discretion for interpretation that
       is bestowed upon the agency staff and decisional body. In the 2007 OIG Report (Appendix G), which considered
       the Bank’s use of a $10 million screen to determine whether specific transactions will be considered by the Board, and
       correspondingly subjected to the Economic Impact Procedures and other statutory evaluations, the OIG concluded
       that the fact that the Board had expressly considered and adopted that methodology validated it under the Bank’s
       Charter and other relevant law. See Chevron U.S.A. Inc. v. Natural Resources Defense Council, Inc., 467 U.S. 837,
       104 S.Ct. 2778, 81 L.Ed.2d 694 (1984) and U.S. v. Mead Corporation, 533 U.S. 218, 121 S.Ct. 2164 (2001).
                                                               9
                  EVALUATION REPORT RELATING TO
                   ECONOMIC IMPACT PROCEDURES
OIG-EV-10-03

        Question 2:	 Will the amount of new or expanded foreign production of the Exportable Good
          resulting from a transaction proposed to be supported by the Bank exceed 1% of U.S. production
          of the Exportable Good (including similar or competing commodities) at the time the Exportable
          Good supported by the Bank will first be sold? (Charter Sec. 2(e)(1)(B), 2(e)(4), EIP Stage V,
          Section 2)

        Question 3:	 Has the Bank’s staff determined that the amount of new or expanded foreign
          production of the Exportable Good resulting from a transaction proposed to be supported by
          the Bank will cause substantial injury to U.S. producers of the Exportable Good (including U.S.
          producers of similar or competing commodities)? (Charter Sec. 2(e)(1)(B))23

        Question 4:	 Has the Bank’s staff determined that the foreign manufacturing facility that will
          benefit from the Ex-Im Bank-financed capital equipment is reasonably likely to produce a
          commodity in addition to, or other than, the Exportable Good specified in the application
          for Ex-Im Bank support, and if so, might the production of that additional commodity cause
          substantial injury to U.S. producers of the additional, or similar or competing, commodities?
          (Charter Sec. 2(e)(1)(B)) 23

        Question 5:	 If any of the preceding questions has been answered in the affirmative by the Bank’s
          staff, then, in the judgment of the Board of Directors, are the short- and long-term benefits to
          industry and employment in the United States accruing from the Bank’s support of the proposed
          transaction likely to outweigh the short- and long-term injury to United States producers of the
          Exportable Good and related employment? (Charter Sec. 2(e)(3), EIP Stage V, Section 3.b.ii)

 The PPG staff’s economic impact reports reviewed for this Report have not systematically addressed each
 of the first four questions, nor have they generally provided the Board with analysis and data that would
 support the Board’s determination of the answer to Question 5. As described in greater detail in Section B
 of this Report, the primary criterion applied by the PPG staff to support the staff’s recommendations, and
 the Board’s decisions, regarding economic impact cases in recent years is a quantitative trade flow analysis
 that compares the dollar value of U.S. exports supported by a proposed transaction to a discounted dollar
 value of projected future foreign production of the Exportable Goods that might “displace” sales of U.S.
 goods.

 The PPG staff’s trade flow analysis purports to address Questions 3 and 5 by concluding that “substantial
 injury” exceeding any possible benefit to the U.S. economy is likely to exist if (a) the new production of an
 Exportable Good will exceed 1% of U.S. production and (b) the discounted dollar value of the relevant new
 foreign production exceeds the dollar value of the proposed U.S. export.
     23	 The Economic Impact Procedures do not directly address this requirement, which was added to the Charter
         in 2006. In practice, the PPG staff in its economic impact analysis, and the Reviewing Agencies and
         the public in their comments, have in some cases considered whether the Ex-Im Bank supported capital
         equipment can be used to make other products than the Exportable Goods specified in the application,
         and also whether the Exportable Goods produced by the Ex-Im Bank supported capital equipment are
         intended to be incorporated in other commodities that would compete with U.S. producers.
                                                               10
                 EVALUATION REPORT RELATING TO
                  ECONOMIC IMPACT PROCEDURES
                                                                                                             OIG-EV-10-03

In addition to the trade flow analysis, economic impact reports usually include other data obtained by
the PPG staff regarding production capacity and volumes, pricing and other conditions affecting U.S.
and foreign markets for the Exportable Goods currently and in the recent past.24 The Economic Impact
Procedures do not elaborate on the nature, sources, or impact of this supplemental data beyond the
statements reflected in footnote 24.

A review of the economic impact reports prepared between 2002 and 2009 indicates that when supplemental
market data has conflicted with the results of trade flow analysis, the PPG staff has generally attempted to
modify the trade flow model to better accord with the data, as discussed below in Section B. No instances
of economic impact reports were identified where supplemental market data was cited to support a different
conclusion than that derived from quantitative trade flow analysis. Only one transaction was identified
where the Board, taking all the component data into account, reached a decision differing from the PPG
staff’s recommendation. The primary sources of data conflicting with the recommendation of the PPG staff
have been comments provided by the Reviewing Agencies and affected private parties responding to notice
of the proposed transaction.




Misinterpretation of Section 2(e)(4) by the Bank’s Staff

The Economic Impact Procedures, and the staff’s economic impact reports, do not directly provide for an
independent determination of substantial injury. This is surprising, and ultimately undermines the validity
of the current Economic Impact Procedures, because the clear statutory objective of Section 2(e) of the
Charter is to prevent substantial injury to U.S. producers of an Exportable Good that might result from an
Ex-Im Bank supported transaction.

The PPG staff reports that the failure of economic impact analysis to focus clearly on indicia of substantial
injury to U.S. producers reflects their interpretation of the effect of Section 2(e)(4) of the Charter, which
states that: “For purposes of paragraph (1)(B), the extension of any credit or guarantee by the Bank will
cause substantial injury if the amount of the capacity for production established, or the amount of the
increase in such capacity expanded, by such credit or guarantee equals or exceeds 1 percent of United States
production.” This Report disagrees strongly with the PPG staff’s interpretation.
    24	 “In addition to measuring whether the foreign buyer’s increased production could displace U.S. production of the same,
        similar, or competing good in markets where the foreign buyer directly competes head-to-head with U.S. production,
        the economic impact analysis will also consider other secondary factors and impacts of the proposed transaction. These
        other factors include: concurrent additions to production capacity of the product in the U.S., buyer’s country and any
        markets that may directly affect the prospects for current U.S. producers, the current and expected international trade
        flows of the product including the possibility that the foreign buyer’s production may displace production from a third-
        country resulting in displaced U.S. production, or reduced U.S. market share.” Economic Impact Procedures, Stage V,
        Sec. 3.b. “The next step in the economic impact process is the weighing of the analytical findings of the preceding steps
        and the qualitative information received through the notice and comment period (e.g., views from other USG agencies
        and affected parties) to determine the overall impact of Ex-Im Bank financing on the U.S. economy. At the conclusion
        of the economic impact analysis, staff makes a recommendation based on its evaluation of the various components. The
        Board takes all these components into account in reaching a decision.” Economic Impact Procedures, Stage V, Sec. 3.c.
                                                              11
                  EVALUATION REPORT RELATING TO
                   ECONOMIC IMPACT PROCEDURES
OIG-EV-10-03

 Section 2(e)(4) clearly states that the “definition” it provides relates only to paragraph (1)(B) of Section 2(e)
 of the Charter, which states:

         (1) In general. The Bank may not extend any direct credit or financial guarantee for establishing
             or expanding production of any commodity for export by any country other than the United
             States, if – . . . (B) the Bank determines that the extension of such credit or guarantee will cause
             substantial injury to United States producers of the same, similar, or competing commodity.

         Section 2(e)(4) clearly does not apply its definition of substantial injury to Section 2(e)(3), which
            is the source of the Board’s responsibility to make the final decision on transactions that are
            required to be subjected to economic impact analysis: (3) Exception. Paragraphs (1) and (2) shall
            not apply in any case where, in the judgment of the Board of Directors of the Bank, the short-
            and long-term benefits to industry and employment in the United States are likely to outweigh
            the short- and long-term injury to United States producers and employment of the same, similar,
            or competing commodity.

 The PPG staff’s economic impact reports issued between 2002 and 2009, and the use of trade flow analysis
 to reach a final PPG staff recommendation, rely excessively on establishment of “substantial injury” as a
 definitional matter under Sections 2(e)(4) and 2(e)(1)(B) as proof of substantial injury for purposes of the
 Board’s decisional responsibility under Section 2(e)(3). This result is not supported by the statute.

 A more plausible interpretation of Section 2(e)(4) in view of the legislative history from 1986, and from 1988
 when Section 2(e)(4) was adopted with almost no legislative comment, is that Section 2(e)(4) is intended to
 achieve a particular procedural effect – forcing transactions resulting in new production of an Exportable
 Good above a de minimis percentage of U.S. production (1%) to be decided by the Board of Directors, and
 not by the Bank’s staff. Without this procedural mechanism, the Bank’s staff would be able to effectively
 decide all economic impact cases in favor of the U.S. exporter of capital equipment by finding, on the
 limited available evidence of likely future market conditions that substantial injury to U.S. producers of the
 Exportable Good was unlikely to occur. Without Section 2(e)(4), the Board’s decisional authority would
 only be invoked if the Bank’s staff found that actual substantial injury to U.S. producers of the Exportable
 Good was likely to occur. As is developed throughout this Report, there are few objective tests that have
 any convincing claim to answer that question, so the Bank’s staff would, if that were their sole task, have
 relatively unbounded discretion to approve transactions.

 A review of the legislative history of Section 2(e) of the Charter, confirmed by the recollection of senior PPG
 staff, makes it immediately clear that Congress did not engage in any fact-finding effort to determine what
 level of new foreign production of an Exportable Good would be expected to result in substantial injury to
 U.S. producers of the Exportable Good. The 1% threshold effectively creates a presumption of substantial
 injury at the level of the PPG staff’s initial examination of a transaction’s economic impact, but not at the
 level of the Board’s final decision of the matter.



                                                            12
                 EVALUATION REPORT RELATING TO
                  ECONOMIC IMPACT PROCEDURES
                                                                                                            OIG-EV-10-03

The small number of specific industries mentioned in the legislative history appears to have involved levels
of production, and imports to the U.S., significantly above the 1% threshold. Using the presumption of
substantial injury at a level of 1% of U.S. production to assign the decision to the Board of Directors, rather
than the Bank’s staff, was reported by a senior member of the PPG staff to have been a compromise of the
irresolvable difference in perspective between the Pro- and Anti-Economic Impact members of Congress.

As is developed earlier in this section of the Report, the Economic Impact Advocates during the 1986
Congressional floor debates (excerpted in Appendix C) were soundly defeated by the majority of Economic
Impact Critics when the Advocates attempted to include in the Bank’s Charter a clear provision that would
have prohibited Ex-Im Bank support for transactions where there was evidence that substantial injury could
result. The compromise that was achieved was that the Bank’s politically accountable Board of Directors
would be charged with considering the issue and making the decision, rather than leaving it solely in the
hands of the Bank’s staff.




Issues in the Bank’s Approach to the Five Core Questions

The following subsections examine each of the five core questions which must be analyzed in the Bank’s
detailed economic impact reviews (i) describing the approach of the PPG staff in addressing each of them
in the economic impact reports reviewed for this Report, (ii) analyzing the significance of each question for
the Board’s decision-making responsibility, and (iii) suggesting how each question could be addressed more
consistently with the Bank’s Charter.

Question 1 – Oversupply

        Has the Bank’s staff determined that there is likely to be a surplus (“oversupply”) of the Exportable
          Good on world markets at the time the new or expanded foreign production of the Exportable
          Good resulting from a transaction supported by the Bank will first be sold? (Charter Sec. 2(e)(1)
          (A)(i), EIP Stage V, Section 3.b.i)

Economic impact reports typically address the question of oversupply25 in some detail. Congress did not
define the concept in the Charter; the PPG staff coined the term as shorthand for a condition where a
“commodity is likely to be in surplus on world markets” as expressed in Section 2(e)(1)(A)(i) of the Charter.
Section 3.b.i. of the Economic Impact Procedures (Appendix E) provides the Bank’s only public statement
on the subject. The legislative history of Section 2(e) supports the meaning of oversupply used by the PPG

    25	 The field of economics does not recognize “oversupply” as a term of art having technical meaning, nor does
       economic theory generally admit that there can be a “surplus” of a product on a market for any material
       length of time absent intervention by a government or other controlling actor. If at some point a significant
       new supply of the product is introduced to the market, or if demand for the product drops sharply, such
       that supply would exceed demand at the then current price, the price will adjust downward to a point where
       supply and demand will soon come into balance, making any surplus a temporary phenomenon at most.
                                                              13
                 EVALUATION REPORT RELATING TO
                  ECONOMIC IMPACT PROCEDURES
OIG-EV-10-03

 staff. GAO in the 2007 GAO Report observes that “Ex-Im’s oversupply assessment—which can be a key
 factor in determining economic impact—lacks a clear basis because Ex-Im has not defined oversupply or
 matched the list of oversupply indicators in its procedures with those that they actually use.”26

 Consideration of oversupply as a possible basis for Ex-Im Bank to decline to support a transaction addresses
 the concern expressed by members and witnesses in Congressional hearings that substantial injury to U.S.
 producers of an Exportable Good might result if the creation of new foreign production of an Exportable
 Good occurs at a time when U.S. producers are already suffering substantial injury in terms of declining
 prices, declining sales volumes, significant reductions in workforce, operating losses and business failures.
 Under those conditions, it is fair to say that the available supply of the Exportable Good on world markets
 materially exceeds demand for the Exportable Good at a price that would allow U.S. producers of the
 Exportable Good to sell their normal levels of production at a reasonable profit and support or expand their
 employment base.

 Among the indicia of oversupply cited in the Economic Impact Procedures are anti-dumping or
 countervailing duty orders against a product (preliminary or final), Section 201 investigations of unfair
 trade practices initiated at the behest of U.S. government actors, stagnating or falling global prices and/or
 falling gross margins (price minus variable cost) of domestic producers, industry bankruptcy trends and/
 or industry unemployment trends, Trade Adjustment and Assistance (TAA) Program petitions and multi-
 lateral production limitation agreements.

 The fact that the oversupply required to be considered is in the future, at the time the new foreign
 production facility begins to produce Exportable Goods, complicates the analysis as dynamic and
 unpredictable economic trends can be expected to impact the future state of the international market. The
 resulting uncertainty has generally not been addressed systematically by the PPG staff through development
 of standard methods for projecting future market conditions or through sensitivity analysis. In practice, the
 most recent data available to the PPG staff, sometimes one or two years old, is generally considered to be a
 reasonable approximation of the expected future state of the market.

 In some economic impact reports the PPG staff has made a distinction between “structural oversupply”
 and “cyclical oversupply” of an Exportable Good in terms of how the trade flow analytical model is applied.
 “Structural oversupply” is identified as a condition where underlying fundamentals in an international
 market result in depressed prices, significant employment losses or other adverse effects to U.S. producers
 or the international market generally over extended periods of time. In an industry experiencing structural
 oversupply, any new foreign manufacturing capacity for an Exportable Good would then be predicted by the
 PPG staff’s trade flow analysis to result in substantial injury to U.S. producers.

 “Cyclical oversupply” is identified as a condition where the international market for the Exportable Good
 fluctuates in a somewhat predictable pattern over time such that in “up” years when demand exceeds
 supplies of the Exportable Good, producing upward pressure on prices, new foreign production of the


     26	 2007 GAO Report, page 30.
                                                          14
                EVALUATION REPORT RELATING TO
                 ECONOMIC IMPACT PROCEDURES
                                                                                             OIG-EV-10-03

Exportable Good would be expected to be absorbed without any ill effect on U.S. producers. In “down”
years when demand weakens and production capacity for the Exportable Good exceeds supply at a desirable
price level, a negative impact on U.S. producers would be predicted.

Consideration of oversupply has been effectively incorporated in the PPG staff’s trade flow analysis, and
thereby in the balancing of costs and benefits supporting the PPG staff’s recommendations to the Board,
by counting the expected foreign production of the Exportable Good on an “every-other-year” basis in
industries subject to cyclical oversupply and in every year for industries experiencing structural oversupply.
This has been described by the PPG staff as a pragmatic adjustment to the quantitative trade flow analysis to
cause it to be more consistent with the observed realities of a specific market.

The PPG staff’s reports distinguishing structural and cyclical oversupply have drawn criticism from the
Reviewing Agencies as not having support in Section 2(e) of the Bank’s Charter, where Congress expressly
specified the required determination as being whether “the [Exportable Good] is likely to be in surplus on
world markets at the time the resulting [Exportable Good] will first be sold.” Using the every-other-year
convention in quantitative trade flow analysis has also been criticized by the Reviewing Agencies and by
some members of the Bank’s Board as having questionable validity and possibly suggesting a results-driven
effort by the PPG staff to produce a particular result from the trade flow model.

The criticism leveled at the consideration of “cyclical oversupply” and the “every-other-year” convention used
in trade flow analysis both reflect the inherent difficulty of the task assigned to the Bank and the Board
by Congress in Section 2(e) of the Charter, and the inherent weakness of quantitative trade flow analysis
as a criterion for deciding economic impact cases, as discussed in more detail in Section B below. Both
proponents and opponents of a transaction may seek to use the result suggested by trade flow analysis as
the decisive criterion supporting their position without addressing the fundamental issues that the Board
is charged with considering under Section 2(e) of the Charter - whether actual substantial injury to a
U.S. industry producing an Exportable Good is expected to occur as a result of Ex-Im Bank support of a
transaction, and whether that injury is offset by benefits accruing from completing the export of U.S.-made
capital equipment.

The concepts of structural and cyclical oversupply also reflects the inherent difficulty of economic impact
analysis as laid out in the Charter. If a foreign factory that is proposing to buy Ex-Im Bank supported
U.S. manufacturing equipment is projected to begin production eighteen months later, it is not possible
for anyone to predict with certainty that oversupply that existed two years ago, and which may or may
not exist today (the data being unavailable), will exist on that future day. Further, even if oversupply is
presumed to exist on a future date, the inquiry contemplated by Section 2(e) does not stop there. The core
question to be decided is whether in view of the full range of data and analysis that may be considered by
the Board, “the short- and long-term benefits to industry and employment in the United States [from the
proposed transaction] are likely to outweigh the short- and long-term injury to United States producers and
employment of the same, similar, or competing [Exportable Good].” Whatever “costs” are considered in that
analysis, it is likely that their impact will be felt over an extended period of time, not on a single day when
the new foreign production commences.

                                                      15
                   EVALUATION REPORT RELATING TO
                    ECONOMIC IMPACT PROCEDURES
OIG-EV-10-03

 If quantitative trade flow analysis is no longer used as the primary criterion for deciding economic impact
 cases, as suggested in Section B, then the existence of structural as opposed to cyclical oversupply becomes
 one of a number of relevant criteria to be considered by the PPG staff in its report and recommendation
 to the Board, and by the Board in its balancing analysis. In a proper case, it would appear reasonable for
 the Board to conclude that the risk of future harm to U.S. producers from the creation of new, potentially
 competing, foreign supply of an Exportable Good will be greater where the market is subject to structural
 oversupply than where oversupply conditions historically have been cyclical.

 Question 2 – 1% of U.S. Production

        Will the amount of new or expanded foreign production of the Exportable Good resulting from
          a transaction proposed to be supported by the Bank exceed 1% of U.S. production of the
          Exportable Good (including similar or competing commodities) at the time the Exportable Good
          supported by the Bank will first be sold? (Charter Sec. 2(e)(1)(B), 2(e)(4), EIP Stage V, Section
          2)

 Economic impact reports less frequently and completely address Question 2, although it can have significant
 effect. If a transaction will not result in the creation of new foreign production that will exceed the 1% of
 U.S. production threshold, no further economic impact review is required 27 unless the market is determined
 to be in a condition of oversupply.28 The PPG staff reports devoting substantial resources upon receipt of an
 application for Ex-Im Bank support of an export of capital equipment to identify the relevant Exportable
 Good market or markets and to obtain data on U.S. production levels in order to support this analysis.

 As with Question 1, the PPG staff’s analysis is typically based on data that is one or two years old combined
 with an assumption that the past is a reasonable approximation of future conditions. At one level, applying
 the 1% of U.S. production test can be fairly simple, and that simple data is typically included in economic
 impact reports as a comparison of the projected annual foreign production of the Exportable Good in units
 against U.S. production of the Exportable Goods in units during the most recent available year. A number
 of potential complicating factors are not typically addressed in economic impact analyses, such as:

         Are U.S. production, consumption, inventories, and prices increasing or decreasing over time, and at
         what rate?


     27	 Section 2(e), as well as Section 2(b)(1)(B) and 12 U.S.C. 635a-2 (all presented in Appendix C),
        provide support for the Bank’s staff or Board to decline Ex-Im Bank support for any transaction
        based on concerns that an adverse economic impact to the U.S. would occur.
     28	 The 2007 OIG Report attached as Appendix G reviews the PPG staff ’s consideration of applying the concept of
        “proportionality” to the 1% of U.S. production test. Simply stated, if the Ex-Im Bank supported export of capital
        equipment only represented 10% of the cost of a new production facility, the proportionality concept would
        assert that only 10% of the output of the facility should be counted as new production of an Exportable Good
        attributable to Ex-Im Bank support for purposes of the 1% of U.S. production test. Based on criticism of this use
        of proportionality, the Economic Impact Procedures now provide that “the concept referred to as “proportionality”
        . . . shall not be the only element used to avoid a full economic analysis.” Stage V, Section 2 (Appendix E).
                                                                 16
                 EVALUATION REPORT RELATING TO
                  ECONOMIC IMPACT PROCEDURES
                                                                                                              OIG-EV-10-03

       Is worldwide demand for the Exportable Good increasing, and at what rate, relative to new
       worldwide production such that new demand might absorb, or more than absorb, the new
       production, resulting in rising prices and profits for competitive U.S. producers?

The wording of Section 2(e)(1), (2) and (4) in the context of the inquiry into “substantial injury” raises the
question of what Congress intended in stating as a “definition” that a transaction approved by Ex-Im Bank
will cause substantial injury if the new foreign production of an Exportable Good that results exceeds 1% of
U.S. production. A review of the legislative history of Section 2(e)(4)’s 1% of U.S. production test indicates
that it was adopted by Congress based on its use as a minimum threshold for analysis in a single Ex-Im Bank
economic impact report, which appears to have adopted it as a de minimis threshold. As a historical note,
the 1% threshold has been in effect for approximately 20 years. During that time, the PPG staff reports
that only a small fraction, less than 10%, of the transactions evaluated for economic impact by Ex-Im
Bank because they would contribute to new foreign production of an Exportable Good have been found to
actually involve any conceivable question of substantial injury to U.S. producers of an Exportable Good and
related employment.

Viewed as a procedural rule, the 1% test assures Congress that the Bank’s staff does not have the ability to
avoid submitting difficult economic impact questions to the Board by the expedient of determining under
Section 2(e)(1)(B) that a proposed transaction will not cause “substantial injury” to U.S. producers. The
factual determination of substantial injury to U.S. producers is at the core of the economic impact review
Congress assigned to the Bank’s Board of Directors. For the same reasons, the PPG staff’s “1% of U.S.
production” analysis should not be applied in a way that keeps from the Board of Directors evidence of
actual substantial injury to U.S. producers from a proposed transaction, or the absence of any evidence of
potential substantial injury.

The data and analysis developed by the PPG staff to support their determination of the “1% of U.S.
production” test should be summarized and included in the economic impact reports presented to the Board.
In an appropriately supported case, it would appear reasonable for the Board to conclude that the risk of
harm to U.S. producers of an Exportable Good and related employment that might result from an Ex-Im
Bank supported export of capital equipment will be greater where the new production of an Exportable
Good is a higher percentage of U.S. production than in a case where the new production is a relatively
lower percentage of U.S. production.29 Comparable data and analysis for international production of the
Exportable Good is also likely to be relevant. In many industries, production costs and prices are determined
in international markets. U.S. production, even if it has grown domestically, in many sectors has represented
a declining percentage of worldwide production.30
    29	 At the same time, care should be taken to be sure that other data that may impact the conclusion
       are taken into account. A relatively smaller amount of new foreign production that is specifically
       targeted at the U.S. market might be found to have a potentially greater economic impact on U.S.
       producers than would a relatively larger amount of new foreign production that is likely be absorbed
       in foreign markets where U.S. producers may have relatively smaller shares of the market.
    30	 The potential competitive impact of new foreign production equal to 1.1% of U.S. production will be
        much greater in a market where U.S. production represents 50% of world-wide production than will
        be the case where U.S. production represents 10% or less of world-wide production, the effects of these
        considerations were not typically analyzed in the economic impact reports reviewed by the OIG.
                                                              17
                  EVALUATION REPORT RELATING TO
                   ECONOMIC IMPACT PROCEDURES
OIG-EV-10-03

 Question 3 – Substantial Injury

        Has the Bank’s staff determined that the amount of new or expanded foreign production of the
          Exportable Good resulting from a transaction proposed to be supported by the Bank will cause
          substantial injury to U.S. producers of the Exportable Good (including U.S. producers of similar
          or competing commodities)? (Charter Sec. 2(e)(1)(B))

 The issue of substantial injury to U.S. producers necessarily reappears as part of Question 5, where the
 Board is required to evaluate the “short- and long-term costs” to U.S. producers of the Exportable Good
 and related employment in relation to the “short- and long-term benefits” of the transaction for the
 U.S. economy and employment. A fair reading of Section 2(e) is that the “short- and long-term costs”
 to be balanced by the Board are the effects of substantial injury – lost sales, declining prices, operating
 losses, declining employment. Because the PPG staff has determined to so strongly base its analysis and
 recommendations on trade flow analysis, as discussed in more detail in Section B of this Report, and
 because trade flow analysis considers only the relative magnitude of potential head-to-head competition
 between the new foreign production of the Exportable Good and U.S. production of the Exportable
 Good, there has been only limited consideration of the likelihood of substantial injury to U.S. producers,
 independently in response to Section 2(e)(1)(B) of the Charter or in connection with Question 5. This is
 one of the reasons this Report in Section B suggests decreased reliance on trade flow analysis and expansion
 of the criteria considered by the PPG staff and presented in its economic impact reports.

 The legislative history of Section 2(e) provides a number of examples of what some members of Congress
 viewed as U.S. industries that were experiencing the sort of “substantial injury” to U.S. producers and
 related employment that it was concerned about, and where Ex-Im Bank had, or was proposed, to provide
 support for capital equipment that would increase the foreign production. These examples include
 Colombian coal production, copper production in Mexico, Chile and Peru, Moroccan and Tunisian
 phosphate production, world-wide steel production generally and DRAM computer chip production in
 the Pacific Rim.31 In each of these instances, strong foreign competition at significantly lower prices,
 sometimes supported by foreign government subsidies, produced conditions such as significant reductions
 in U.S. employment or wages in the affected industries, operating losses incurred by U.S. producers and
 U.S. producers going out of business over sustained periods. These effects were not cyclical in nature, and
 did not merely “squeeze” otherwise profitable U.S. businesses. The sort of large scale, prolonged effects on
 particular U.S. industries are referred to in this Report as “macroeconomic” injury.

 It is notable that the examples cited in the legislative history of Section 2(e) do not include cases where
 the industries were cyclical, enjoying some good years and some bad years, or where increased foreign
 competition had put pressure on profitability, resulting in U.S. producers working to improve their
 competitiveness by responding with efficiency improvements that might result in viable, healthy companies
 even as the industry as a whole experiences employment decreases and sees marginal competitors
 failing. The examples cited in the legislative history of Section 2(e) contemplate “substantial injury” at a
 macroeconomic level that is materially above and beyond the sort of pain and dislocation that accompanies

     31	 See Appendix C.
                                                         18
                  EVALUATION REPORT RELATING TO
                   ECONOMIC IMPACT PROCEDURES
                                                                                                               OIG-EV-10-03

having to participate in a competitive world economy. In today’s economy, it is expected that service and
quality will improve over time, while prices decrease, new international competitors regularly appear, and the
manpower commitments and other costs associated with producing a given volume of goods will decrease
steadily over time.

Despite the clear references in the legislative history of Section 2(e) to U.S. industries experiencing the sort
of macroeconomic “substantial injury” conditions that Congress intended should be considered by the
PPG staff and the Board of Directors in making economic impact determinations, these conditions are
largely unaddressed by quantitative trade flow analysis and other features of the Bank’s current Economic
Impact Procedures. Interviews of PPG staff confirmed that they have an effective understanding of the
significance of the sorts of macroeconomic “substantial injury” conditions identified in the legislative
history. It is apparent from the PPG staff’s explanations of the results of specific economic impact cases that
these conditions, or their absence, were given significant weight by the PPG staff in determining the results
indicated by trade flow analysis. In some cases, the PPG staff cited the presence or absence of indicators
of macroeconomic injury as the basis for their decision to modify the trade flow analysis methodology so it
was more in accord with the observed data. Focus on the largest sources of the costs and benefits considered
in economic impact analysis, even if they cannot be quantified, is consistent with the guidance provided in
OMB Circular A-4.32

By failing to identify and analyze the sort of conditions indicating substantial injury that are underlying
economic impact decisions, the current Economic Impact Procedures make it difficult for the Board to assess
the staff’s recommendations, particularly in cases where a Reviewing Agency, or a company or industry that
is struggling with international competition, registers opposition to a particular transaction. This is one of
the principal considerations underlying the suggestion in Section B of this Report that the Economic Impact
Procedures be improved by developing additional criteria for assessing economic impact and decreasing
reliance on trade flow analysis.

The PPG staff’s economic impact reports prepared during the covered period of 2002 to 2009 and
interviews with the PPG staff, the Board and representatives of the Reviewing Agencies convey a consistent
impression that macroeconomic data demonstrating the absence of substantial injury in specific U.S.
Exportable Goods markets has supported uncontested findings of “no adverse economic impact” in
a majority of the cases submitted to the Board of Directors. Macroeconomic market data suggesting
conditions consistent with substantial injury, or the lack thereof, also appear to drive the heated arguments
among the interested parties over the correct result in the small number of difficult or controversial cases.
A careful discussion of what such data show, and do not show, in the PPG staff’s economic impact reports
would increase the transparency of those reports and policy arguments, and would support the Board’s
statutory responsibility.



    32	 “You should exercise professional judgment in identifying the importance of non-quantified factors . . . If the non-
        quantified benefits and costs are likely to be important, you should recommend which of the non-quantified factors
        are of sufficient importance to justify consideration in the regulatory decision. This discussion should also include a
        clear explanation that support designating these non-quantified factors as important.” OMB Circular A-4, page 10.
                                                                19
                 EVALUATION REPORT RELATING TO
                  ECONOMIC IMPACT PROCEDURES
OIG-EV-10-03

 Question 4 – Adverse Impact from Related Goods

        Has the Bank’s staff determined that the foreign manufacturing facility that will benefit from the
          Ex-Im Bank-financed capital equipment is reasonably likely to produce a commodity in addition
          to, or other than, the Exportable Good specified in the application for Ex-Im Bank support,
          and if so, might the production of that additional commodity cause substantial injury to U.S.
          producers of the additional, or similar or competing, commodities? (Charter Sec. 2(e)(1)(B))

 This inquiry was added to Section 2(e) of the Charter during the Bank’s 2006 reauthorization to address
 a small number of cases where a proposed transaction would not directly support new foreign production
 of an Exportable Good that would compete with U.S. production of that Exportable Good, but might
 cause substantial injury to U.S. producers of other goods indirectly through its incorporation into another
 product.

 An example of a transaction where this issue has arisen involved U.S. manufactured equipment for
 processing raw titanium. Direct competition with U.S. produced processed titanium was not an issue,
 but it appeared that the processed titanium might be dedicated to expand the capacity of a specific foreign
 manufacturer whose output would compete directly with U.S. producers, raising an economic impact
 issue. Because this issue arises infrequently and has not arisen since the amendment of the Charter in late
 2006, it has not been addressed in the Economic Impact Procedures or in subsequent economic impact
 reports. It is analyzed by the PPG staff as part of their review of proposed transactions involving exports of
 U.S. produced manufacturing equipment, and therefore it would be appropriate for the staff’s analysis and
 conclusions to be summarized in economic impact reports.

 Question 5 – Balancing of Costs and Benefits by the Board

        If any of the preceding questions has been answered in the affirmative, then, in the judgment of
            the Board of Directors, are the short- and long-term benefits to industry and employment in the
            United States accruing from the Bank’s support of the proposed transaction likely to outweigh
            the short- and long-term injury to United States producers of the Exportable Good and related
            employment? (Charter Sec. 2(e)(3), EIP Stage V, Section 3.b.ii)

 Economic impact reports often include individual items of data and analysis that speak to the considerations
 to be balanced by the Board pursuant to Question 5. These reports do not undertake to systematically
 assemble, categorize and evaluate each identifiable element of short- and long-term cost and benefit
 associated with a proposed transaction in the sort of balancing analysis that Section 2(e)(3) of the
 Charter expressly contemplates. The principal reasons identified for this pattern are (a) the PPG staff’s
 determination to treat the 1% of U.S. production test discussed above in Questions 1 and 3 as a factual
 determination of substantial injury rather than a procedural element of Section 2(e) intended to place
 potentially difficult cases before the Board, and (b) the PPG staff’s adoption of trade flow analysis as the
 primary criterion used determine the balance of costs and benefits associated with a proposed transaction,
 as described in more detail in Section B of this Report. As a result, the Board has in most cases not had

                                                         20
                EVALUATION REPORT RELATING TO
                 ECONOMIC IMPACT PROCEDURES
                                                                                             OIG-EV-10-03

before it the full range of available material data and analysis that would allow it to independently make
the balancing determination contemplated by Congress in Section 2(e)(3) of the Charter, particularly in the
small number of cases that have been difficult or controversial.

Section B of this Report suggests that (i) the PPG staff’s reliance on trade flow analysis as the sole or
primary criterion for deciding economic impact cases be discontinued and (ii) the Bank’s Economic Impact
Procedures be modified to include additional criteria for identifying short- and long-term benefits and costs,
and employment effects, associated with transactions subjected to economic impact analysis.

A particularly notable omission from most of the Bank’s economic impact reports is any analysis of the
benefits to the United States economy associated with the successful completion of the proposed export
transaction, beyond the dollar value of the proposed export transaction that is incorporated in the
quantitative trade flow analysis. Benefits to the United States from a specific export transaction accrue at
two possible levels. First, there is the obvious short-term benefit of the successful manufacture and sale
of the exported goods and the employment supported by that production. Second, it is in the long-term
interest of the U.S. to have strong, successful competitors in the world manufacturing economy who are
technology, performance, and service leaders in their industries.

For example, in an appropriately supported case, it would appear reasonable for the Board to conclude
that an Ex-Im Bank financed export transaction that was important to the survival and economic health
of a smaller specialized manufacturer would have a long-term benefit to the U.S. economy, or would be
responsive to Congressionally directed policy mandating support for small business, and that these benefits
should be balanced against any negative comment that might be registered by a Reviewing Agency or a U.S
producer of the impacted Exportable Good. In other cases, the capital equipment proposed to be exported
with Ex-Im Bank support might have required many man-years of work of a significant number of highly
skilled U.S. workers, whereas the resulting Exportable Good, as produced in the U.S., might support a much
smaller number of workers at lower skill levels. Under the current formulation of the Economic Impact
Procedures, these sorts of benefits to the U.S. economy and employment from the proposed transaction
would typically not be considered in an economic impact report.

It would also be consistent with the language used by Congress in Section 2(e)(3) of the Charter for the PPG
staff’s economic impact reports to consider the probabilities associated with specific costs and benefits. That
section asks the Board to determine whether the short- and long-term benefits “are likely” to outweigh the
short- and long-term injury the transaction might cause. A probabilistic analysis is reasonable given that the
PPG staff and the Board are being asked to look into an uncertain future. By contrast, trade flow analysis
is based on what the PPG staff refers to as a “conservative” assumption that new foreign production that
is targeted to the U.S. market has a probability of displacing a sale of a competing U.S. product of 100%,
while acknowledging that it is relatively certain in most cases that the “real world” effect of new head-to-
head competition will not be the loss of 100% of the sales of the Exportable Good by the U.S. producer.




                                                      21
                   EVALUATION REPORT RELATING TO
                    ECONOMIC IMPACT PROCEDURES
OIG-EV-10-03

 Adoption of the most conservative possible formulation can be questioned in view of the Bank’s statutory
 mission of supporting U.S. employment through exports and is inconsistent with OMB’s guidance in OMB
 Circular A-4.33

 Ex-Im Bank disapproval of a transaction typically means that no U.S. export sale will be made, so the
 probability of a “benefit” from completing the proposed sale, and any related employment effect, with Ex-
 Im Bank support is 100%. If the new foreign production of an Exportable Good resulting from an Ex-Im
 Bank supported transaction is targeted at the U.S. market, the probability of some level of “cost” in terms
 of lost sales, lower prices or decreased employment by U.S. producers of the Exportable Good would be
 expected, but the likelihood of U.S. producers of the Exportable Good losing an identical volume of unit
 sales would be less than 100%. The 2007 GAO Report observes that the Bank’s methodology for analyzing
 these issues of cost and benefit could be improved.34

 If most of the new foreign production will be directed at foreign markets where U.S. producers have
 relatively smaller market shares, or if worldwide demand for the Exportable Good has been increasing
 apace with new production capacity, the probability of specific identified “costs” might be substantially less
 than 100%, and in some cases might reasonably be determined to be 0%. The fact that the U.S. imports
 significant volumes of many products today, and the likelihood that the manufacturers of those imported
 goods might also lose head-to-head sales to the new foreign production can also have a significant effect on
 the actual competitive effects of a proposed Ex-Im Bank transaction, but is not taken into account in the
 PPG staff’s current mode of economic impact analysis.

 This Report does not suggest that the PPG staff adopt expanded or more finely tuned quantitative
 analytical methods to support the Board’s balancing analysis. There is no indication that Congress expects
 that the Board will base its economic impact decisions on quantitative modeling of the U.S. economy,
 employment, or international markets. It would be difficult for the PPG staff to assemble accurate, reliable,
 quantifiable data addressing many elements of cost and benefit associated with a transaction on a consistent
 basis, project that data forward by months or years and complete the work within the limited available
 time and resources of the Bank.. At the same time, this sort of information may be available from sources
 external to the Bank in some cases. If it is available and appears reasonably well supported and relevant, it
 should be referenced in economic impact analyses and considered by the PPG staff and the Board as one of
 a number of factors contributing to their determinations.




     33	 “Your estimates cannot be more precise than their most uncertain component. Thus, your analysis should report
         estimates in a way that reflects the degree of uncertainty and not create a false sense of precision. Worst-case or
         conservative analyses are not usually adequate because they do not convey the complete probability distribution
         of outcomes, and they do not permit calculation of an expected value of net benefits.” OMB Circular A-4, page
         40. OMB Circular A-4 discusses in detail principles applicable to addressing probability in regulatory analyses.
     34	 2007 GAO Report, pp. 23-26.
                                                                   22
                 EVALUATION REPORT RELATING TO
                  ECONOMIC IMPACT PROCEDURES
                                                                                                              OIG-EV-10-03

Disclosure of Assumptions, Estimates, Data Limitations

OMB Circular A-4 describes the characteristics of a well-prepared regulatory analysis:

       A good analysis is transparent. It should be possible for a qualified third party reading the report to
       see clearly how you arrived at your estimates and conclusions. For transparency’s sake, you should
       state in your report what assumptions were used . . . It is usually necessary to provide a sensitivity
       analysis to reveal whether, and to what extent, the results of the analysis are sensitive to plausible
       changes in the main assumptions and numeric inputs. A good analysis provides specific references
       to all sources of data, appendices with documentation of models (where necessary), and the results
       of formal sensitivity and other uncertainty analyses. Your analysis should also have an executive
       summary, including a standardized accounting statement.

Several members of the Board and representatives of the Reviewing Agencies commented that the Bank’s
Economic Impact Procedures and the PPG staff economic impact reports would be improved by providing
an understandable explanation of the limitations of the data relied upon by the PPG staff in making their
recommendations to the Board. The 2007 GAO Report echoed these concerns.35 These comments reflected
awareness of the difficulty of obtaining data addressing the core questions of economic impact analysis
in many cases, as discussed in the preceding sections of this Report. For example, significant amounts of
recent and projected U.S. and international market data and analysis are generally available for economic
cases involving steel production, whereas cases involving less thoroughly studied markets suffer from very
limited data. The concern of the individuals commenting was that they did not believe that the PPG staff’s
economic impact reports adequately distinguished these disparate cases, making it difficult for the Board
and the Reviewing Agencies to assess the basis for the PPG staff’s recommendations.

A related area of comment from the same individuals focused on the PPG staff’s use of assumptions and
estimates to support their conclusions and recommendations, to the effect that the Economic Impact
Procedures and the PPG staff’s economic impact reports would be improved by more thorough descriptions
of these assumptions and estimates and the limitations of the degree of reliance that could reasonably be
placed on them. The majority of the instances of concern identified in the interviews were associated with
the PPG staff’s use of trade flow analysis, which is discussed in greater detail in Section B of this Report,
and the PPG staff’s methods for projecting future market conditions based on current or historical data.

For example, the PPG staff’s economic impact reports often assume that future volumes of foreign and
U.S. production of an Exportable Good will be identical to the levels in the most recent year for which
data is available. Another example is the assumption of trade flow analysis that every unit of new foreign
production of an Exportable Good will displace the sale of a unit by a U.S. producer, and not other foreign
producers. The PPG staff readily acknowledges actual results will not match these assumptions, but the


    35	 “[W]e identified limitations in certain assumptions Ex-Im makes to estimate economic impact in its
        detailed analyses. In some cases, these limitations had not been adequately disclosed nor had the sensitivity
        of economic impact conclusions to these assumptions been explored. 2007 GAO Report, page 36.
                                                               23
                 EVALUATION REPORT RELATING TO
                  ECONOMIC IMPACT PROCEDURES
OIG-EV-10-03

 Economic Impact Procedures and economic impact reports have not been consistent in expressing their
 limitations, explaining their origins, or assessing the significance of any variance for the conclusions reached
 by the PPG staff.

 In order for the Board and the Reviewing Agencies to understand the basis for the PPG staff’s conclusions,
 the Economic Impact Procedures and individual economic impact reports should address the limitations
 of the data, assumptions and estimates that the PPG staff as relied upon in reaching its conclusions.
 Implementing the suggestions in Sections A and B of this Report, particularly decreasing the degree of
 reliance on trade flow analysis, should make the economic impact review process more understandable by
 broadening the types of data considered. Even if a broader range of data is considered by the PPG staff
 and the Board in deciding economic impact cases in the balancing analysis suggested in this Section A,
 the limitations of the data considered in that analysis, and the limitations of assumptions and estimates
 relied upon by the PPG staff, should be addressed. For example, the PPG staff might cite slow growth in
 production capacity in a particular industry as supporting the PPG staff’s assumption that production in a
 future year would be equal to the production reported in a recent year.




 Indications of Sensitivity of Results

 One conclusion reached from the findings detailed in Sections A and B of this Report, which was supported
 by comments received from the Board, is that the PPG staff’s economic impact reports have frequently
 presented the Board with a black or white “recommend approval” or “do not recommend approval”
 conclusion with relatively little information before the Board that would allow it to independently weigh
 the information and analysis supporting and opposing the PPG staff’s recommendation, or to compare that
 information, analysis and recommendation for consistency with prior cases. In such cases, the PPG staff’s
 analysis and conclusions may be perceived as having supplanted the Board’s role in the decisional process
 contemplated by Section 2(e) of the Charter. This perception may also be supported by the fact that several
 transactions have been withdrawn by the sponsors when informed that the PPG staff would give them a
 negative recommendation solely based upon the results of trade flow analysis.

 The Bank has provided support for many transactions where the likelihood of substantial injury to U.S.
 producers of an Exportable Good and related employment was perceived as being so remote that there could
 be little doubt as to the PPG staff’s and Board’s conclusions. As noted previously, more than 90% of the
 cases considered for economic impact received no adverse comment from the public and do not appear to
 have presented any controversy regarding the possibility of adverse economic impact. However, a review
 of the small number of the Bank’s more difficult economic impact cases, including those that have been
 actively contested, indicates that they often fall into a gray middle area, where reasonable people could
 differ in their conclusions as to the nature and extent of any adverse economic impact. In these cases, it is
 particularly important that a member of the Board be able to read the PPG staff’s economic impact report



                                                          24
                  EVALUATION REPORT RELATING TO
                   ECONOMIC IMPACT PROCEDURES
                                                                                                                OIG-EV-10-03

and without difficulty ascertain not just the basis for the staff’s recommendation, but also whether it is a
narrow call that could change with relatively small shifts in the underlying data, assumptions and estimates,
and whether there is substantial, or limited, data favoring or opposing the PPG staff’s recommendation.

In these more difficult cases, it will be helpful, and may be necessary, to the exercise of the Board’s decisional
responsibility for the PPG staff to provide some indication of the sensitivity of its conclusions when
addressing the five core questions regarding economic impact discussed above to change if underlying data,
estimates and assumptions were changed within ranges that could reasonably be expected to occur in the
markets being analyzed.36 OMB Circular A-4 emphasizes the important of sensitivity analysis, particularly
where the decision made will rely heavily on uncertain, non-quantitative data, noting that “It is usually
necessary to provide a sensitivity analysis to reveal whether, and to what extent, the results of the analysis are
sensitive to plausible changes in the main assumptions and numeric inputs.”37 The 2007 GAO Report cites
this OMB guidance in the course of also recommending that the PPG staff incorporate sensitivity analysis in
its economic impact reports.38

If, as suggested elsewhere in this Section A, the PPG staff bases its analysis and recommendations on large
scale, sustained trends in underlying market conditions, the PPG staff’s conclusions and recommendation
may be relatively resistant to changes in the underlying data. For markets experiencing more rapid change,
or where the data is not conclusive on either side of the question, the PPG staff’s conclusions and its
recommendation might be subject to material change in response to relatively modest swings in the available
data. The sensitivity of the PPG staff’s conclusions is likely to be significant to the Board in making its
balancing decision to approve or reject a transaction and should be addressed in the staff’s economic impact
reports.

In the example cited in the preceding subsection of this Section A, if the PPG staff assumes that foreign
production of a given Exportable Good in a future year will be equal to the amount of production in a recent
year, it is suggested that any available reliable information indicating that future production might increase
or decrease be considered, and that the PPG staff provide some analysis of the impact on their conclusions
regarding economic impact if production increased or decreased by more than an immaterial amount.
Discussions with the PPG staff regarding several of the economic impact reports reviewed indicated that
their conclusions regarding economic impact would not have changed even in the face of significant
changes in the quantity of foreign production of the relevant Exportable Good due to other conditions




    36	 See 2007 GAO Report pages 23, 24, 36.
    37	 OMB Circular A-4, page 3. Circular A-4 goes on to observe: “Use a numerical sensitivity analysis to examine
        how the results of your analysis vary with plausible changes in assumptions, choices of input data, and alternative
        analytical approaches. Sensitivity analysis is especially valuable when the information is lacking to carry out a
        formal probabilistic simulation. Sensitivity analysis can be used to find “switch points” -- critical parameter values
        at which estimated net benefits change sign or the low cost alternative switches.” OMB Circular A-4, page 41.
    38	 2007 GAO Report, pages 23-24.
                                                                25
                   EVALUATION REPORT RELATING TO
                    ECONOMIC IMPACT PROCEDURES
OIG-EV-10-03

 affecting the market. That being said, the quality of the PPG staff’s economic impact reports, and of the
 Board’s understanding of the staff’s conclusions, will be improved if the indicated analysis is included in the
 economic impact reports.39

 A related consideration is the relative degree of confidence that the PPG staff has developed in its
 conclusions and recommendation to the Board. Because of the wide range of products and markets that
 the PPG staff is required to evaluate in completing economic impact reports, there is a wide range of
 data quality and quantity that underlies the PPG staff’s evaluation of specific cases. When its analysis is
 supported by more and better data, and by evaluation techniques that have been validated, it should be
 expected that the PPG staff will have greater confidence in its conclusions and recommendations than it
 will in other cases less well documented. Members of the Board have commented that they have sometimes
 found it difficult to distinguish economic impact reports that rely upon significant quantities of reliable
 data, from those where there is much less data, or its quality is questionable.

 Suggestions to Management

         A.1. The PPG staff’s economic impact reports should present the available quantitative and
              qualitative information obtained by the PPG staff that is material and relevant to the
              determination of economic impact in a concise balancing format that addresses each of the
              elements of economic impact contemplated by the Charter and which will support the Board’s
              decisional process under Section 2(e)(3) of the Charter.

         A.2. Economic impact reports, supplemented by the Bank’s publicly available Economic Impact
              Procedures, should be written to reasonably inform the reader of the limitations and
              qualifications of the data, assumptions, estimates, methods and analysis relied upon by the
              PPG staff and the sensitivity of the conclusions expressed by the PPG staff to possible changes
              in assumptions or estimates that can be reasonably anticipated. The PPG staff should consider
              guidance provided by OMB in developing specifications for its analysis and reports to the
              Board.

         A.3. Reliance on trade flow analysis or any other quantitative methods used by the PPG staff
              that effectively decide economic impact cases should be made subject to Board approval and
              subsequent periodic reaffirmation.

 These suggestions do not contemplate that the PPG staff should present the Board with a phone-book-sized
 aggregation of raw data, or that the PPG staff is required to locate, digest and present a larger volume of
 data relevant to particular economic impact cases than it has been considering in the cases reviewed for this
 Report. These suggestions are focused more on the manner of presentation of the data and analysis that the
 PPG staff has developed in the cases reviewed so that it is more complete and responds more directly to the
     39	 “Inferences and assumptions used in your analysis should be identified, and your analytical choices
         should be explicitly evaluated and adequately justified. In your presentation, you should delineate the
         strengths of your analysis along with any uncertainties about its conclusions. Your presentation should
         also explain how your analytical choices have affected your results.” OMB Circular A-4, page 39.
                                                                  26
                 EVALUATION REPORT RELATING TO
                  ECONOMIC IMPACT PROCEDURES
                                                                                                              OIG-EV-10-03

Board’s requirements in deciding economic impact cases. The use of an executive summary style of report
that accurately summarizes the information in the complete report and supporting file, particularly focusing
on the sort of macroeconomic trends referenced in this Report, should be adequate in most cases. At the
same time, that report should reference the more voluminous information that the PPG staff has assembled
in order to allow interested Board members to readily identify and access relevant portions of the complete
report and supporting data in cases where they desire more information, where the decision is difficult or
where the transaction is the subject of conflicting comment from the Reviewing Agencies, the public or
Congress.40




    40	 “A good analysis provides specific references to all sources of data, appendices with documentation
        of models (where necessary), and the results of formal sensitivity and other uncertainty analyses.
        Your analysis should also have an executive summary . . . ”OMB Circular A-4, page 3.
                                                              27
                EVALUATION REPORT RELATING TO
                 ECONOMIC IMPACT PROCEDURES
                                                                                             OIG-EV-10-03

                                              Section B

   Develop Improved Criteria to Guide the Board and Staff in
              Deciding Economic Impact Cases


Conclusion

Trade flow analysis should not be the sole or primary criterion supporting the PPG staff’s recommendations
in economic impact reports, and it should not be determinative of the Board’s decision. The PPG staff
should develop additional criteria that are consistent with the Bank’s Charter and Congressional intent to
assist the Board in deciding economic impact cases. Ex-Im Bank should validate the criteria relied upon
to support economic impact decisions through periodic backward-looking empirical review to evaluate the
effects on U.S. producers and employment of transactions that have been the subject of economic impact
review. In view of these conclusions, the Bank should reevaluate the inclusion of transactions where the
output would be directed to the U.S. market on its “sensitive sectors” list of transactions where rejection is
considered by the Bank’s President to be likely.




Findings

The Limitations of Trade Flow Analysis

The PPG staff’s principal criterion for assessing whether “the short- and long-term benefits to industry and
employment in the United States [from a proposed transaction] are likely to outweigh the short- and long-
term injury to United States producers and employment of the same, similar, or competing” Exportable
Good, has been the quantitative analysis of displaced “trade flows” resulting from a particular transaction.
The elements of quantitative trade flow analysis as implemented by the PPG staff are described in detail in
Appendix F, which has been confirmed by the PPG staff as a reasonable description of their process. The
PPG staff in interviews reported that the use of quantitative trade flow analysis reflects the staff’s efforts
over the years to work with management, the Board, the Reviewing Agencies and Congress to develop a tool
that, within the limited data, time and staff resources available, would serve as an approximate indicator
of transactions where adverse economic impact may be an issue. A review of the economic impact cases
decided since 2002 indicates that trade flow analysis has in fact been treated as dictating the decision of the
PPG staff and the Board.




                                                      29
                 EVALUATION REPORT RELATING TO
                  ECONOMIC IMPACT PROCEDURES
OIG-EV-10-03

 Reliance on quantitative trade flow analysis as the principal criterion guiding the PPG staff’s
 recommendation for approval or disapproval of economic impact cases by the Board of Directors is
 responsible for much of the criticism of the economic impact process by the Board of Directors and the
 Reviewing Agencies. The 2007 GAO Report also concluded that the Bank’s trade flow methodology, and
 its explanation of that methodology, could be clarified and improved.41

 The current degree of reliance on trade flow analysis appears to be inconsistent with several of the
 requirements of Section 2(e) of the Bank’s Charter. Among the weaknesses of trade flow analysis are that (a)
 it does not speak directly to several of the determinations required to be made by the PPG staff and Board
 under Section 2(e) of the Charter (such as employment impact), (b) in some cases it excludes or conflicts
 with material, relevant market data that is persuasive as to the likelihood, or unlikelihood, of substantial
 injury to U.S. producers and employment, (c) it has not been empirically validated by the PPG staff or
 approved by the Board as a controlling decisional tool and (d) the PPG staff’s efforts to revise the method
 to better correlate with conflicting data have been viewed as result-driven by members of the Board and the
 Reviewing Agencies.




 Limited Transparency of Trade Flow Analytical Method

 Ex-Im Bank has released relatively limited information regarding its use of and reliance on quantitative
 trade flow analysis to decide economic impact cases. A brief summary description of trade flow analysis (the
 Bank’s only public statement on the subject) is included in Section 3.b.ii of the Bank’s Economic Impact
 Procedures:

        ii. Valuation of broad competitive impacts to U.S. industry: The foreign project’s potential impact
            on U.S. industry is analyzed in a cost-benefit framework. The economic impact analysis weighs
            the quantitative benefits (e.g., the value of the U.S. exports, follow-on spare parts sales) and costs
            (e.g., the value of the displaced U.S. sales or lost market share) of the transaction. In addition to
            measuring whether the foreign buyer’s increased production could displace U.S. production of
            the same, similar, or competing good in markets where the foreign buyer directly competes head-
            to-head with U.S. production, the economic impact analysis will also consider other secondary
            factors and impacts of the proposed transaction. These other factors include: concurrent additions
            to production capacity of the product in the U.S., buyer’s country and any markets that may
            directly affect the prospects for current U.S. producers, the current and expected international
            trade flows of the product including the possibility that the foreign buyer’s production may
            displace production from a third-country resulting in displaced U.S. production, or reduced U.S.
            market share. The time horizon for measuring the economic impact is the length of Ex-Im Bank
            support.



     41	 2007 GAO Report, page 26.
                                                          30
                  EVALUATION REPORT RELATING TO
                   ECONOMIC IMPACT PROCEDURES
                                                                                                            OIG-EV-10-03

Limited Precision of the Trade Flow Analytical Method

The PPG staff acknowledges that trade flow analysis is not intended to produce precise answers to the
questions of relative costs and benefits to U.S industry and employment of a transaction in the way that a
complex econometric model of the relevant Exportable Good markets might address more directly42. The
PPG staff has described trade flow analysis as a “rough indicator” of transactions where adverse economic
impact is possible, and is forthright in acknowledging the practical limitations of trade flow analysis in
deciding economic impact cases. Despite the frank acknowledgment of the limits of trade flow analysis,
the results of that analysis have been treated by the Bank’s staff, management, and Board as determinative
of the question of economic impact. In some cases, proponents of U.S. export transactions were reported to
have withdrawn their applications for Ex-Im Bank support when informed that the PPG staff’s initial trade
flow analysis produced a negative result. In none of the economic impact reports reviewed for this Report
was a negative result from trade flow analysis followed by the sort of balancing analysis of relative costs and
benefits associated with a transaction contemplated by Section 2(e) of the Charter.

Interviews with observers of the economic impact review process have confirmed that the acknowledged
imprecision of trade flow analysis, and the PPG staff’s efforts to address them, are not uniformly
understood. In particular, the PPG staff’s introduction of modifications to the analysis or transaction
structure in order to cause the model to better correlate with other macroeconomic data has been questioned
by members of the Board and by the Reviewing Agencies as possibly introducing a results-oriented bias into
what they have understood to be an objective, quantitative process. Suggestions C.1. and C.2., discussed in
Section C of this Report, are intended to address this lack of understanding by increasing the transparency
of the Economic Impact Procedures and the decisional process in individual cases.




Causes of, and Responses to, Imprecision in Trade Flow Methodology

The PPG staff acknowledges that a number of the assumptions and methods used in applying its trade flow
analysis do not reflect accurately the economic reality of how the international market for a given Exportable
Good is likely to operate. Instead, trade flow analysis is described by the PPG staff as an approximate
indicator that can be managed during the limited time, and with the limited information, available to the
PPG staff to suggest where a negative balance of costs and benefits to the U.S. market might be found to
be associated with a transaction such that Ex-Im Bank support for the transaction should be questioned or
denied. The causes of, and the PPG staff’s responses to, imprecision in trade flow analysis have not been
documented in the Economic Impact Procedures or systematically addressed in the economic impact reports
issued during the period covered by this Report.


    42	 The PPG staff reports having experimented with retaining an economic consulting firm to prepare an
        econometric model addressing economic impact of a proposed transaction. That effort was reported to have
        been slow, expensive and not particularly helpful in producing clear, reliable answers to the core questions
        of economic impact because of the limited and uncertain data available to support the model.
                                                              31
                 EVALUATION REPORT RELATING TO
                  ECONOMIC IMPACT PROCEDURES
OIG-EV-10-03

 The following sources of imprecision affecting the results suggested by the Bank’s quantitative trade flow
 analytical model have been identified:

        •	 A key focus of Section 2(e) of the Charter is avoiding Ex-Im Bank support for transactions
           that are likely to result in substantial injury to U.S. producers of an Exportable Good, and
           related employment. In Congressional debate of these provisions in 1986, the industries cited
           as experiencing a “substantial injury” level of harm were those that had suffered sustained
           financial losses and losses of employment over periods of years due to foreign competition that
           was specifically targeted at the U.S., including Colombian coal production, copper production
           in Mexico, Chile and Peru, Moroccan and Tunisian phosphate production and Brazilian
           steel production. The trade flow displacement model assumes that substantial injury of the
           sort contemplated by Congress is equally likely to result from new foreign production of an
           Exportable Good in every case.

        •	 Trade flow analysis does not directly consider historical employment data or projected short- and
           long-term trends in employment data for the relevant industries, even though Section 2(e) of the
           Charter references effects on U.S. employment as one of the two key factors to be assessed by the
           Board in economic impact analysis, and the expansion of U.S. manufacturing employment is the
           primary policy objective of Ex-Im Bank.

        •	 Trade flow analysis assumes that each unit of new foreign production of the Exportable Good
           will displace a unit of U.S. production (unless it is clear that the new production cannot reach
           the U.S. or U.S. export markets for the Exportable Good). U.S. producers of the Exportable
           Good are assumed to be facing lost sales equal to 100% of the new foreign production, which
           the PPG staff describes as reflecting the most “conservative” possible outcome. The PPG staff
           acknowledges that, in reality, the actual incidence of lost sales, or declining employment, by
           U.S. producers of an Exportable Good resulting from new foreign production of that Exportable
           Good can vary from negligible to significant depending upon the circumstances then existing
           in the relevant international product markets. In increasingly international markets, where U.S.
           production may be only a small fraction of the aggregate world production and consumption
           that set prices, other foreign producers of the Exportable Good might be expected to experience
           a majority of any “displacement” effect that does occur. These considerations have typically not
           been addressed in economic impact reports.

        •	 Trade flow analysis assumes that adverse economic impact from new foreign production of an
           Exportable Good will only continue for so long as the Ex-Im Bank supported financing is in
           place. Given equal amounts of foreign production of an Exportable Good, a transaction with a
           three-year term is assumed to have approximately half the adverse impact of a transaction with
           a six-year term (actually, slightly more than half due to discounting the trade flows to present
           values). In reality, the adverse impact on U.S. producers of the new foreign production of the
           Exportable Good is going to be the same in either case, and is likely to be most noticeable in the
           early years after the new production commences, with lessening impact as international and U.S.
           markets react to other changes in supply and demand in later years.


                                                        32
                EVALUATION REPORT RELATING TO
                 ECONOMIC IMPACT PROCEDURES
                                                                                             OIG-EV-10-03

Most economic impact reports reviewed for this Report cite other relevant data, including broader
macroeconomic data of the sort discussed in Section A. of this Report, that are not reflected in the inputs
or results of quantitative trade flow analysis. Section 3.b.ii of the Bank’s Economic Impact Procedures cited
above expressly references some of these additional considerations. The PPG staff reports that these other
data are considered in determining the staff’s recommendation to the Board. Instead of broadening the
economic impact analysis in these cases in an express balancing presentation, as suggested in Section A of
this Report, the PPG staff has focused more on changes in transaction structure or refinements in the trade
flow methodology to allow it to better correlate with the conflicting data. Examples of these refinements
include:

       •	 Considering new foreign production of an Exportable Good only in every other year for
          cyclical industries where any possible competitive injury to U.S. producers would be likely to be
          intermittent rather than continuous.

       •	 Reducing the term of the supported loan so that fewer years of imports of the relevant
          Exportable Good are balanced against the value of the proposed export of capital goods.

       •	 Obtaining the agreement of the purchaser of the Ex-Im Bank supported capital equipment not
          to sell its output in designated markets where head-on competition with U.S. exporters might
          occur during a specified period of time, reducing the dollar value of potential displacement of
          U.S. export sales.

Another example of a modification to trade flow analysis that has been evaluated by the PPG staff, and
included in a small number of preliminary reports without being relied upon in any final economic impact
report, is the concept of “proportionality.” Proportionality, which is discussed in greater detail in the 2007
OIG Report attached as Appendix G, would result in only a small percentage of the new foreign production
of Exportable Goods being considered as displacing U.S. production where the contribution of the Ex-Im
Bank supported capital equipment to the new foreign production capacity is small or indirect.




OMB Recommendations for Analysis Supporting Regulatory Actions

Elevating one or a small number of factors to the status of the sole or primary criterion for deciding
economic impact cases through creation of a mathematical formula that (i) is acknowledged to contain
significant imprecision in one or more of its elements, (ii) has not been mandated by law, (iii) is not based
upon recognized industry or professional practice and (iv) has not been empirically validated, will of
necessity leave out, or undervalue, other material considerations that are excluded from the formula because
they are not able to be expressed quantitatively, or do not apply to every case analyzed.




                                                      33
                 EVALUATION REPORT RELATING TO
                  ECONOMIC IMPACT PROCEDURES
OIG-EV-10-03

 OMB Circular A-4 provides guidance to executive branch agencies on developing their analysis to
 support regulatory action. A number of observations from Circular A-4 are particularly relevant to the
 challenge posed by Section 2(e) of the Bank’s Charter and the suitability of trade flow analysis as the core
 methodology for deciding economic impact cases:

        [Y]ou cannot conduct a good regulatory analysis according to a formula. Conducting high-quality
        analysis requires competent professional judgment.

        It will not always be possible to express in monetary units all of the important benefits and
        costs. When it is not, the most efficient alternative will not necessarily be the one with the largest
        quantified and monetized net-benefit estimate. In such cases, you should exercise professional
        judgment in determining how important the non-quantified benefits or costs may be in the context
        of the overall analysis.

        A complete regulatory analysis includes a discussion of non-quantified as well as quantified benefits
        and costs. A non-quantified outcome is a benefit or cost that has not been quantified or monetized
        in the analysis. When there are important non-monetary values at stake, you should also identify
        them in your analysis so policymakers can compare them with the monetary benefits and costs.

        Your estimates cannot be more precise than their most uncertain component. Thus, your analysis
        should report estimates in a way that reflects the degree of uncertainty and not create a false sense of
        precision. Worst-case or conservative analyses are not usually adequate because they do not convey
        the complete probability distribution of outcomes, and they do not permit calculation of an expected
        value of net benefits.43




 Absence of Historical Validation

 Despite the use of various formulations of quantitative trade flow analysis as the primary criterion for
 deciding economic impact cases during the period covered by this Report (2002-2009), its reliability in
 predicting actual substantial injury to U.S. producers of an Exportable Good from the creation of new
 foreign production capacity as a result of projects proposed for Bank support – whether the transactions are
 accepted or rejected - has not been validated by post-transaction empirical analysis.

 Economic impact analysis is required by the Bank’s Charter to be forward looking – to predict the likely
 economic impact of Ex-Im Bank support for a specific transaction, or the failure of the transaction to occur,
 at the future date when new production of an Exportable Good reaches the market. The methods that the
 Bank has relied upon – primarily trade flow analysis – are subject to significant uncertainty. The absence
 of any empirical data regarding how specific Exportable Good markets actually developed, compared to
 how economic impact analysis predicted they would develop, makes much more difficult any attempt to
     43	 OMB Circular A-4, pages 3, 2, 3, 40.
                                                         34
                EVALUATION REPORT RELATING TO
                 ECONOMIC IMPACT PROCEDURES
                                                                                             OIG-EV-10-03

review the effectiveness of the Bank’s economic impact procedures. Similarly, when the economic impact
procedures are reviewed as part of the Bank’s periodic reauthorization by Congress, the absence of empirical
data forces the Bank’s leadership and the Congressional oversight committees to address any needed or
proposed changes to Section 2(e) of the Charter based on conjecture or anecdote, not facts.

The sort of backward looking review suggested in this Report is not intended to be excessively quantitative
or exhaustive. What is contemplated is an examination of the results experienced by the market for the
Exportable Good in the two or three year period after the new foreign production supported by Ex-Im Bank
came on line in terms of large-scale aggregate economic data, with the objective of addressing questions
such as: Did U.S. production, imports, exports and inventories of the Exportable Good change materially,
and if so why? Have U.S. or foreign producers experienced declines in employment, or depressed prices,
or operating losses, and if so, why? If a particular transaction was rejected, was the project completed
using alternative U.S. or foreign produced capital equipment, and has the new foreign production of the
Exportable Good commenced and had any impact on U.S. producers? Empirical data providing, or at least
suggesting, the answers to these questions will allow future generations of observers of economic impact
review to more accurately assess the policy issues inherent in the economic impact review process and
determine whether Congress has given the Bank and its Board a difficult task.




Development of Additional Criteria

It is suggested that the PPG staff expand the criteria expressly considered, and balanced, in economic impact
reports. The specific criteria considered, and how they are analyzed by the PPG staff, Bank management
and the Board, are properly decisions for them to reach. This section of the Report offers commentary on a
number of possible criteria that were identified during the interviews with the PPG staff, Bank management,
the Board and Reviewing Agencies that should be considered by them during their review and revision
of the Economic Impact Procedures. In each case, the validity and relevance of a specific criterion will be
dependent on the availability of appropriate factual support.




Consideration of Benefits to U.S. Economy

A particularly notable omission from most of the Bank’s economic impact reports is any analysis of the
benefits to the United States economy associated with the successful completion of the proposed export
transaction, beyond the dollar value of the proposed export transaction that is incorporated in the
quantitative trade flow analysis. Benefits to the United States from a specific export transaction accrue at
two possible levels. First, there is the obvious short-term benefit of the successful manufacture and sale
of the exported goods and the employment supported by that production. Second, it is in the long-term
interest of the U.S. to have strong, successful competitors in the world manufacturing economy who are
technology, performance, and service leaders in their industries.

                                                      35
                 EVALUATION REPORT RELATING TO
                  ECONOMIC IMPACT PROCEDURES
OIG-EV-10-03

 For example, in the proper case, it would appear reasonable for the Board to conclude that an Ex-Im
 Bank supported export transaction that was important to the survival and economic health of a smaller
 specialized manufacturer would have a long-term benefit to the U.S. economy, or would be responsive to
 Congressionally directed policy mandating support for small business, and that these benefits should be
 balanced against any negative comment that might be registered by a Reviewing Agency or a U.S producer
 of the impacted Exportable Good. The economic impact analysis might also consider other secondary
 factors and impacts of the proposed transaction. These other factors could include: concurrent additions to
 production capacity of the product in the U.S., buyer’s country and any markets that may directly affect
 the prospects for current U.S. producers, the current and expected international trade flows of the product
 including the possibility that the foreign buyer’s production may displace production from a third-country
 resulting in displaced U.S. production, or reduced U.S. market share.




 Criteria from Congressional Testimony

 Among the criteria that should be included in the PPG staff’s evaluation of economic impact cases, which
 address specific circumstances referenced in the legislative history of Section 2(e)(3) of the Charter, are
 (i) whether the U.S. industry that produces the Exportable Good is experiencing substantial distress
 due to foreign competition currently, (ii) whether that foreign competition is being subsidized by
 foreign government intervention or other circumstances that would indicate the absence of fair terms of
 international trade and (iii) whether the new foreign production of the Exportable Good will be directly
 targeted at the U.S. market.




 Trade Flow Analysis and Its Components are not Without Value

 This Report does not conclude that trade flow analysis has no value or relevance to the determination of
 economic impact cases, or that it, or its components, should not be discussed in economic impact reports –
 only that it should not be relied upon as the primary or controlling criterion in the analysis. The PPG staff’s
 trade flow analyses presented in the economic impact reports produced during the period covered by this
 Report did typically quantify for the Board the dollar value of the proposed export transaction and possible
 related transactions, indicating at least in very general terms the benefits of the proposed transaction for the
 U.S. economy and employment.

 Trade flow analysis also calls for the staff to prepare a projection of the expected stream of foreign
 production of the Exportable Goods in future years that might displace U.S. production, and the markets
 where that displacement might occur, which gives a general sense of the maximum possible magnitude of
 “cost” that might be experienced by U.S. producers in terms of additional head-to-head competition. The
 concepts of “proportionality” and “value added,” which consider the relatively small or indirect contribution
 of an Ex-Im Bank supported export to a larger project that will result in new or increased production of

                                                          36
                EVALUATION REPORT RELATING TO
                 ECONOMIC IMPACT PROCEDURES
                                                                                                OIG-EV-10-03

an Exportable Good, would also appear to merit consideration as one of a number of criteria relevant to
economic impact analysis, despite significant opposition to their use as a decisive criteria by some observers
from the Bank’s Board and the Reviewing Agencies.




Criteria Identified in Existing Economic Impact Documentation

The Economic Impact Procedures, the PPG staff’s economic impact reports and discussions with the PPG
staff, Bank management and the Board undertaken for this Report identified significant sources and types
of data relevant to economic impact analysis as contemplated by Congress in Section 2(e) of the Charter that
are not incorporated in quantitative trade flow analysis. Some of these additional criteria are referenced in
Stage V of the Bank’s Economic Impact Procedures:

        (i) stagnating or falling global prices and/or falling gross margins (price minus variable cost) of
            domestic producers;

        (ii) industry bankruptcy trends and/or industry unemployment trends;

        (iii) Trade Adjustment and Assistance (TAA) Program petitions;

        (iv) preliminary Anti-Dumping or Countervailing Duty determinations;

        (v) multi-lateral production limitation agreements;

        (vi) concurrent additions to production capacity of the Exportable Good in the U.S. and in any
            markets that may directly affect the prospects for current U.S. producers; and

        (vii) concurrent additions to production capacity of the Exportable Good in the buyer’s country.




External Sources of Relevant Data

The PPG staff also includes in its economic impact reports other relevant data that speak to conditions and
trends affecting the relevant world and U.S. markets for the Exportable Goods which are obtained from
transaction proponents, the Reviewing Agencies, other published government reports, parties responding
to public notices of the proposed transaction, trade association studies and publications and trade, business
and popular press accounts. When opponents to a specific transaction appear, their arguments are typically
based on the analysis of these sorts of relevant data. Because of the limited public information available


                                                       37
                  EVALUATION REPORT RELATING TO
                   ECONOMIC IMPACT PROCEDURES
OIG-EV-10-03

 regarding the use of trade flow analysis, parties commenting on the transactions reviewed for this Report
 have generally not been able to propose modifications to the PPG staff’s trade flow analysis or comment on
 its results.




 Consideration of U.S. and World Market Dynamics

 In a proper case, it would appear reasonable for the Board to conclude that the risk of harm to U.S.
 producers of an Exportable Good and related employment from the creation of a new, potentially
 competing, foreign supply of an Exportable Good will be greater where the new production is a higher
 percentage of U.S. production than in a case where the new production is a relatively lower percentage of
 U.S. production.44 Comparable data and analysis for international production of the Exportable Good is
 also likely to be relevant. In many industries, production costs and prices are determined in international
 markets, and U.S. production, even if it has grown domestically, in many sectors has represented a declining
 percentage of worldwide production.

 In most cases, the potential competitive impact of new foreign production equal to 1.1% of U.S. production
 will be much greater in a market where U.S. production represents 50% of worldwide production than
 will be the case where U.S. production represents 10% or less of worldwide production. It would also
 appear to be reasonable in a properly presented case for the PPG staff and the Board to consider proposed
 transactions that will result in smaller and more gradual changes in international or U.S. markets to be less
 likely to produce substantial injury conditions than in cases where the changes will have a larger-scale, more
 immediate impact.




 Consideration of the Bank’s Mission - “Ties Go to the Exporter.”

 The Bank’s Charter directs it to support U.S. employment by providing financing for the export of U.S.
 goods and services in circumstances where the private sector is unable or unwilling to provide financing,
 provided that it is determined that there is a reasonable likelihood of repayment. The requirement to verify
 a reasonable likelihood of repayment prevents Ex-Im Bank support from being available to U.S. exporters as
 a matter of right, but if that assurance is present, the Bank’s Charter, its policies and the commitment of its
 staff all work together to create a regime in which there is a strong presumption that such transactions will
 be approved for support unless there is a clear reason not to. Section 2(b)(1)(B) of the Charter provides that
 the Bank cannot decline to approve applications for credit for non-commercial reasons unless the Bank’s
 president determines that it would be in the national interest, after first consulting with Congress.
     44	 At the same time, care should be taken to be sure that other data that may impact the conclusion
         are taken into account. A relatively smaller amount of new foreign production that is specifically
         targeted at the U.S. market might be found to have a potentially greater economic impact on U.S.
         producers than would a relatively larger amount of new foreign production that will be absorbed
         in foreign markets where U.S. producers may have relatively smaller shares of the market.
                                                                 38
                EVALUATION REPORT RELATING TO
                 ECONOMIC IMPACT PROCEDURES
                                                                                               OIG-EV-10-03

As discussed at some length in Section A of this Report, Section 2(e)(3) of the Charter states that the Bank
may not support a transaction if (i) “oversupply” of an Exportable Good is likely or (ii) more than 1% of
U.S. production of an Exportable Good will result, unless “in the judgment of the Board of Directors of
the Bank, the short- and long-term benefits to industry and employment in the United States are likely
to outweigh the short- and long-term injury to United States producers and employment of the same,
similar, or competing commodity.” The determination of the balance of benefits against costs requires a
determination of whether the benefits are “likely” to outweigh the costs. In several of the small number of
cases that proved difficult to decide, trade flow analysis produced dollar values of potentially displaced sales
of the Exportable Good (based on the most “conservative” assumptions) relatively close to the dollar value
of the proposed export of capital equipment. In these cases relatively minor changes in any of the variables
would change the outcome of trade flow analysis, and actual market data was also indecisive.

In an appropriately supported case of the nature described, it would be reasonable for the PPG staff, or
the Board, to look at the full range of available data with respect to the prospects for actual substantial
injury, and ideally a sensitivity analysis of that data as suggested in Section A of this Report and in OMB
Circular A-4, and determine that the likelihood of substantial injury resulting from the transaction, or a
balance of costs that exceeds the assured benefits of the proposed export transaction, cannot be predicted
with any assurance. In such cases where assessment of all available data is indeterminate, it would be
appropriate for the Board to look to the Bank’s mission of supporting U.S. employment to essentially break
the “tie” resulting from indeterminate data, resulting in a determination that the Bank should support the
transaction. For the reasons discussed in Section A and above in this Section B, the Bank’s decisions in
close cases should not rely excessively on a quantitative method such as trade flow analysis, which has not
been approved by the Board.




Criteria Addressing Conflicting Congressional Views

A significant challenge for the PPG staff, Bank management and the Board is how to integrate the
conflicting views in Congress of the Economic Impact Advocates and the Economic Impact Critics
discussed in Section A above into the broader balancing analysis required by Section 2(e) of the Bank’s
Charter and as suggested by this Report. The following subparts of this Section B offer some suggestions
of analytical approaches to economic impact review that are believed to be more consistent with the Bank’s
Charter than those applied during the review period.




Distinguishing Damaged, Concerned and Successful Industries

Only a small number of economic impact cases since 2002 have proven to be controversial, with producers
of the relevant Exportable Good presenting active opposition to a proposed transaction. These controversial
cases can be divided into two groups. In some of these cases other conditions in the relevant international

                                                       39
                 EVALUATION REPORT RELATING TO
                  ECONOMIC IMPACT PROCEDURES
OIG-EV-10-03

 markets, independently of the proposed Ex-Im Bank transaction, were causing U.S. producers in the
 Exportable Good industry to experience conditions of substantial injury (operating losses, job losses,
 company failures) at the macroeconomic levels as cited in the legislative history of Section 2(e). For purposes
 of this Report, these industries can be referred to as “Damaged Industries.” The market for the Exportable
 Goods in some, but not all, of these cases could also be characterized as experiencing “oversupply” conditions
 as discussed in Section A of this Report.

 In the remainder of the difficult cases, U.S. producers in the Exportable Good industry were not
 experiencing substantial macroeconomic injury at the time the transaction was proposed for Ex-Im Bank
 support, but (i) had in the past, (ii) feared that they might at some time in the future as a result of the
 transaction proposed for Ex-Im Bank support, (iii) were otherwise being affected by effective foreign
 competition at a level below that of “substantial injury” or (iv) appear to have adopted an aggressive program
 to oppose any action by the U.S. government that might benefit a foreign competitor. For purposes of this
 Report, these industries can be referred to as “Concerned Industries.”

 Outside of the small number of controversial cases there exists a third category of industries where U.S.
 producers appear to be competing with foreign producers successfully in the U.S. and internationally
 without a history of, or signs of future, macroeconomic “substantial injury.” For purposes of this Report,
 these industries can be referred to as “Successful Industries.”

 It appears likely that the actual economic impact of a transaction proposed for Ex-Im Bank support might
 vary significantly depending on whether the impacted Exportable Good industry is a Damaged Industry,
 a Concerned Industry, or a Successful Industry. The PPG staff’s economic impact reports have not made
 any formal distinction between Damaged Industries, Concerned Industries, and Successful Industries. The
 PPG staff’s efforts to modify trade flow analysis to better accord with observed data appears in large part to
 represent an effort to deal with the disparate conditions of, and likely impact of an Ex-Im Bank supported
 transaction on, Successful Industries and Concerned Industries as compared to Damaged Industries.

 As discussed in Section A of this Report, the absence of formal consideration of the actual conditions
 existing in affected Exportable Goods industries is a consequence of the PPG staff’s misguided interpretation
 of the “1% of U.S. production” threshold expressed in Section 2(e)(4) of the Charter. The PPG staff has
 treated this as a factual conclusion by Congress that substantial injury to U.S. producers of an Exportable
 Good should be presumed to exist if the new foreign production of an Exportable Good will exceed 1%
 of U.S. production. The implausibility of this interpretation is made clear when the PPG staff has applied
 trade flow analysis to a proposed Ex-Im Bank transaction where the Exportable Good will compete
 with the production of a Successful Industry. In those cases, the PPG staff has acknowledged that it is
 highly implausible that actual substantial injury to the Successful Industry will result from the proposed
 transaction, but the current formulation of economic impact analysis can nevertheless require that Ex-Im
 Bank support for the transaction be rejected.




                                                         40
                  EVALUATION REPORT RELATING TO
                   ECONOMIC IMPACT PROCEDURES
                                                                                                               OIG-EV-10-03

The quality of the analysis and results presented in the PPG staff’s economic impact reports can be
substantially improved if the PPG staff includes the historical, current, and forecast conditions of the
relevant Exportable Good industry among the criteria that are considered in documenting the staff’s
economic impact analysis. If a quantitative analysis such as trade flow analysis continues to be used in
the staff’s economic impact reviews, it would appear reasonable to “raise or lower the bar” on how that
quantitative analysis is applied based on current and forecast industry conditions. In particular, it is
important that criteria identifying a Damaged Industry that are consistent with the concerns cited by
Congress be identified, since the content and results of the analysis suggested in this Section B may vary
substantially depending on whether those conditions in fact exist. The PPG staff has struggled to identify
objective criteria to guide economic impact analysis – this is one area in which it should be reasonably
possible to do so.

For example, consider the case of an Exportable Good industry that would be judged as a Damaged
Industry in the recent past without signs of imminent improvement, or where expected significant increases
in world productive capacity or declines in demand result in reasonable forecasts that the industry will meet
criteria for a Damaged Industry in the near future. In that case, the result of trade flow analysis or another
quantitative tool might suggest that Ex-Im Bank support for a transaction should be declined if the dollar
values of the proposed export and displaced production of the Exportable Good were roughly equal in
amount. Approving Ex-Im Bank support for a transaction might not strictly “cause” substantial injury in the
future, but it is not a stretch to say that by supporting the creation of additional productive capacity, Ex-Im
Bank’s transaction would be “piling on” to existing adverse conditions. By contrast, if the relevant industry
forecast would show the Exportable Good industry to be merely a Concerned Industry, or a Successful
Industry, a significantly larger negative quantitative balance of the calculation would be required to suggest
that the Bank not support a transaction.45

An increased emphasis on examining current and forecast industry conditions in the relevant Exportable
Good industry will relieve some of the pressure on the PPG staff to predict the precise effect of an Ex-Im
Bank transaction. The PPG staff in interviews has acknowledged the practical impossibility of predicting
the future effect of a specific Ex-Im Bank supported transaction on world and U.S. supply, demand, and
prices of the Exportable Good, which is what the literal language of Section 2(e) of the Charter calls for.
Given the increasing size of world markets, and the increasing internationalization of trade, it is much
more difficult today than it might have been in previous decades to associate a given U.S. export of capital
equipment with direct causation of specific changes in the terms of world supply, demand, and prices of
Exportable Goods. The necessary data and analytical tools will seldom if ever be available to the PPG staff,


    45	 This approach would be comparable to the economic impact review process implemented by the Overseas Private
        Investment Corporation (OPIC). While OPIC’s economic impact review methodology reflects a number of features
        specific to its mission and authorizing legislation, there are significant analogs to the process contemplated in the
        Bank’s Charter and as suggested by the OIG in this Section B of the Report. A member of OPIC’s senior management
        reported in an interview with the OIG that OPIC’s primary focus is identifying U.S. industries that might be impacted
        by new foreign production associated with an OPIC supported development projects that appear to be experiencing
        distress. Where potentially impacted U.S. industries are not experiencing distress, a more streamlined review results.
        When a relevant U.S. industry is in distress, the transaction faces a higher threshold of review before it can be approved.
                                                                41
                 EVALUATION REPORT RELATING TO
                  ECONOMIC IMPACT PROCEDURES
OIG-EV-10-03

 or to the Board, to allow them to do what the Charter requires with confidence and precision. If what
 Congress has directed is not possible, the modes of analysis presented in this Report are suggested as the
 closest feasible alternatives that are consistent with the Bank’s Charter.

 What is called for is a methodology that allows the PPG staff, and the Board, to analyze specific transactions
 in broader, more general terms, and in view of industry trends independently of specific Ex-Im Bank
 transactions. The criteria discussed in this Section B can be helpful in that regard. If modern conditions of
 international trade make it more difficult to say with confidence that an Ex-Im Bank transaction that will
 increase production of an Exportable Good by more than 1% of U.S. production will have any discernable
 effect on world and U.S. supply, demand and prices, then that conclusion will generally be supportive of
 an Anti-Economic Impact perspective that will suggest that it is better for the U.S. economy on balance
 for Ex-Im Bank to support a specific transaction. On the other hand, if current or impending conditions
 suggest that a U.S. Exportable Good industry is experiencing substantial injury, or is at imminent threat of
 experiencing substantial injury, then a more careful analysis of Ex-Im Bank support for the transaction is
 warranted.

 The most difficult cases that the PPG staff has addressed have arisen when an Ex-Im Bank transaction
 will result in increased foreign production of an Exportable Good in a Concerned Industry. By definition,
 a Concerned Industry is not experiencing conditions that would support a finding of current substantial
 injury, and is not able to present clear evidence that it is on the road to becoming a Damaged Industry in
 the near term, nor that the Ex-Im Bank transaction will cause it to become a Damaged Industry. Some
 Concerned Industries may be quite successful, and part of their success may derive from active and effective
 strategies to limit foreign competition. These are the cases where the disagreements between the Pro-
 Economic Impact and the Anti-Economic Impact adherents among the public, the Reviewing Agencies and
 the Board will be sharpest. Section A of this Report strongly suggests that in those cases the PPG staff’s
 reports should (i) acknowledge the extent of the available data, or lack thereof, (ii) identify the available
 data that would be relevant to each of the two perspectives, (iii) express whatever conclusion the PPG staff
 believes it can fairly present and support, and then (iv) allow the Board to make the final decision based on a
 balancing analysis.

 It is important to note that Section 2(e) of the Charter requires that the Board also consider the impact of
 rejection of Ex-Im Bank support for a transaction on the U.S. economy, which would generally focus on
 the impact on the exporter or the exporter’s industry. Similar considerations should be applicable to the
 exporting industry. The loss of an export sale in a U.S. industry that would be classified as a Damaged
 Industry would have a greater negative impact than in an industry that is classified as Successful. Similarly,
 the loss of a key sale could undermine the relative success or dominance of U.S. manufacturing in a
 particular field, which the PPG staff or Board might conclude should be given greater weight than, for
 example, the loss of an export sale in a more commoditized field. Accordingly, it is suggested that the
 PPG staff consider applying comparable criteria and methods to its analysis of the effect of an Ex-Im Bank
 supported transaction on the U.S. export industry and the U.S. Exportable Good industry.




                                                         42
                EVALUATION REPORT RELATING TO
                 ECONOMIC IMPACT PROCEDURES
                                                                                             OIG-EV-10-03

Reconciling Conflicting Perspectives and Industry Conditions

Integrating the analytical perspectives of the preceding two subsections will allow the PPG staff to develop
criteria, and economic impact reports that are more transparent, more manageable, and more rational while
embracing the difficult and conflicted task Congress has given the Bank and its Board in Section 2(e) of the
Charter.

For example, consider a proposed Ex-Im Bank transaction where the resulting Exportable Good would
compete with the output of a U.S. industry that meets the criteria for a Damaged Industry.

The application of the pure Anti-Economic Impact perspective to proposed Ex-Im Bank support for this
transaction would generally result in a determination that the transaction was not likely to cause any adverse
economic impact - adverse economic conditions consistent with substantial injury at a macroeconomic level
already exist in the Damaged Industry, so the proposed Ex-Im Bank transaction could not be the cause-
in-fact of the ongoing substantial injury to U.S. producers of the Exportable Good. At the same time, the
advocates of the Pro-Economic Impact perspective would point to the severe economic losses and losses
of employment in the impacted U.S. Exportable Good industry to argue that it would be wrong for Ex-
Im Bank to support foreign producers of the Exportable Good. They would assert that providing foreign
producers of the Exportable Good with favorable financing terms that allow them to buy U.S. capital
equipment to increase their output will make an existing bad situation for U.S. Exportable Goods producers
worse.

The PPG staff, and the Board, could reasonably conclude in an appropriately supported case that there
is logical and moral appeal to the argument that it is not appropriate for the U.S. government to assist a
foreign competitor in striking directly at U.S. producers in an industry that would qualify as a Damaged
Industry, even if another U.S. business and its employees might benefit in the process. Reasonable
individuals faced with balancing these circumstances could come to different conclusions where it appeared
that the Bank’s support would not directly or materially contribute to the loss of U.S. sales or jobs in an
Exportable Good industry, while reaching unanimity if conditions in the Exportable Good industry are
dire. Adhering more closely to the specific language of Section 2(e)(3) of the Charter, the PPG staff, and the
Board, could determine that there were independent costs associated with assisting the foreign manufacturer
of the resulting Exportable Good that shifted the balance against the admitted benefits of the export
transaction in cases where the U.S. Exportable Good industry is experiencing substantial injury conditions
at the hands of foreign competition.

If the Bank elects to develop criteria for deciding economic impact cases based on the ideas expressed in
the preceding paragraphs as part of a broader balancing analysis, that will also support formalizing the
consideration of criteria based on the concepts expressed in the PPG staff’s proportionality and value added
analyses discussed above in this Section B and in the 2007 OIG Report. Proportionality and value added
analyses by the PPG staff reflect the common sense view that in an economic impact context that is not
black and white, the smaller or more indirect the contribution of an Ex-Im Bank supported transaction to


                                                      43
                 EVALUATION REPORT RELATING TO
                  ECONOMIC IMPACT PROCEDURES
OIG-EV-10-03

 a foreign manufacturing project, the less reasonable it is to say that Ex-Im Bank support for the transaction
 in 100% responsible for any new foreign production of an Exportable Good that might compete with U.S.
 producers.

 In the context of the industry condition criteria discussed above, if the U.S. Exportable Good industry
 is experiencing significant distress, a Pro-Economic Impact perspective might consider any degree of
 association with new foreign production to be morally or politically unacceptable. Where the degree
 of distress is less or the relevant Exportable Good industry might be considered to be a “Concerned
 Industry,” other mitigating conditions exist or the degree of contribution of an Ex-Im Bank transaction is
 proportionally smaller or indirect, the balance might shift in favor of the transaction. Similarly, the relative
 percentage of U.S. and international production the new production of an Exportable Good supported
 by an Ex-Im Bank transaction will represent would appear to be a relevant criterion, in relation to other
 macroeconomic trends affecting that industry. All things being equal, a proposed transaction that will result
 in new foreign production of 10% or more of recent world production or world demand for an exportable
 good would be expected to have a much more significant potential adverse impact than a transaction that
 will result in new foreign production of 2% of recent world production.

 Congress assigned to the Bank’s staff and Board of Directors a difficult task in Section 2(e) of the Charter.
 That being said, their duty is to work to develop reasonable policies, procedures and methods that come
 as close as possible to accomplishing Congress’ objectives. The PPG staff has described the development
 and use of trade flow analysis as responsive to that objective. The criticism of the Bank’s economic impact
 procedures generally, and trade flow analysis specifically, presented in this Report suggests that an effort
 to develop other avenues that are more consistent with the Bank’s Charter is both required and attainable.
 This Section B offers a number of examples that are intended to be responsive to the requirements of the
 Charter and illustrative of the sort of analysis that could be adopted by the Bank. The expertise, and the
 responsibility, to develop a workable solution to this problem rests with the Bank’s staff, officers, and Board.




 Sensitive Sector Disclosure Driven by Trade Flow Analysis

 Congress adopted Section 2(e)(5) of the Bank’s Charter in the 2006 reauthorization of the Bank as a
 response to reports of a lack of transparency and uncertainty associated with transactions requiring economic
 impact review. Section 2(e)(5) is intended to give potential sponsors of Ex-Im Bank supported transactions
 that are deemed likely to be rejected on economic impact grounds prior warning by requiring that:

         [T]he Bank shall submit a list to the Committee on Banking, Housing, and Urban Affairs of the
         Senate and the Committee on Financial Services of the House of Representatives, which designates
         sensitive commercial sectors and products with respect to which the provision of financing support
         by the Bank is deemed unlikely by the President of the Bank due to the significant potential
         for a determination that such financing support would result in an adverse economic impact on
         the United States. The President of the Bank shall review on an annual basis thereafter the list

                                                          44
                 EVALUATION REPORT RELATING TO
                  ECONOMIC IMPACT PROCEDURES
                                                                                                OIG-EV-10-03

       of sensitive commercial sectors and products and the Bank shall submit an updated list to the
       Committee on Banking, Housing, and Urban Affairs of the Senate and the Committee on Financial
       Services of the House of Representatives of such sectors and products. (Emphasis added)

In response to this requirement, Ex-Im Bank posted on its web site the following statement dated April 26,
201046:

Sensitive Commercial Sectors and Products List

                Sectors

                Steel: Additions to global raw steel-making capacity. As a general rule, transactions that
                involve replacing existing capacity are not subject to economic impact analysis beyond a
                check for applicable trade measures.

                          Basis for inclusion on the list: General view that long-term surplus in raw steel-
                          making capacity exists globally.

                Products

                DRAM semiconductors: Additions to global DRAM semiconductor-making capacity.

                          Basis for inclusion on the list: Extended cyclical imbalance in which supply is
                          forecast to exceed demand over an extended period going forward. This imbalance
                          means the new production from any project seeking Ex-Im Bank financing over the
                          next year is likely to come online at a time of oversupply.

                Transaction Characteristics

                U.S. market oriented: Products associated with projects where a significant portion of the
                output directly produced by the project is destined for the U.S. market and will compete
                directly with U.S. production. Recent examples include flat glass produced in Mexico and
                automotive engine parts produced in Mexico.

                          Basis for inclusion on the list: Likely net negative trade flow implication.

In view of the suggestions above at A.1., 2., and 3. and below at B.1. and 2, and the findings presented in
Sections A. and B. of this Report, it is suggested that the PPG staff reevaluate the sensitive commercial
sectors list. In particular, it is suggested that the PPG staff further refine or omit reference to “Products
associated with projects where a significant portion of the output directly produced by the project is destined
    46	 http://www.exim.gov/products/policies/list_sensitive_comm_sectors_products.cfm
                                                          45
                 EVALUATION REPORT RELATING TO
                  ECONOMIC IMPACT PROCEDURES
OIG-EV-10-03

 for the U.S. market and will compete directly with U.S. production.” The inclusion of this broad category,
 based on “transaction characteristics,” is an honest acknowledgment by the Bank that trade flow analysis will
 frequently result in rejection of a transaction on economic impact grounds, without regard to the conditions
 existing in a specific industry or a finding of any actual likelihood of substantial injury.

 This “sensitive sector” disclosure reflects the problems with the current mode of economic impact analysis in
 a nutshell. It suggests to capital equipment manufacturers in the U.S. that they should not seek to sell their
 equipment with Ex-Im Bank support anywhere in the Western Hemisphere or most of the Pacific Rim. It
 goes beyond the position of the strongest Economic Impact Advocates in the 1986 Congressional debates
 over Section 2(e) of the Bank’s Charter, who sought only to block transactions that the Bank determined
 were likely to cause substantial harm to U.S. producers of Exportable Goods. In the Bank’s sensitive sector
 formulation, there is no requirement that actual harm, or the likelihood of harm, must be shown in order
 for Ex-Im Bank to decline to support a transaction. If the PPG staff determines that a material amount of
 the foreign buyer’s production will be directed to the U.S., and the amount of new production exceeds 1% of
 U.S. production of the Exportable Good, the sensitive sector list puts the world on notice that the Bank will
 not support the transaction.

 It is also suggested that the President of the Bank seek the concurrence of the Board of Directors with the
 information that is presented in the annual sensitive sectors report to Congress that is published on the
 Bank’s website. As discussed in Section A, Section 2(e)(3) grants to the Board, not the Bank’s staff, the
 responsibility for deciding whether the Bank should support an export transaction, even in the face of
 evidence of oversupply or substantial injury affecting U.S. producers of the Exportable Good that will result
 from the proposed transaction. This Report’s principal criticism of the Bank’s current mode of economic
 impact analysis is that the Bank’s staff appears to have assumed the responsibility for deciding economic
 impact cases, and has not provided the Board with the necessary information or opportunity to make its
 own decision based on a balancing of the relative costs and benefits of specific transactions.

 Section 2(e)(5) of the Charter does expressly require that the Bank’s President make the report to Congress
 identifying “sensitive commercial sectors and products with respect to which the provision of financing
 support by the Bank is deemed unlikely by the President of the Bank due to the significant potential for
 a determination that such financing support would result in an adverse economic impact on the United
 States.” Given the potential for individual members of the Board to hold divergent views of economic
 impact, it is possible that the same facts might produce differing results if the Board’s composition changes.
 The Bank’s President can attempt to assess these differences, or may be able to identify Damaged Industries
 where he or she has relative confidence of accurately predicting what the Board will do if presented with
 a transaction requiring economic impact review. An approach more in accord with the Board’s statutory
 responsibility will be to seek the Board’s confirmation that that it would in fact be likely to decide economic
 impact cases against support of transactions in the affected industry. Without this consultation, the
 President risks discouraging otherwise viable transactions from being submitted to the Bank, and thereby
 effectively usurps the Board’s responsibility to decide economic impact cases under Section 2(e) of the
 Charter.



                                                         46
                EVALUATION REPORT RELATING TO
                 ECONOMIC IMPACT PROCEDURES
                                                                                                OIG-EV-10-03

The Bank has experienced a material decrease in transactions requiring economic impact review during
2008 and 2009, despite an increased need for Ex-Im Bank supported financing due to the deteriorating
availability of private sector export credit. It is suggested that the PPG staff evaluate whether the inclusion of
“Products associated with projects where a significant portion of the output directly produced by the project
is destined for the U.S. market and will compete directly with U.S. production” as a category of transactions
where “provision of financing support by the Bank is deemed unlikely by the President of the Bank” has
contributed to the decrease in the number of capital equipment financing transactions submitted to the
Bank.




Suggestions to Management

        B.1.	 While the data supporting trade flow analysis and the conclusions that may be drawn from
              that data and analysis have relevance to the Board’s consideration and determination of
              economic impact cases, trade flow analysis should not be the sole or primary criterion for
              deciding economic impact cases addressed in the PPG staff’s economic impact reports, and it
              should not be determinative of the PPG staff’s recommendation, or the Board’s decision, in
              economic impact cases.

        B.2.	 The PPG staff should develop additional criteria for analysis of economic impact that are
              consistent with the Bank’s Charter and Congressional intent to assist the Board in deciding
              economic impact cases. These criteria should focus on the sort of macroeconomic trends that
              were characteristic of the U.S. industries that were cited as experiencing substantial economic
              injury at the hands of foreign competitors in Congressional hearings preceding the enactment
              of the current economic impact requirements expressed in Section 2(e) of the Bank’s Charter.

        B.3	 It is suggested that the Bank’s Economic Impact Procedures provide for a periodic backward-
              looking empirical review to determine whether it appears that transactions approved have
              in fact caused or contributed to any substantial injury to U.S. producers of an Exportable
              Good or related employment under the criteria relied upon by the PPG staff and the Board,
              and whether any projected benefits to the U.S. economy and employment of approving, or
              disapproving, specific transactions were in fact realized.

        B.4.	 It is suggested that in view of the suggestions above at A.1., 2., and 3. and B.1. and 2., the
               PPG staff should reevaluate the “sensitive commercial sectors list” promulgated by the Bank
               pursuant to Section 2(e)(5) of the Charter. In particular, it is suggested that the Bank further
               refine or omit reference to “Products associated with projects where a significant portion of
               the output directly produced by the project is destined for the U.S. market and will compete
               directly with U.S. production,” which is based on “likely net negative trade flow implication.”



                                                        47
            EVALUATION REPORT RELATING TO
             ECONOMIC IMPACT PROCEDURES
OIG-EV-10-03

          It is also suggested that the Board be consulted before the sensitive sector list is published
          to confirm that they are in general accord with it in order to avoid the Bank’s President
          effectively usurping the Board’s final authority to decide economic impact cases.




                                                   48
                EVALUATION REPORT RELATING TO
                 ECONOMIC IMPACT PROCEDURES
                                                                                             OIG-EV-10-03

                                             Section C

  The Bank Should Improve the Transparency of Its Economic
  Impact Procedures and Its Economic Impact Determinations


Conclusion

The Bank should advance the transparency of its economic impact policy and determinations by (a) revising
its publicly available Economic Impact Procedures to include more information about its methodology (b)
revising the Bank’s internal procedures to more fully and accurately describe the PPG staff’s methodology
in preparing economic impact reports and (c) making economic impact reports publicly available after
redacting them, or delaying their release, to protect sensitive business confidential information of the
transaction proponents.




Findings

Causes of Limited Transparency of Economic Impact Procedures

The Economic Impact Procedures adopted by the Bank in April 2007, while still relatively brief, represent
a significant expansion of the publicly available information regarding the Bank’s economic review process,
which was encouraged, and in some aspects required, by the terms of Congress’ reauthorization of the
Bank in 2006. The Bank’s PPG staff has developed an internal instruction manual containing a number
of relatively brief and general directions to staff and providing examples of documents generated in support
of economic impact analyses to provide guidance in implementing the Economic Impact Procedures.
The instruction manual does not expand substantially on the statements found in the Economic Impact
Procedures. The instruction manual, examples of prior economic impact analyses and related files and the
PPG staff’s office files and experience provide the principal internal sources of procedural guidance for the
preparation of economic impact analyses. The PPG staff reported that because of the relatively unique
facts relating to individual proposed transactions and product markets and the disparate sources of market
information to support economic impact analyses, they had found it difficult to generalize or standardize
their procedures.

The Bank has not made its written economic impact analyses nor the specifics of its analytical methods
public, nor are they generally available to Bank officers, PPG staff or members of the Board of Directors
other than through requests placed with the PPG staff. The Federal Register notices of proposed

                                                      49
                 EVALUATION REPORT RELATING TO
                  ECONOMIC IMPACT PROCEDURES
OIG-EV-10-03

 transactions subject to economic impact review published pursuant to Section 2(e)(7) of the Charter
 (see Appendix A) provide the only publicly released description of pending transactions, based upon the
 following guideline:

        The content of the notice shall include appropriate, nonproprietary information about: (i) the
        country to which the goods involved in the transaction will be shipped; (ii) the type of goods being
        exported; (iii) the amount of the loan or guarantee involved; (iv) the goods that would be produced
        as a result of the provision of the loan or guarantee; (v) the amount of the increased production
        that will result from the transaction; (vi) the potential sales market for the resulting goods; and
        (vii) the value of the transaction. The buyer’s and the applicant’s names, as well as any proprietary
        information, will not be released. (Economic Impact Procedures, April 2007, Stage V, 3.a.)

 The economic impact reports prepared by the PPG staff contain detailed information about the specific
 transactions, which the Bank treats as sensitive confidential business information that is generally not made
 available to the public.

 The need to respond to the imprecision of the “trade flow analysis” methodology with a range of mitigating
 techniques, discussed in Sections A and B of this Report, has required the PPG staff to maintain the
 Economic Impact Procedures in a continuous state of development. When application of trade flow analysis
 to an economic impact case presents a negative result in an industry that clearly is unlikely to experience
 conditions of substantial injury, the PPG staff has responded by considering modifications to its methods to
 cause the quantitative result to better reflect market conditions. These concerns, along with the concern that
 sensitive confidential business information of transaction proponents not be released, have contributed to the
 Bank’s reluctance to publish individual economic impact reports, summaries or other statements of the PPG
 staff’s recommendations or the Board’s decisions.




 The Impact of Low Transparency

 Businesses considering the submission of transactions to the Bank, parties considering opposing transactions
 published in the Federal Register, members of the Board and management who are new to their role
 in considering economic impact cases, members of Congress and their staffs, and representatives of the
 Reviewing Agencies all have had difficulty understanding the Bank’s economic impact policies and
 determinations. The complexity of the issues raised by the Bank’s economic impact responsibilities, and
 the unresolved inherent conflicts affecting the review process called for by the Bank’s Charter, present
 significant challenges for an agency committed to transparency. The current low level of transparency
 contributes to the risk that the Bank’s actions will be perceived as being arbitrary, or politically motivated,
 undermining the legitimacy of the Bank’s actions.




                                                         50
                EVALUATION REPORT RELATING TO
                 ECONOMIC IMPACT PROCEDURES
                                                                                             OIG-EV-10-03

The limited external and internal statements of the Economic Impact Procedures and their application
to specific cases make it difficult for Congress, the public, transaction proponents, Reviewing Agencies,
members of the Bank’s Board and officers and employees new to Ex-Im Bank to understand the Bank’s
methodology in preparing economic impact analyses or to place the Bank’s determinations in any specific
case in a general or historical context. This circumstance was reported to raise concerns regarding
consistency of methodology, practice, and result over time among the individuals reviewing economic
impact analyses who were interviewed by this office, including representatives of the Reviewing Agencies
and members of the Board. The current practice was also described as presenting a risk of a material loss of
capability were the PPG staff to experience turnover among its senior members.

Several Board members suggested during interviews that they found it difficult to determine the extent and
adequacy of the support for PPG staff recommendations to approve or decline a transaction. They reported
that further inquiry would sometimes show that the PPG staff had considered an extensive body of reliable
data, while in other cases it appeared that the staff’s recommendation was based on limited or less reliable
data. In some instances other considerations, such as active opposition to a transaction from representatives
of an impacted Exportable Good industry or possibly congressional interest in support of one or the other of
the affected industries, were perceived as having impacted the PPG staff’s conclusions.

The Bank’s decisions to an outside observer could appear inconsistent and politically driven, even if a review
of the full record supports the reasonableness of the action taken and the procedures used to support the
result. These perceptions have been described as undermining the Bank’s credibility and discouraging the
submission of otherwise viable projects for Ex-Im Bank support. One of the principal recommendations
in the 2007 GAO Report is that the Bank increase the transparency of its methodology for considering
proposed transactions under its Economic Impact Procedures. The work supporting the 2007 OIG Report
confirmed the desirability, and the difficulty, of achieving this objective based on the limited written
materials available publicly or to the PPG staff and the Bank’s management and Board of Directors.




President Obama’s Directive on Transparency and Open Government

On January 21, 2009, the first day of his administration, President Obama issued a government-wide
directive to increase transparency, stating:

        My Administration is committed to creating an unprecedented level of openness in Government.
        We will work together to ensure the public trust and establish a system of transparency, public
        participation, and collaboration. Openness will strengthen our democracy and promote efficiency
        and effectiveness in Government.

        Government should be transparent.  Transparency promotes accountability and provides
        information for citizens about what their Government is doing.  Information maintained by the
        Federal Government is a national asset. My Administration will take appropriate action, consistent

                                                      51
                 EVALUATION REPORT RELATING TO
                  ECONOMIC IMPACT PROCEDURES
OIG-EV-10-03

        with law and policy, to disclose information rapidly in forms that the public can readily find and
        use. Executive departments and agencies should harness new technologies to put information about
        their operations and decisions online and readily available to the public. Executive departments and
        agencies should also solicit public feedback to identify information of greatest use to the public.47




 Opportunities to Improve Transparency

 The Bank’s Economic Impact procedures provide an excellent opportunity to put these words into action.
 The current lack of transparency surrounding economic impact review can be materially improved if the
 Bank’s PPG staff prepares and publishes guidelines identifying the criteria used by the Bank’s staff and
 Board to evaluate economic impact cases and explaining the sort of data that is likely to be relevant to
 those criteria. The Bank’s Economic Impact Procedures should include definitions of terms and concepts
 that are not commonly understood by the public, commonly used sources of relevant data, explanations
 of the application of any quantitative analytical methods, and illustrations of their application in either
 hypothetical or actual case settings. Where a given method is known to be only a very rough approximation
 of the likely empirical circumstance, or is known to be subject to substantial imprecision, that should be
 noted and, to the extent possible, the driving factors for that imprecision should be discussed. Section B
 of this Report suggests that the Bank expand the Economic Impact Procedures to include a number of
 additional criteria. Those that are selected should be made the subject of transparent disclosure on the Bank’s
 website.

 It is further suggested that the Bank’s requests for comment on economic impact transactions delivered
 to the Reviewing Agencies emphasize that the Bank is seeking detailed comment on the data and analysis
 contained in the draft report. It appears that one consequence of the Bank’s current practice of relying on
 the PPG staff to effectively decide the small number of controversial economic impact cases has been that
 the Reviewing Agencies’ comments on economic impact reports in those controversial cases have tended to
 be result-oriented, and sometimes have not been accompanied by data supporting the Reviewing Agency’s
 comments. If economic impact cases are to be decided by the Board, by balancing the data and perspectives
 on both sides of the question as suggested in Section A of this Report, the data supporting a Reviewing
 Agency’s position will be of interest to the Board as well as the PPG staff.

 The Bank’s PPG staff, while taking due care to protect confidential business information, can without
 undue difficulty prepare redacted versions of its economic impact reports, or case summaries describing the
 actions taken in specific economic impact cases and the evidence supporting that action. Those redacted
 reports or summaries can be made available to the transaction participants, and the public, along with the
 expanded information on the Bank’s economic impact methodologies suggested elsewhere in this Report.
 A review of economic impact reports delivered since 2002 suggests that much of the information regarding
 the PPG staff’s analysis and industry economic data are not sensitive business information that require
 protection from disclosure.

     47	 http://www.whitehouse.gov/the_press_office/TransparencyandOpenGovernment/
                                                          52
                EVALUATION REPORT RELATING TO
                 ECONOMIC IMPACT PROCEDURES
                                                                                              OIG-EV-10-03

Because of the various criticisms of prior economic impact review methods leveled in this Report, and the
significant suggested changes, it would likely not be constructive to provide redacted economic impact
reports from prior years if they are not representative of the Bank’s policies going forward. It may be helpful
to consider transparent disclosure and expanded participation in the process by the Reviewing Agencies,
members of the Board and, if the suggestions in Section D of this Report are adopted, proponents of
transactions, if the PPG staff prepares and publishes one or two hypothetical economic impact analyses
demonstrating its revised Economic Impact Procedures if material changes are adopted.




Suggestions to Management

The Bank should advance the transparency of its economic impact policy and determinations by:

        C.1.	 Revising the Economic Impact Procedures to include more information about the PPG staff’s
              methodology and publishing the expanded description on the Bank’s website.

        C.2.	 Revising the Bank’s internal procedures to more fully and accurately describe the PPG staff’s
              methodology in preparing economic impact reports.

        C.3.	 Making economic impact reports publicly available after redacting them, or delaying their
              release, to protect sensitive business confidential information of the transaction proponents.




                                                       53
                EVALUATION REPORT RELATING TO
                 ECONOMIC IMPACT PROCEDURES
                                                                                               OIG-EV-10-03

                                              Section D

 The Bank Should Improve the Efficiency and Responsiveness
of the Economic Impact Procedures by Simplifying the Process
                 and Reallocating Resources


Conclusion

Other U.S. government agencies that evaluate the impact on the U.S. economy of specified transactions
or developments apply a number of strategies to advance the goals of achieving transparency, reasonably
accurate determinations and responsiveness to the interests of the public, transaction participants and
other stakeholders that have not been fully evaluated or applied in the context of Ex-Im Bank’s Economic
Impact Procedures. Ex-Im Bank management can increase the accuracy, transparency and responsiveness
of the Bank’s Economic Impact Procedures by developing methodologies to accelerate the consideration of
economic impact cases and hiring, or contracting for the services of, a trained economist with a background
in macroeconomic market analysis of the sort required by economic impact review.




Findings

The PPG staff has described its quantitative trade flow analysis as an approximate indicator that can be
managed during the limited time, and with the limited information, available to the PPG staff to suggest
where a negative balance of costs and benefits to the U.S. market might be found to be associated with a
proposed transaction such that Ex-Im Bank support for the transaction should be questioned or denied.
While Section B of this Report suggests that the PPG staff no longer place the same degree of reliance on
quantitative trade flow analysis as the principal criterion applied to decide economic impact cases, the staff’s
objective of developing a prompt and easy to manage process for economic impact review is consistent
with the Bank’s mission and deserves continuing study and effort. This Section D addresses a number of
suggested actions that can contribute to that effort.




                                                       55
                   EVALUATION REPORT RELATING TO
                    ECONOMIC IMPACT PROCEDURES
OIG-EV-10-03

 Developing Methods to Quickly Clear Low-Risk Transactions

 Given that more than 90% of economic impact cases do not appear to have been difficult or controversial
 to decide, it would speed transaction approval if the PPG staff organized the Bank’s Economic Impact
 Procedures to efficiently identify those transactions at an early stage of the review process. This would then
 free up PPG staff resources to focus on the smaller number of cases that are difficult or where opposition
 to the transaction develops from affected industries or Congress, allowing those cases to be addressed and
 disposed of more efficiently as well. Efficient allocation of resources will also support the PPG staff’s effort
 over the past year to screen transactions below the $10 million threshold48 to determine whether they raise
 economic impact issues outside of a formal economic impact review process.

 Because of the wide variety of industries that the PPG staff may have to analyze for economic impact, the
 unique features of many industries relative to their structures and data availability and the PPG staff’s
 limited resources, the PPG staff reported in interviews that they often find it challenging to respond to the
 requirement for preparation of a well documented and reasoned economic impact analysis within the limited
 time available to them, particularly in new industries where they do not have accumulated experience or file
 data. They also noted that in their experience, there is a broad range of sophistication among transaction
 proponents, with some having resources and background to understand the requirements of the process
 while others do not.

 It should be possible for the PPG staff to evaluate its prior economic impact reports to identify common
 elements among the more than 90% of economic impact review transactions that have not been difficult
 or controversial that could be applied as a screen to identify transactions eligible for expedited processing.
 The screen might not be effective at a 90% level, but even identifying 50% of the Bank’s economic
 impact review transactions for expedited processing would provide a significant benefit to the transaction
 proponents and to the use of PPG staff resources. Among the criteria that should be evaluated for inclusion
 in that screening process would be:

         (a)	   Recent results for U.S. producers of the Exportable Good – if U.S. producers of the
                Exportable Good and related employment have been experiencing relatively consistent positive
                results in recent years, the likelihood of adverse economic impact from the creation of new
                foreign production would appear to be small unless the amount of new foreign production
                is significant. If U.S. producers of the Exportable Good have been experiencing depressed
                prices, operating losses and employment losses attributable to foreign competition, the




     48	 As discussed in detail in the 2007 GAO Report, the Bank subjects transactions involving less than $10 million of support
         to less rigorous and time-consuming procedures for review; these transactions are not subjected to formal economic
         impact review. Based on findings and recommendations in the 2007 GAO Report, the PPG staff has begun an informal
         screening process to identify smaller transactions that might raise economic impact issues. Based on amendments
         contained in Section 2(e)(6) of the Charter enacted during the Bank’s 2006 reauthorization, the PPG staff is also tracking
         transactions below the $10 million threshold that might aggregate to more than that amount over a 24 month period.
                                                                  56
                 EVALUATION REPORT RELATING TO
                  ECONOMIC IMPACT PROCEDURES
                                                                                                            OIG-EV-10-03

               likelihood of adverse economic impact would be greater49. This approach would track the
               analysis and suggestions for improvement discussed above in Section B - Distinguishing
               “Damaged Industries,” “Challenged Industries” and “Successful Industries.”

       (b)	    Relative percentages of the U.S. market and the world market represented by the new foreign
               production – if the new foreign production is less than a low percentage of world output, for
               example 2 or 3%, and if U.S. production is a low percentage of world output, for example
               less than 50%, then it might be reasonable to conclude that the impact of the new foreign
               production is likely to be greater on foreign producers of the Exportable Good than on U.S.
               producers, and that any identifiable adverse impact on U.S. producers would be materially
               diluted as a result. In markets experiencing “oversupply,” as discussed in Section A, a different
               conclusion might result that would justify more extensive analysis.

       (c)	    The location of the new foreign production and its potential for direct competition in the U.S.
               market as opposed to foreign markets. The PPG staff has noted that new foreign production
               located in North America or in the western hemisphere is more frequently focused on delivery
               to the U.S. market, presenting an increased likelihood of direct competition that might
               produce an adverse economic impact.

       (d)	    The presence of U.S. trade-related actions affecting foreign producers of the Exportable Good
               anywhere in the world, or the presence of material foreign government subsidies or support
               for the manufacture of the Exportable Good anywhere in the world, which would suggest an
               increased likelihood of adverse economic impact on U.S. producers from foreign production of
               the Exportable Good generally and from the transaction under consideration specifically.

As discussed in Section A of this Report, the sorts of industry conditions identified by Congress as raising
serious concerns of net negative economic impact have not been subtle or required trained economists
to identify. A few hours spent scanning the internet for industry coverage and financial reports of U.S.
producers would in most of those cases identify negative results such as multiple years of operating losses,
employment losses, and failures of U.S. companies that should signal the potential existence of a Damaged
Industry where a finding of adverse economic impact would be most likely. The absence of those publicly
discussed negative results and prospects should correspondingly signal a case where an expedited review
should be possible. And even in cases identified for expedited review, the identification of the case as
expedited to the Reviewing Agencies, and possibly to the public and Congress in the Bank’s public notice,
should provide reasonable assurance that if there is an issue that the screen overlooks, it is likely to be
brought to the Bank’s attention in time to be acted upon.


    49	 The economic impact review process implemented by the Overseas Private Investment Corporation (OPIC), while
        having a number of features specific to its mission and authorizing legislation, has some analogs to the process
        contemplated in the Bank’s Charter; OPIC reports that their primary focus is identifying U.S. industries that might be
        impacted by new foreign production associated with an OPIC supported development projects that are experiencing
        distress. Where affected U.S. industries are not experiencing distress, a more streamlined review results. When a
        relevant U.S. industry is in distress, the transaction faces a very high threshold of review before it can be approved.
                                                              57
                   EVALUATION REPORT RELATING TO
                    ECONOMIC IMPACT PROCEDURES
OIG-EV-10-03



 Develop Screening Method Comparable to Hart-Scott Antitrust Review

 The Bank should consider alternatives to simplify the screening process currently used in its Economic
 Impact Analysis. An example of a simplified approach to complex market analysis by a government agency
 is the pre-transaction antitrust review applied to corporate mergers and acquisitions by the Federal Trade
 Commission (“FTC”) under the Hart Scott Rodino Antitrust Improvements Act of 1976 (“Hart-Scott”).

 To read more about the Hart-Scott Method please see Appendix H of this Report.




 Request Transaction Proponents to Provide Relevant Information

 Two other practices included in the FTC’s Hart-Scott review process could be profitably implemented
 by Ex-Im Bank as part of its Economic Impact Procedures. The first is to request that proponents of
 transactions involving capital equipment provide a small amount of information that is highly relevant
 to economic impact review and the second is to encourage transaction proponents to submit white paper
 analyses addressing the concerns of economic impact analysis in more difficult cases.

 Exporters and foreign buyers seeking Ex-Im Bank support for capital equipment transactions should be
 requested to provide a limited amount of data relevant to economic impact at or before the submission of
 their application. Specifically, the transaction proponents should be asked to provide a description of the
 Exportable Goods expected to result directly or indirectly from the new foreign production created by the
 transaction, including their NAICS codes, an estimate of the units and dollar volumes of annual production
 that might be anticipated and an indication of the markets to which the new production will be directed.
 An indication of the “U.S. jobs” value of the transaction – the approximate number of U.S. worker days
 represented by the exported capital equipment should also be requested.50 This is substantially the same
 information that the Bank is required to include in the Federal Register notice of transactions receiving full
 economic impact review pursuant to Section 2(e)(7) of the Charter discussed below.

 The indicated information should be easily available to the proponents of capital equipment export
 transactions – the seller knows the production capacity of its equipment and the buyer knows what it plans
 to do with the equipment and its output – if they are on notice that they need to provide the information
 when they submit an application for Ex-Im Bank support. There will be questions of accuracy and
 reliability of the proponents’ data for the PPG staff to consider, but those questions exist with regard to



     50	 This data is relevant to determining the cost to the U.S. economy if the transaction is lost because
         Ex-Im Bank support is not provided, and is also one of the key metrics that Ex-Im Bank uses to
         evaluate the effectiveness of its actions in support of its mission of supporting U.S. jobs.
                                                                   58
                EVALUATION REPORT RELATING TO
                 ECONOMIC IMPACT PROCEDURES
                                                                                               OIG-EV-10-03

much of the data supporting economic impact analysis. And, as noted above and in Sections A and B,
economic impact analysis should focus more on large-scale aggregate data and economic effects, such that
modest potential rates of error in the data should not materially impact the final conclusions.

The Bank should also encourage transaction proponents in more difficult cases to submit white paper
analyses addressing more fully the concerns of economic impact analysis. If the suggestions made in Section
C of this Report are implemented, providing exporters with much more information about how economic
impact analysis is approached by the PPG staff, transaction proponents will be able to make their own
optimizing decisions of whether to submit a report supporting their transaction, and how much time and
effort to expend in doing so. It is reasonable to expect that the sellers and buyers of capital equipment subject
to detailed economic impact analysis regularly obtain information regarding the markets for their direct and
indirect products in order to maintain their competitiveness and to plan their operations. They should be in
a position to provide that information to Ex-Im Bank early in the application process, which should provide
the PPG staff with a significantly improved base of information to support their work.

Transaction proponents are highly motivated to assist and accelerate the Bank’s review process, and are also
in the best position to be aware of available sources of reliable data and provide them to the Bank’s PPG staff
at the beginning of their transaction approval process, or perhaps even in advance of that process. Many
transaction proponents, particularly those who are less sophisticated, are assisted by finders, agents, lenders
and other advisors who deal with the Bank and its policies more frequently and will be able to contribute
their experience to assist less sophisticated parties in responding. The PPG staff has expressed some doubt
as to the ability of transaction proponents to contribute useful information. The PPG staff is encouraged to
test this perspective by inviting proponents to submit relevant market information in the small number of
cases that are subjected to detailed economic impact review over a test period of two or three years in order
to allow the Bank to determine the usefulness of the data submitted.

Section A of this Report notes that the PPG staff’s current mode of economic impact analysis has tended
not to formally consider adverse effects on the U.S. economy and employment resulting from a decision to
decline Ex-Im Bank support for a transaction, despite the clear requirement in Section 2(e) of the Charter
that it do so. The adverse effects from rejecting a transaction will typically be centered on the exporter of
capital goods, its industry, its employees, and its vendors. The exporter will typically be in the best position
to explain what the lost work hours, lost market position, lost profitability and other negative impacts of a
lost sale will represent for that company and for the U.S. economy if Ex-Im Bank support is not provided.
The Bank’s PPG staff will have difficulty obtaining data to present to the Board on these points if they do
not ask the exporter to provide it.

In those cases where transaction proponents submit supporting information as part of the application process
that addresses the criteria identified by the Bank as being relevant to economic impact analysis, the demands
on the PPG staff should be reduced, allowing it to accelerate its work. The information received by the PPG
staff from transaction proponents combined with the results of their review of any other easily obtainable
sources of data might be deemed a sufficient factual basis to support a recommendation to the Board, and to
constitute the bulk of the PPG staff’s economic impact report, where other significantly negative indicators,
such as conditions indicating the existence of a Damaged Industry for the Exportable Good, are not present.
                                                       59
                 EVALUATION REPORT RELATING TO
                  ECONOMIC IMPACT PROCEDURES
OIG-EV-10-03

 Section A of this Report observes that the Board is substantially dependent on the PPG staff to provide
 them with a balanced and complete presentation of the data and analysis necessary for the economic impact
 determinations the Board is required to make under the Bank’s Charter. Section 2(e)(7) of the Charter
 requires the Bank to provide to the Board the comments of persons adversely affected by a proposed
 transaction. Consideration of the comments of persons positively affected (i.e. the U.S. exporter and foreign
 buyer) would seem to be reasonable as well. The receipt of relevant data and analysis from transaction
 proponents should improve the quality and completeness of the PPG staff’s reports, and provide the
 Board with greater assurance that they are considering the full range of balancing factors in support of the
 transaction, even if circumstances where they may disagree with the specific conclusions advocated.

 There is also an element of fairness in the PPG staff and the Bank’s Board formally considering economic
 impact analyses prepared by transaction proponents. In the small number of controversial economic impact
 cases considered by the Bank, opponents of the transactions, alerted by notice in the Federal Register, have
 sometimes provided the Bank with data and analysis supporting their opposition, which has impacted the
 PPG staff’s final report and recommendation. It seems fair and reasonable that the transaction proponent’s
 view of the economic impact of the transaction should also be considered as part of the total mix of
 information that is evaluated by the PPG staff and the Board of Directors.




 Reorder the Stages of Economic Impact Review to Accelerate the Process

 The typical economic impact review case is initiated when a lender submits an application for Ex-Im Bank
 guarantee or insurance coverage for a proposed export transaction involving capital equipment. The PPG
 staff subjects these transactions to a detailed screening process that is described in detail in the Economic
 Impact Procedures and in the 2007 GAO Report. The initial screening process takes several weeks and
 appears to be effective in identifying and excluding from economic impact review the 95% or more of Ex-
 Im Bank transactions that do not raise economic impact issues. If a detailed economic impact review is
 indicated, the PPG staff then commences that work. Questions may be directed to the proposed exporter
 and foreign buyer to confirm information such as the specific Exportable Good that will result from the
 export of capital equipment, the volume of production and the markets it will be sold into. The PPG
 staff also obtains business and economic data from industry and reference sources and frequently requests
 relevant market information informally from one or more of the Reviewing Agencies.

 The results of trade flow analysis and other market and transaction data deemed relevant by the PPG
 staff under the Economic Impact Procedures are included in a draft report two to three months after
 the initial application is filed. The review of economic impact reports over the period covered by this
 Report confirmed that it would be fair to typify the PPG staff’s preparation of economic impact reports
 as conscientious, thorough, and time-consuming. At this point the draft is provided to the Reviewing




                                                         60
                  EVALUATION REPORT RELATING TO
                   ECONOMIC IMPACT PROCEDURES
                                                                                                             OIG-EV-10-03

Agencies, and a notice of the transaction is published in the Federal Register.51 The PPG staff then waits
for the Reviewing Agencies to express a comment on the proposed transaction, or waive comment, which
is requested within 30 days but in practice has sometimes taken two to three months. Controversial
cases receiving active opposition from an impacted Exportable Good industry, a member of Congress or a
Reviewing Agency generally have taken longer to complete, adding months to the process.

Once the Reviewing Agencies have responded, the economic impact report is finalized, and the transaction
scheduled for Board decision, with each director being briefed on the PPG staff’s recommendation and the
content of the economic impact report prior to that vote. Because of the delays associated with the process,
the completion of the economic impact report can be the last step in the transaction approval process,
resulting in a short period of time, sometimes as little as a week, for the Board to consider a transaction.
Having access to the PPG staff’s report, and an ability to question it or examine underlying data, for such
a short period of time impairs the Board’s ability to exercise its responsibility under Section 2(e) of the
Bank’s Charter to decide economic impact cases. An uncertain process that can take six months or more
to complete impairs the utility of Ex-Im Bank support for U.S. exporters. Unreasonable delay will for many
exporters have the same effect as a denial of Ex-Im Bank support.

A review of the economic impact cases decided by the Bank since 2002 (see Appendix B) suggests that it is
possible to reduce the amount of time and uncertainty associated with the economic impact review process
if changes are made in the order in which the various required actions and notices to the public and the
Reviewing Agencies are completed so as to identify sources of controversy early in the process, rather than at
the end.

The leading triggers for controversy (opposition from impacted industries or U.S. producers of the
relevant Exportable Good, from the Reviewing Agencies or from the Board) and associated delays can be
summarized as:

        •	 Consideration of cases where the Exportable Good will compete with U.S. producers in a
           Damaged Industry.
    51	 Section 2(e)(7) of the Charter requires that the Bank publish a notice in the Federal Register if “ the Bank intends to
        conduct a detailed economic impact analysis or similar study,” alerting Congress, the public and affected industries to
        the potential transaction. The required notice provides limited, nonproprietary information about the transaction:
           (i) the country to which the goods involved in the transaction will be shipped;
           (ii) the type of goods being exported;
           (iii) the amount of the loan or guarantee involved;
           (iv) the goods that would be produced as a result of the provision of the loan or guarantee [Exportable Goods];
           (v) the amount of increased production [of the Exportable Good] that will result from the transaction;
           (vi) the potential sales market for the resulting [Exportable] goods; and
           (vii) the value of the transaction.

    	   Section 2(e)(7) of the Charter provides for a fourteen day comment period after publication of
        the EI Notice, which may be extended to thirty days upon the request of any affected party, and
        for republication of the notice if specified material changes in the transaction are later made (a
        change in the Exportable Good or an increase in the requested loan of 25% or more).
                                                               61
                  EVALUATION REPORT RELATING TO
                   ECONOMIC IMPACT PROCEDURES
OIG-EV-10-03

         •	 Consideration of cases where the Exportable Good will compete with U.S. producers in a
            Challenged Industry.

         •	 Consideration of cases opposed by a U.S. producer of the Exportable Good who enlisted active
            support from a member of Congress.

         •	 Applications of trade flow analysis where the result or the methodology appeared inadequately
            supported to one or more of the Reviewing Agencies or a member of the Board.

 The leading causes of controversy identified by members of the Board have been: (i) the lack of transparency
 of trade flow analysis, (ii) applications of trade flow analysis that were contradicted by other information
 about the affected industries, (iii) inadequate time provided to the Board to evaluate the PPG staff’s
 recommendation and supporting economic impact report and (iv) fundamental differences of opinion
 between directors holding Anti-Economic Impact perspectives discussed in Section B of this Report and the
 generally Pro-Economic Impact bias of the current Economic Impact Procedures.

 Negative responses to the PPG staff’s draft economic impact reports by the Reviewing Agencies have tended
 to fall into two categories: (i) comments about the advisability of Ex-Im Bank support for the transaction
 on policy grounds and (ii) comments about the methodology used by the PPG staff (most frequently some
 aspect of the staff’s trade flow analysis) to support their recommendation. The information contained in
 the Federal Register notice would appear to be sufficient to allow the Reviewing Agencies to provide the
 first category of comments in the transactions reviewed for this Report; the second category of comments
 has generally required a review of the PPG staff’s draft report. To the extent that the PPG staff ceases to
 rely heavily on trade flow analysis, the second category of Reviewing Agency comment will cease to be
 applicable.

 The Bank’s current Economic Impact Procedures, and the PPG staff’s methodology in executing them,
 tend to result in one or more of the impacted industries, Congress, the Reviewing Agencies and the Board
 receiving notice of a pending transaction, or an opportunity register their objection later, rather than earlier,
 in the process. This is a consequence of the PPG staff’s procedures requiring completion of their draft
 economic impact report and resulting recommendation before the interested parties are notified of the
 existence of the proposed transaction and the basic facts concerning it. This has resulted in the economic
 impact review process taking months to complete even for transactions involving Successful Industries
 where none of the Reviewing Agencies nor any member of Congress or representative of an impacted U.S.
 producer of the relevant Exportable Good has expressed any concern about a transaction.

 It is entirely supportable that the Board of Directors would not make a final decision until its members have
 reviewed the PPG staff’s final report. However, it appears that most of the negative comments delivered
 for comment on these transactions are attributable to the basic facts of the transaction that are known to
 the PPG staff much earlier in the economic impact review process, and that preliminary comment from
 the Board could be collected and addressed by the PPG staff and the Bank’s senior management as part
 of the process of completing the initial draft of economic impact report without damaging the integrity
 or effectiveness of the process. This will be particularly helpful information if individual members of the

                                                           62
                EVALUATION REPORT RELATING TO
                 ECONOMIC IMPACT PROCEDURES
                                                                                                OIG-EV-10-03

Board come from a strong Pro-Economic Impact or Anti-Economic Impact perspective. The Reviewing
Agencies are not called upon to express an opinion on the Bank’s final decision on an economic impact
case – they should be able to express their views in favor or against Ex-Im Bank support for a transaction in
most cases much earlier in the process, and then confirm that their views have not changed when the final
economic impact report draft is circulated.

The basic insight of this section of the Report is that if these sources of controversy are identified and
addressed earlier in the process, less delay and uncertainty will be imposed on transaction participants. Less
delay and uncertainty will benefit exporters and should increase their willingness to submit transactions
for Ex-Im Bank support. This Report suggests that the Bank should move away from reliance on trade
flow analysis, and towards a broader balancing analysis of economic impact transactions based on publicly
disclosed criteria, and make its Economic Impact Procedures more transparent. If these suggestions are
acted upon, then providing notice of economic impact transactions to the Reviewing Agencies and the
Board containing essentially the information now contained in Federal Register notices of economic impact
transactions, supplemented by any information provided by the transaction proponents and the PPG staff,
will support a more transparent and responsive process. Providing the existing Federal Register notice to
alert Congress and impacted industries at the same early date will similarly elicit their likely response, if any,
much earlier in the process.

Management should evaluate whether application of the suggested method to the indicated sources of
controversy could have the following positive effects:

        •	 Cases involving Damaged Industries – representatives of the Damaged Industry, Reviewing
           Agencies aware of those conditions and Board members strongly in the Pro-Economic Impact
           camp will in most cases be able to articulate their opposition to transactions supporting new
           foreign production of an Exportable Good that will compete with a U.S. Damaged Industry
           without the benefit of a full economic impact report. That response might dissuade the Bank
           from pursuing the transaction unless a majority of the Board indicates an interest in giving it
           fuller consideration.

        •	 Cases involving Challenged Industries – representatives of the Challenged Industry, Reviewing
           Agencies aware of those concerns and Board members strongly of the Pro-Economic Impact or
           Anti-Economic Impact perspectives will be able to articulate their opposition or support for the
           proposed transactions based on the summary information provided. If none of those sources
           register a negative view within a reasonable time after receiving notice, the PPG staff could
           accelerate its process, and the Bank’s decision. If mixed views are registered, the PPG staff can
           engage with the sources of the disparate views and reflect them in the draft economic impact
           report.

        •	 Cases involving parties enlisting the interest of Congress – the views of the party and the
           interested member of Congress can be received by the Bank’s staff and considered along with
           other data received by the Bank at an early point during the review process. Whatever response
           the Bank determines to make, the result for the integrity of the Bank’s processes will be better if
           this sort of issue is dealt with at an early stage rather than later.
                                                        63
                   EVALUATION REPORT RELATING TO
                    ECONOMIC IMPACT PROCEDURES
OIG-EV-10-03

         •	 Cases involving disagreements over the results or methodology of trade flow analysis – to the
            extent that trade flow analysis is dispensed with or significantly reduced in its influence, these
            specific sources of controversy should diminish. If the Bank adopts a broad, non-quantitative
            balancing mode of analysis as suggested in this Report, obtaining a preliminary reaction
            from the Board and the Reviewing Agencies at an earlier stage of the process will allow them
            to identify the criteria and related data that they believe will be most relevant to their final
            determinations regarding the case.

 Each of these instances of early exposure of economic impact cases should contribute to the quality of the
 PPG staff’s analysis and should allow them to accelerate the process of reaching a well-supported final
 conclusion that can be provided to the Board and the Reviewing Agencies. In a majority of the cases
 identified in Appendix B that were reviewed in the course of preparing this Report it appears that the PPG
 staff’s work could have been completed and the case referred for final decision by the Board after the sort of
 preliminary report described above.

 The PPG staff communicates with the Bank’s transactional staff as they work on economic impact analyses.
 If it appears that a transaction may not receive approval on economic grounds or is lacking necessary
 information, the PPG staff may reallocate their limited resources to other work until they receive word that
 the transaction is moving forward. Similarly, early indicators of a negative economic impact determination
 may be communicated to the Bank staff handling the transaction, resulting in discussions with the
 proponents, or even suggestions that the transaction be withdrawn. These events and discussions can
 contribute to delays in completing draft economic impact analyses.52

 A number of instances were reported in interviews with the Board where the PPG staff’s final economic
 impact report containing its recommendation to the Board was provided to the Board only a week before
 a transaction was to be submitted for Board approval. Being forced into a rushed decision was reported to
 be particularly problematic to the Board in the small number of cases where opposition to the transaction
 had emerged or members of the Board had been contacted by proponents or opponents of the transaction,
     52 In expedited transactions, it might be expected that the conclusions from the PPG staff ’s preliminary screen
        might be known, and notice of the transaction provided to the Reviewing Agencies, Congress and the public,
        within 30 days after submission of the initial application. In the vast majority of cases where no adverse
        comment is received, a draft economic impact report could be distributed 30 days after that, with final action
        by the Board set shortly thereafter. If the Reviewing Agencies and the Board were inclined to agree with the
        results of the PPG staff ’s preliminary screen indicating that adverse economic impact is unlikely, comment by the
        Reviewing Agencies and briefing by the Board might be waived, allowing final action in approximately 60 days.

     	   If a case is expected to be difficult or controversial, requiring a significant investment of time by the PPG
         staff, the initial notice of the transaction to the Reviewing Agencies, Congress and the public could still occur
         within 30 days, and the PPG staff ’s work to support the draft economic impact report could commence. As
         comment and related information is received in the following months, the PPG staff could develop its balancing
         analysis to be presented in the draft report. Depending on resources available and the extent of interaction with
         interested parties, the substantive work on the report might occupy the PPG staff for as much as 60-90 days,
         with the goal of producing a draft report that was inclusive of all information received, as discussed in Section A
         of this Report, that would be distributed to the Reviewing Agencies and the Board and then considered by the
         Board 30 days later, allowing final Board consideration to occur within 120 days for more difficult cases.
                                                                   64
                EVALUATION REPORT RELATING TO
                 ECONOMIC IMPACT PROCEDURES
                                                                                              OIG-EV-10-03

particularly in view of the limitations of the economic impact reports received by the Board as detailed above
in Section A. Use of both the expedited and extended review timelines described above would allow the
Board to be aware of and to follow the progress of economic impact reviews.




Set Reasonable Time Limits for Response by the Reviewing Agencies

Members of the Board and the PPG staff in interviews commented that in several of the small number of
more difficult economic impact cases the Reviewing Agencies had not responded to the PPG staff’s draft
economic impact reports for periods of several months, delaying consideration and authorization of the
pending transactions. Internal Reviewing Agency delays in providing comments on draft economic impact
reports were attributed to the relative infrequency of economic impact cases, and the broad range of markets
that they might impact, which were cited as preventing the development of specific personnel and processes
to address economic impact cases. The PPG staff’s practice of not actively engaging with the Reviewing
Agencies until the draft economic impact report is completed also contributes to delay – the Reviewing
Agencies cannot begin to evaluate the transaction until the PPG staff’s work is complete.

The Bank’s use of trade flow analysis as the primary determinant of economic impact cases, and the lack of
transparency associated with that method, have understandably limited the ability of the Reviewing Agencies
to undertake independent analysis of the economic effect of a proposed transaction. External facts regarding
U.S. and foreign markets for the proposed export and the resulting Exportable Goods are generally given
little or no effect by trade flow analysis. A Reviewing Agency has little choice but to wait and see what result
is produced by the PPG staff’s trade flow analysis, compare that result with what the Reviewing Agency
knows of the underlying facts, identify any other relevant policy concerns with the PPG staff’s conclusion
and then provide comment.

Several of the suggestions made in this Report should make it easier for the Reviewing Agencies to
contribute to the economic impact review process. If the Bank decreases or eliminates reliance on trade
flow analysis and adopts a balancing analysis that considers a broader range of criteria that are transparently
disclosed to the Reviewing Agencies, the Reviewing Agencies will not have to wait until the PPG staff’s draft
report is completed to begin working on an economic impact case. If the PPG staff provides early notice of
pending cases as suggested in this Section D, the Reviewing Agencies should be in a position to consult their
own sources for relevant data and policy prior to receiving the PPG staff’s draft report. If work can begin
before the draft report is issued by the PPG staff, then it will be fair and reasonable to request the Reviewing
Agencies to complete that work more promptly.

Assuming that progress is made on the suggestions described above, it is suggested that the PPG staff
establish reasonable time periods for receipt of Reviewing Agency comment after its draft report is
circulated, after which comment will be deemed to have been waived, allowing the Bank to proceed with the
other necessary steps to obtain final Board consideration. Congress in Section 2(e)(7) of the Charter set an
outside limit of thirty days for comments by interested parties in response to public notice of an economic

                                                      65
                   EVALUATION REPORT RELATING TO
                    ECONOMIC IMPACT PROCEDURES
OIG-EV-10-03

 impact case in the Federal Register. A comparable 30-day comment period would typically give the
 Reviewing Agencies at least sixty days to consider the transaction and respond if the PPG staff takes thirty
 days following the date of a prompt Federal Register Notice to complete its draft report.




 Obtain Expert Professional Assistance for Difficult Transactions

 The PPG staff acknowledges that none of its members has received advanced professional training or
 a post-graduate degree in economics, and describes their work as reflecting a practical education in the
 economic issues they have identified as relevant to economic impact review. The PPG staff has in the past
 experimented with retaining private sector economists to apply more quantitatively rigorous methods of
 conventional economic analysis to look at such matters as the “price elasticity of demand” in a particular
 U.S. market.53 These efforts were described by the PPG staff as slow, expensive, and unsatisfactory in that
 the results did not speak with any clarity to the fundamental question of substantial injury to U.S. producers
 of the Exportable Good. This conclusion is reflected in this Report’s suggestion that the Board’s economic
 impact decisions, and the PPG staff’s work to support them, should be driven by larger-scale “macro”
 market data and trends rather than by complex quantitative analysis.

 The Bank employs economists in its Country Risk and Economic Analysis Division, but the work of that
 group focuses on determining credit ratings for the more than 150 countries where the Bank does business,
 requiring a different expertise than what is being suggested here. Congress attempted to address the Bank’s
 need for applied economic analysis in 12 U.S.C. 635-a2, which provides: “the Bank shall request, and the
 United States International Trade Commission shall furnish, a report assessing the impact of the Bank’s
 activities on industries and employment in the United States. Such report shall include an assessment of
 previous loans or financial guarantees and shall provide recommendations concerning general areas which
 may adversely affect domestic industries, including agriculture, and employment.” The PPG staff reported
 that an attempt was made to access this resource, but the absence of funding, the irregularity of the
 demand and the significantly different focus and timing requirements of the Bank’s process prevented the
 International Trade Commission from proving a viable resource.

 The economic impact review process, as currently conducted and as it may be improved by the actions
 suggested in this Report, can benefit from the participation of an expert economist having a strong
 foundation in analyzing U.S. and international markets at a macroeconomic level, including analysis of
 the drivers of changes in supply and demand, profitability in industries and individual participants and
 U.S. labor market dynamics. If the economic impact process moves away from reliance on trade flow
 analysis and begins to consider and attempt to balance other relevant criteria, much of the data that will
 be assembled will be familiar to an economist with the indicated expertise. This individual will also be


     53 Price elasticity of demand calculations seek to estimate how much the price for a U.S. product
        might have to be decreased in order to maintain existing sales volumes in the face of the
        introduction of new supplies of the product in U.S. or international markets.
                                                                 66
                EVALUATION REPORT RELATING TO
                 ECONOMIC IMPACT PROCEDURES
                                                                                             OIG-EV-10-03

able to explain to the PPG staff and the Board assumptions and limitations underlying that data, whether
it is obtained by the PPG staff, is provided by a reviewing agency, or is submitted by a party opposing a
particular transaction.

It is suggested that the Bank hire or contract for the services of a degreed and experienced professional
economist to assist with the development of Bank policy relative to economic impact review, preparation of
economic impact reports, handling contested economic impact cases and related matters. The PPG staff has
questioned whether the volume of economic impact reviews would be adequate to justify a full-time Bank
employee given the substantial decrease in the volume of economic impact cases. There are other areas of
the Bank where this individual’s expertise could be found to be valuable. Among these would be assisting
the Trade Finance and Credit Underwriting Groups in analyzing economic forecasts and business plans that
provide data and make assumptions about international markets and helping the Bank develop improved
methods of gathering and analyzing information relating to the effectiveness of its programs and developing
improved policy choices based on that data. Seeking a contractor to provide this expertise on less than a full-
time basis would be another viable alternative.




Suggestions to Management

The Bank should increase the efficiency and responsiveness of the Bank’s Economic Impact Procedures by:

       D.1.	 Developing and making public a methodology to identify at an early stage transactions where
             there appears to be little risk of adverse economic impact in order to allow expedited handling
             of those cases.

       D.2.	 Requesting exporters of capital equipment to provide relevant data that is reasonably available
             to them, without undue burden, during the application process to support an accelerated
             review by the PPG staff.

       D.3.	 Inviting (but not requiring) proponents of transactions subject to formal economic impact
             review to submit white paper analyses addressing economic impact concerns that might be
             raised by the transaction.

       D.4.	 Providing earlier notice to Congress and the Reviewing Agencies of the initiation of a
             substantive economic impact review, after an initial screening review but before the PPG staff
             has prepared a complete economic impact report.

       D.5.	 Implementing a policy or reaching agreement with the Reviewing Agencies that would set a
             specified limited time period after they receive a draft economic impact report in which to
             submit their comments.

                                                      67
              EVALUATION REPORT RELATING TO
               ECONOMIC IMPACT PROCEDURES
OIG-EV-10-03

      D.6.	 Hiring, or contracting for the services of, a trained economist with a background in
            macroeconomic market analysis of the sort required by economic impact review to assist in
            implementing the improvements suggested in this Report.

      .




                                                    68
                EVALUATION REPORT RELATING TO
                 ECONOMIC IMPACT PROCEDURES
                                                                                             OIG-EV-10-03

             Appendix A - Statutory Provisions Relevant
                to Economic Impact Determinations

Export-Import Bank Act of 1945, as amended


Sec. 2(e) Limitation on assistance which adversely affect[s] the United States.


(1) In general. The Bank may not extend any direct credit or financial guarantee for establishing or
expanding production of any commodity for export by any country other than the United States, if –

        (A)	 the Bank determines that –
                (i) the commodity is likely to be in surplus on world markets at the time the resulting
                commodity will first be sold; or
                (ii) the resulting production capacity is expected to compete with United States production
                of the same, similar, or competing commodity; and

        (B) 	 the Bank determines that the extension of such credit or guarantee will cause substantial
              injury to United States producers of the same, similar, or competing commodity.


In making the determination under subparagraph (B), the Bank shall determine whether the facility that
would benefit from the extension of a credit or guarantee is reasonably likely to produce a commodity in
addition to, or other than, the commodity specified in the application and whether the production of the
additional commodity may cause substantial injury to United States producers of the same, or a similar or
competing, commodity.


(2) Outstanding Orders and Preliminary Injury Determinations.

        (A)	 Orders. The Bank shall not provide any loan or guarantee to an entity for the resulting
        production of substantially the same product that is the subject of—
                (i) a countervailing duty or antidumping order under title VII of the Tariff Act of 1930; or
                (ii) a determination under title II of the Trade Act of 1974.


        (B)	 Affirmative Determination. Within 60 days after the date of the enactment of this
        paragraph, the Bank shall establish procedures regarding loans or guarantees provided to any entity
        that is subject to a preliminary determination of a reasonable indication of material injury to an
        industry under title VII of the Tariff Act of 1930. The procedures shall help to ensure that these
                                                      A-1
                 EVALUATION REPORT RELATING TO
                  ECONOMIC IMPACT PROCEDURES
OIG-EV-10-03

        loans and guarantees are likely to not result in a significant increase in imports of substantially the
        same product covered by the preliminary determination and are likely to not have a significant
        adverse impact on the domestic industry. The Bank shall report to the Committee on Financial
        Services of the House of Representatives and the Committee on Banking, Housing, and Urban
        Affairs of the Senate on the implementation of these procedures.


        (C) Comment Period. The Bank shall establish procedures under which the Bank shall notify
        interested parties and provide a comment period of not less than 14 days (which, on request of
        any affected party, shall be extended to a period of not more than 30 days) with regard to loans or
        guarantees reviewed pursuant to subparagraph (B) or (D).


        (D) Consideration of Investigations under Title II of the Trade Act of 1974. In making any
        determination under paragraph (1) for a transaction involving more than $10,000,000, the Bank
        shall consider investigations under title II of the Trade Act of 1974 that have been initiated at the
        request of the President of the United States, the United States Trade Representative, the Committee
        on Finance of the Senate, or the Committee on Ways and Means of the House of Representatives, or
        by the International Trade Commission on its own motion.


        (E) Anti-Circumvention. The Bank shall not provide a loan or guarantee if the Bank determines
        that providing the loan or guarantee will facilitate circumvention of an order or determination
        referred to in subparagraph (A).


 (3) Exception. Paragraphs (1) and (2) shall not apply in any case where, in the judgment of the Board of
 Directors of the Bank, the short- and long-term benefits to industry and employment in the United States
 are likely to outweigh the short- and long-term injury to United States producers and employment of the
 same, similar, or competing commodity.


 (4) Definition. For purposes of paragraph (1)(B), the extension of any credit or guarantee by the Bank
 will cause substantial injury if the amount of the capacity for production established, or the amount of the
 increase in such capacity expanded, by such credit or guarantee equals or exceeds 1 percent of United States
 production.


 Sec. 2(e)(5) Designation of Sensitive Commercial Sectors and Products.- Not later than 120 days after the
 date of the enactment of this Act, the Bank shall submit a list to the Committee on Banking, Housing,
 and Urban Affairs of the Senate and the Committee on Financial Services of the House of Representatives,
 which designates sensitive commercial sectors and products with respect to which the provision of financing
 support by the Bank is deemed unlikely by the President of the Bank due to the significant potential for a
 determination that such financing support would result in an adverse economic impact on the United States.
 The President of the Bank shall review on an annual basis thereafter the list of sensitive commercial sectors

                                                         A-2
               EVALUATION REPORT RELATING TO
                ECONOMIC IMPACT PROCEDURES
                                                                                              OIG-EV-10-03

and products and the Bank shall submit an updated list to the Committee on Banking, Housing, and
Urban Affairs of the Senate and the Committee on Financial Services of the House of Representatives of
such sectors and products.



Sec. 2(e)(7) Procedures to Reduce Adverse Effects of Loans and Guarantees on Industries and Employment
in United States. –



       (A)	 Consideration of Economic Effects of Proposed Transactions - If, in making a determination
            under this paragraph with respect to a loan or guarantee, the Bank conducts a detailed
            economic impact analysis or similar study, the analysis or study, as the case may be, shall
            include consideration of--
               (i) the factors set forth in subparagraphs (A) and (B) of paragraph (1); and
               (ii) the views of the public and interested parties.


       (B)	    Notice and Comment Requirements
               (i) In General.- If, in making a determination under this subsection with respect to a loan or
               guarantee, the Bank intends to conduct a detailed economic impact analysis or similar study,
               the Bank shall publish in the Federal Register a notice of the intent, and provide a period of
               not less than 14 days (which, on request by any affected party, shall be extended to a period
               of not more than 30 days) for the submission to the Bank of comments on the economic
               effects of the provision of the loan or guarantee, including comments on the factors set forth
               in subparagraphs (A) and (B) of paragraph (1). In addition, the Bank shall seek comments
               on the economic effects from the Department of Commerce, the Office of Management
               and Budget, the Committee on Banking, Housing, and Urban Affairs of the Senate, and the
               Committee on Financial Services of the House of Representatives.


               (ii) Content of Notice.- The notice shall include appropriate, nonproprietary information
               about--
                       (I) the country to which the goods involved in the transaction will be shipped;
                       (II) the type of goods being exported;
                       (III) the amount of the loan or guarantee involved;
                       (IV) the goods that would be produced as a result of the provision of the loan or
                       guarantee;
                       (V) the amount of increased production that will result from the transaction;
                       (VI) the potential sales market for the resulting goods; and

                                                      A-3
              EVALUATION REPORT RELATING TO
               ECONOMIC IMPACT PROCEDURES
OIG-EV-10-03

                     (VII) the value of the transaction.


             (iii) Procedure Regarding Materially Changed Applications.-
                     (I)	    In General.- If a material change is made to an application for a loan or
                             guarantee from the Bank after a notice with respect to the intent described
                             in clause (i) is published under this subparagraph, the Bank shall publish
                             in the Federal Register a revised notice of the intent, and shall provide for a
                             comment period, as provided in clauses (i) and (ii).
                     (II) Material Change Defined.- As used in sub clause (I), the term `material change’,
                     with respect to an application, includes--
                             (aa) a change of at least 25 percent in the amount of a loan or guarantee
                             requested in the application; and
                             (bb) a change in the principal product to be produced as a result of any
                             transaction that would be facilitated by the provision of the loan or
                             guarantee.

      (C)	 Requirement to Address Views of Adversely Affected Persons - Before taking final action on
           an application for a loan or guarantee to which this section applies, the staff of the Bank shall
           provide in writing to the Board of Directors the views of any person who submitted comments
           pursuant to subparagraph (B).

      (D)	 Publication of Conclusions - Within 30 days after a party affected by a final decision of the
           Board of Directors with respect to a loan or guarantee makes a written request therefore, the
           Bank shall provide to the affected party a non-confidential summary of the facts found and
           conclusions reached in any detailed economic impact analysis or similar study conducted
           pursuant to subparagraph (B) with respect to the loan or guarantee, that were submitted to the
           Board of Directors.

      (E)	 Rule of Interpretation - This paragraph shall not be construed to make subchapter II of
           chapter 5 of title 5, United States Code, applicable to the Bank.

      (F)	 Regulations - The Bank shall implement such regulations and procedures as may be
           appropriate to carry out this paragraph.




                                                     A-4
            EVALUATION REPORT RELATING TO
             ECONOMIC IMPACT PROCEDURES
                                                                        OIG-EV-10-03

     Appendix B - Transactions Subject to a Detailed
        Economic Impact Analysis 2002 - 2009

      I. Transactions for which Ex-Im Bank’s Board rendered a decision (20)
            Status                   Country                      Project

Board Approved 4/14/2009             Germany                   Photovoltaics

Board Approved 1/24/2008              Spain              Steel Plate/Coil Production

Board Approved 9/12/2007           Saudi Arabia          Petrochemical Production

Board Approved 8/8/2007               China                Titanium Production

Board Approved 5/16/2007             Singapore            Semi-Conductor (Logic)

                                                          Polypropylene, Sulfur &
Board Approved 5/16/2007               India
                                                            Petcoke Production

Board Approved 8/22/2006              Japan                Titanium Production

                                                            Direct Reduced Iron
Board Denied 3/2006                Saudi Arabia
                                                            for Steel Production

Board Approved 9/8/2005               Turkey                 Denim Fabrication

Board Approved 7/14/2005              Qatar              Petrochemical Production

Board Approved 2/3/2005               Egypt                      Ammonia

Board Approved 2/3/2005                Israel                  Polypropylene

Board Approved 12/22/2004             Russia                    Polystyrene

Board Approved 11/12/2004            Singapore               Semi-Conductors

2-2 vote by Board 5/24/2004
                                     Ukraine                Steel Service Center
(effective denial)

Board Approved 3/26/2004             Argentina             Gold & Silver Mining


                                       B-1
               EVALUATION REPORT RELATING TO
                ECONOMIC IMPACT PROCEDURES
OIG-EV-10-03

         I. Transactions for which Ex-Im Bank’s Board rendered a decision (20)
               Status                   Country                     Project

   Board Approved 6/5/2003               India               Pure Terephthalic Acid

   Board Approved 4/3/2003               Russia                Metallurgical Coal

   Board Approved 1/30/2003            Uzbekistan                 Gold Mine

   Board Approved 10/25/2002             China              Petrochemical Production




 		


  II. Transactions for which Staff completed a detailed Economic Impact Analysis
                that was not put before the Board for a Decision (5)
              Status                   Country                      Project

    Withdrawn for credit reasons
                                      Hong Kong                   Auto Molds
            6/3/2008

    Withdrawn for credit reasons
                                        Russia                 DRI Production
            7/18/2007

    Withdrawn for credit reasons
                                       Portugal              Photovoltaic Modules
           3/20/2006

    Withdrawn for credit reasons
                                        Greece               Photovoltaic Modules
            8/3/2005

    Withdrawn for credit reasons
                                        Mexico                     Flat Glass
            11/2/2004




                                           B-2
                EVALUATION REPORT RELATING TO
                 ECONOMIC IMPACT PROCEDURES
                                                                                             OIG-EV-10-03

          Appendix C - Legislative History of Economic
              Impact at Ex-Im Bank 1968 to 1988


1968 – Economic Impact Appears on the Legislative Agenda

The subject of potential adverse economic impact of Ex-Im Bank on the U.S. economy has been referenced
in the Bank’s Charter since 1968, when Section 1 was amended to include a provision requiring the Board
of Directors when authorizing loans to take into account the possible adverse effects upon the economy of
the United States. [Pub.L. 90-267]




1975 – Pro-Economic Impact and Anti-Economic Impact Perspectives Emerge

In 1975, Congress addressed the issue of economic impact more directly by enacting the following provision:

       Section 2(B)(1) of the Export-Impact Bank Act of 1945 is amended to read as follows: (B) It is
       further the policy of the United States that . . . in authorizing any loan or guarantee, the Board
       of Directors shall take into account any serious adverse effect of such loan or guarantee on the
       competitive position of United States industry, the availability of materials which are in short supply
       in the United States, and Employment in the United States. [Pub.L. 93-64]

This provision represented an early compromise between the “Pro-Economic Impact” perspective that any
adverse effect on U.S. industry should be enough to prevent Ex-Im Bank support and the “Anti-Economic
Impact” recognition of the practical difficulty of determining whether a given transaction will have a net
negative effect on the U.S. economy:

The Senate amendment contained a provision specifying that the Board of Directors of the Bank should not
authorize loans, guarantees, or insurance which may have serious adverse effects on the competitive position
of United States industries, the availability of materials which are in short supply in the United States,
or employment in the United States. The House bill contained no comparable provision. The conferees
accepted an amendment which specified that the Board of Directors, in authorizing loans or guarantees,
shall take into account any serious adverse effects on the competitive position of United States industry,
the availability of materials which are in short supply in the United States, and employment in the United
States. [H.R. Conf. Rep. 93-1633, 93th Cong., 2nd Sess. 1974]




                                                     C-1
                 EVALUATION REPORT RELATING TO
                  ECONOMIC IMPACT PROCEDURES
OIG-EV-10-03

 1978 – Continued Congressional Interest Produces Modest Tweaking, Limited Effect

 Section 2(B)(1) continues to exist in the Bank’s Charter, slightly modified in 1978 to reflect a stronger Anti-
 Economic Impact viewpoint through the addition of the final clause:

         Sec. 2(b)(1)(B). It is also the policy of the United States that . . . in authorizing any loan or
         guarantee, the Board of Directors shall take into account any serious adverse effect of such loan
         or guarantee on the competitive position of United States industry, the availability of materials
         which are in short supply in the United States, and employment in the United States, and shall
         give particular emphasis to the objective of strengthening the competitive position of United States
         exporters and thereby of expanding total United States exports. [Pub.L. 95-630]

 In 1978, Congress also appended to the Bank’s Charter a policy statement that the Bank should implement
 regulations and procedures to address the possibility of adverse economic impact from Ex-Im Bank
 supported transactions:

         12 U.S.C. 635a-2 Implementation of regulations and procedures to lessen adverse effect of loans and
         guarantees on industries in United States; report by United States International Trade Commission.
         The Bank shall implement such regulations and procedures as may be appropriate to insure that
         full consideration is given to the extent to which any loan or financial guarantee is likely to have an
         adverse effect on industries, including agriculture, and employment in the United States, either by
         reducing demand for goods produced in the United States or by increasing imports to the United
         States. To carry out the purposes of this subsection, the Bank shall request, and the United States
         International Trade Commission shall furnish, a report assessing the impact of the Bank’s activities
         on industries and employment in the United States. Such report shall include an assessment of
         previous loans or financial guarantees and shall provide recommendations concerning general areas
         which may adversely affect domestic industries, including agriculture, and employment. [Pub.L. 95-
         630]

 The PPG staff reports that discussions were held with the International Trade Commission (“ITC”) relative
 to preparing the report contemplated by this provision, but no report was ever produced. The cited causes
 were the lack of staff time for a large special project, the absence of funding and the shared perception that
 the ITC’s perspective and expertise, being focused on enforcement of international trade agreements, were
 not well suited to undertaking the sort of analysis the provision contemplated.




 1986 – Intense Focus on Economic Impact Produces a Compromise

 1986 represented the next occasion on which the subject of economic impact received focused attention from
 Congress, a high-water mark not reached again until 2006. By 1986, a number of key members of Congress
 had become strongly dissatisfied with some of the transactions supported by the Bank that resulted in export
                                                         C-2
                EVALUATION REPORT RELATING TO
                 ECONOMIC IMPACT PROCEDURES
                                                                                              OIG-EV-10-03

financing being provided to foreign producers of Exportable Goods that, when imported to the U.S., were
contributing to severe economic dislocations in certain industries. The explanations provided by the Bank
as to the basis for approving these transactions appears to have been unsatisfactory with respect to the extent
to which the Bank’s staff and Board had considered economic impact issues as contemplated by the Bank’s
Charter as it then existed, producing the responses described below.

The result of this active engagement with economic impact in both houses was the adoption of the
compromise reflected in Section 2(e) of the Charter. The record of the debates in both houses of Congress
illuminates many of the issues that are discussed in the Report to which this account is appended,
particularly the Pro-Economic Impact and Anti-Economic Impact perspectives and the inherent difficulties
in resolving them.

The debate in the House centered around the efforts of Representative Rahall of West Virginia to introduce
strongly Pro-Economic Impact amendments to the Bank’s Charter that would effectively prohibit support
for certain classes of transactions. The final version of his proposed amendment was stated [Congressional
Record - House of Representatives, Proceedings and Debates of the 99th Congress, Second Session Tuesday,
July 15, 1986]:

       Section 2(b) of the Export-Import Bank Act of 1945 is amended by adding at the end thereof the
       following new paragraph:

               (11) LIMITATION ON ASSISTANCE WHICH WOULD ADVERSELY AFFECT THE
               DOMESTIC ECONOMY

                       (A) IN GENERAL.-The Bank may extend no direct credit or financial guarantee in
                       support of any export to any foreign entity if-

                               (i) the export will be used or is intended for use in the production or
                               manufacture of any commodity, mineral, material, or product which is
                               produced or manufactured in substantial quantities in the United States; and

                                (ii) the production or manufacture of such commodity, mineral, material, or
                                product by such foreign entity will result in-

                                        (I) the importation of more than an inconsequential quantity of such
                                        commodity, mineral, material, or product into the United States; and

                                        (II) a net domestic increase in unemployment in the United States
                                        over the period during which any portion of the amount of such
                                        credit or guarantee is outstanding.



                                                     C-3
                 EVALUATION REPORT RELATING TO
                  ECONOMIC IMPACT PROCEDURES
OIG-EV-10-03

                        (B) EXCEPTIONS.-Subparagraph (A) shall not apply with respect to any extension
                        of credit or a financial guarantee which the Bank determines is-

                                (i) in the strategic interest of the United States; or

                                (ii) necessary to counter any unfair trade practice or unfair and predacious
                                export financing practice of a foreign country.

 Representative Neal of North Carolina objected to the potential negative impact of Mr. Rahall’s amendment
 on Ex-Im Bank support for U.S. exporters on the fundamental Anti-Economic Impact premise that in most
 cases, prohibiting Ex-Im Bank support for U.S. exports will damage U.S. producers of the goods proposed
 to be exported, while producing no assurance of any corresponding benefit to U.S. producers of resulting
 exportable good. The adverse effect of new foreign production would still hit U.S. industry and employment
 because the foreign production would be supplied and financed by other nations. Representative Neal
 offered an amendment to the Rahall amendment that would allow Ex-Im Bank support for a transaction
 to proceed, despite the determination of adverse impact on U.S. industry or employment, if the Bank
 determined that the new foreign production of Exportable Goods would be created by other means so that
 U.S. producers would still end up facing new foreign competition:

        or (iii) for the financing of American exports to any foreign entity which would in the absence of
        such financing nevertheless produce or manufacture such commodity, mineral, material, or product.

 Mr. Rahall immediately recognized the extent to which Mr. Neal’s amendment would undercut the
 intended effect of his proposal, and very expressly affirmed his intention that the Bank should not support
 transactions that would contribute to a negative impact on U.S. producers, even if some other nation did
 finance the project so that the foreign production would affect the U.S. economy nonetheless:

        Mr. RAHALL. [Congressional Record - House of Representatives, Proceedings and Debates of the
        99th Congress, Second Session Tuesday, July 15, 1986] Mr. Chairman, I appreciate the effort of
        the subcommittee chairman to modify my amendment with his, adding a third exception. I must
        say, though, that that is a loophole through which there would be many financing projects that
        would be allowed to proceed which I am trying to stop which would have a net adverse impact upon
        employment in the United States.

        The gentleman is making an exception, as I understand the amendment, for those projects that
        could go elsewhere and obtain the money and would proceed anyway, whether they had Eximbank
        financing or not.

        Mr. NEAL. Exactly.




                                                         C-4
        EVALUATION REPORT RELATING TO
         ECONOMIC IMPACT PROCEDURES
                                                                                    OIG-EV-10-03

Mr. RAHALL. Now I say to the gentleman that that is going to happen. There are plenty of other
countries that would be willing to finance that project, so it does not make any sense in my opinion
to still allow that to happen. If Japan or some other country wants to finance unemployment within
their boundaries, then I say let them do it, but let us not have the American Government, the U.S.
Government, continue to use American taxpayer dollars to finance foreign projects that then put our
workers out of jobs. Let them go elsewhere.

Mr. Chairman, I would therefore respectfully have to oppose the gentleman’s amendment to my
amendment, if I understand that that is the way that he is offering it.

....

Mr. RAHALL. Mr. Chairman, let me say in further response to the gentleman from North
Carolina, the subcommittee chairman, that I have narrowed this amendment down from its original
introduction, as we have discussed on a number of occasions.

This amendment is very specific in its intent, and that is to prevent the American taxpayer dollars
from financing foreign projects that manufacture commodities or materials that then are imported
into the United States when the United States is producing or is capable of producing those products
in substantial quantities to be able to rely upon our own resources. That is the intent of the
amendment, and I would say that any other modification of it any further than what I have already
done would really be a killer amendment, and I do not feel that it would carry out the intent of the
sponsors of the amendment.

It should be noted that the meaning of the term ”foreign entity” in the amendment is to be
construed in its broadest sense and includes all direct and indirect foreign entities proposing the
Eximbank assistance such as foreign governmental entity as well as any subsequent foreign entity
such as a company on whose behalf the assistance is being proposed. The phrase “commodity,
mineral, material or product” should also be broadly construed and covers all produced or
manufactured items with the exception of services. The use of the term “substantial quantities” is
meant to allow assistance to foreign projects which would lead to exports to the United States of
items not domestically produced or manufactured, such as certain strategic and critical minerals, or
are produced domestically but in quantities not adequate to fully meet the defense, industrial and
commercial needs of the Nation.

In addition, the import sensitivity of a domestic industry would not be a consideration. The
key criteria is that imports of more than an inconsequential quantity would be fostered by the
development of the foreign project and these imports calculated over the time during which the
Eximbank assistance would be outstanding would lead to a net domestic employment loss.




                                            C-5
                EVALUATION REPORT RELATING TO
                 ECONOMIC IMPACT PROCEDURES
OIG-EV-10-03

        By the term “inconsequential quantity” I am seeking to allay concerns that, say 1 ton of steel which
        may be exported to the United States would cause the Eximbank to make a determination under this
        amendment. However, it is intended for this term to represent a very strictly construed minimum.
        For example, the El Cerrejon project, if considered under this standard, would have been disqualified
        from receiving Eximbank support. The use of the term “inconsequential quantity” shall not in
        circumvention of the intent behind the general thrust of the amendment.

 ....

 Representative Craig then rose in support of the Rahall Amendment, and proceeded to identify the sorts
 of U.S. industries that had in the recent past experienced substantial injury resulting from new foreign
 production of Exportable Goods that were the intended beneficiaries of the provision:

        Mr. CRAIG. . . The opponents of the Rahall amendment will argue, the amendment smacks of
        protectionism. The amendment will hurt U.S. producers and manufacturers.

        Our domestic producers are already being hurt. Foreign imports have derailed and curtailed a major
        portion of our mineral domestic production industry already. The copper industry has suffered
        through one of its worst downturns in years. One of the reasons for this downturn can be attributed
        to the export-import bank (Eximbank) lending practices.

        Since 1980, the Bank has granted $279.9 million in assistance for copper-related projects. The
        draglines and smelters are running night and day in countries like Peru, Chile, and Mexico. While,
        the U.S. copper mines and smelters are being closed and people remain unemployed.

        I realize the primary objective of the Eximbank is to assist in the financing of exports and imports
        of the United States. But one thing the bank is required to do, is to take into consideration any
        potential serious adverse effects of a loan or guarantee on U.S. employment as well as on the
        competitive position of the affected U.S. industry. In my opinion, the Bank has failed to do so.

        Copper isn’t the only example of where Eximbank loans have hurt a U.S. industry. The phosphate
        industry has been significantly impacted from loans that have been made to Morocco and Tunisia.
        The Eximbank lent Morocco and Tunisia moneys exceeding $200 million, during the 1979 through
        1985 period. The phosphate industry has resultantly lost a share of the foreign export market that
        almost equals the amount of loan guarantees given to Morocco and Tunisia. In 1984, the phosphate
        industry lost $200 million and consequently, $450 million was lost in wages paid because of the loss
        of jobs in the phosphate industry.

        Not all of the losses of the phosphate industry can be attributed to the Eximbank loans to Morocco
        and Tunisia, but the figures are suspiciously very close to the injury that has occurred within the
        phosphate industry. . . .


                                                       C-6
               EVALUATION REPORT RELATING TO
                ECONOMIC IMPACT PROCEDURES
                                                                                           OIG-EV-10-03

       This is why the Rahall amendment is needed. The Eximbank is only one part of the international
       lending community, but nevertheless, it plays an important role. We cannot simply sit back while
       we lose our domestic production capacity and do nothing. The amendment is a first step. As I
       alluded to earlier, the amendment needs to be applied to other international financing communities.
       At a time when our domestic industry is suffering from unfair trade practices, the international
       financial community fails to recognize the detrimental economic impact of their actions on our
       country.

       The amendment is very straightforward. It is saying, the Eximbank will not make loans or loan
       guarantees to countries that produce or manufacture a product or a commodity that is readily
       available in the United States. The United States should not be advocating the lending of money
       to foreign countries that will develop projects and cause the loss of jobs and domestic production.
       We cannot support lending practices that penalize our domestic producers and reward our foreign
       competitors.

       I do urge my colleagues to stand in strong support of the Rahall amendment today. It is a small step
       in the right direction, but in my opinion, Mr. Chairman, it is a necessary step.

....

Mr. Neal then offered specific examples of the issues presented by the Rahall Amendment in defense of his
proposed amendment:

       Mr. NEAL. Mr. Chairman, I understand the purpose of the amendment of the gentleman from
       West Virginia. He wants to protect his coal producers from foreign competition. That would be
       find and good-but only if American producers are actually protected. In most cases however the
       gentleman’s amendment would backfire. In practice it would destroy American jobs, not protect
       them.

       American exporters are almost never the only ones competing to help build or develop a foreign
       project. International competition to win export contracts for these projects is intense. If American
       exporters don’t win the contracts, I can assure you that our main competitors will. The Japanese,
       the French, the Germans-they will all be in there bidding for the sale, and will have generous
       support from their own export financing agencies. The minerals, commodities, or products will still
       be produced, but with the aid of exports from other countries, not with American exports.

       What will we have gained? Not a single American job will be protected. But countless American
       jobs will be lost, since American exporters will be abandoned, the exports they might have won with
       proper financing will be forfeited.




                                                    C-7
                EVALUATION REPORT RELATING TO
                 ECONOMIC IMPACT PROCEDURES
OIG-EV-10-03

        I understand the gentleman has been very concerned about a large coal project developed in
        Colombia, in part with Eximbank financing. The Colombian entity developing this project,
        Carbocol, was not dependent on American goods or services. It received financial commitments
        from the export credit agencies of Canada, Japan, Britain, France, Germany, Holland, Belgium,
        Brazil, and Sweden. In fact, three of these countries-Canada, Japan, and Britain-all won a share of
        the project, and financed their sales at rates lower than Exim financing for the American share. It
        should be perfectly obvious that, if the amendment by the gentleman from West Virginia had cut
        off any U.S. sales to Carbocol, the project would have nonetheless gone ahead full steam, producing
        the same amount of coal. Not a single coal miner’s job would be protected. But countless American
        export jobs would have been lost.

        I have a list of the U.S. export sales, State by State, that have gone to this Carbocol project, through
        the end of 1985. It is too long to read in full, but I will give some examples: California, $61
        million; Florida, $45 million; Illinois, $29 million; Louisiana, $19 million; Massachusetts, $19
        million; Michigan, $6 million; New Jersey, $11 million; New York, $38 million; Ohio, $26 million;
        Pennsylvania, $21 million; Texas, $43 million; Wisconsin, $25 million. In all there are 48 States on
        this list, with total export sales of about $378 million. The amendment of the gentleman from West
        Virginia is designed to block all these exports. And for what purpose? Not a single coal mining
        job-I repeat, not a single coal mining job-would have been protected.

        This coal project is only one of many cases in which the gentleman’s amendment would effectively
        block American exports, and thereby destroy American jobs. It is true that his amendment is
        cast in terms of the net impact of the foreign project on American jobs. It does, therefore, take
        into account the jobs created by American exports, and compare them with the jobs supposedly
        threatened by imports. This is certainly an improvement over an earlier version of the amendment,
        which ignored entirely the positive impact of exports on employment. The amendment is still
        fatally flawed, however, since it ignores those cases in which the imports will occur anyway, with or
        without Eximbank financing. If the imports will occur anyway, because the foreign project is going
        to be developed with or without Eximbank financing, then the only impact of Eximbank financing
        will be to create jobs, through exports. Some jobs might be lost through imports, but, since they
        would be lost anyway, with or without Exmibank financing, it makes no sense to include them in
        any calculation of the net impact of that financing on emploMy amendment to the amendment of
        the gentleman from West Virginia simply stipulates that his prohibition on Eximbank financing
        not apply if the foreign project would be developed anyway, with or without Eximbank financing.
        It would prevent us from shooting ourselves in the foot by sacrificing exports in cases where that
        sacrifice will do nothing to protect American workers threatened by imports. Otherwise, we might
        as well close down the Export-Import Bank, and abandon the field to our competitors.

 ....

 Representatives Leach and Frenzel followed these remarks by emphasizing additional problems that would
 result from the Rahall Amendment:

                                                        C-8
        EVALUATION REPORT RELATING TO
         ECONOMIC IMPACT PROCEDURES
                                                                                     OIG-EV-10-03

Mr. LEACH of Iowa. Mr. Chairman, I rise to support the gentleman from North Carolina <Mr.
NEAL> and I would only stress that I think the concerns that Mr. RAHALL and Mr. CRAIG have
indicated are very real, very valid, very heart-wrenching; but the consequences of this amendment
are devastating.

They represent a head-in-the-sand approach to international trade, and what they say is, because
some American industry is hurt, let us hurt other parts of American society. We are going to
devastate labor-intensive America by adoption of this amendment. Major losers, just by way of
industry in this country, will be workers in industries producing goods or services that are produced
in other countries that want to compete with the United States.

. . . . Mr. Chairman, these industries include those that make trucks, earthmoving equipment,
tractors, diggers, machine tools, computers, robotics, control instruments, construction bulk
equipment; valves, cable, pipe, wire production, welding machines, cranes, drag lines, design and
engineering services, turbines, generators, canning and bottling equipment.

Anyone who makes any of that will be devastated by this particular amendment; and as competition
in world trade grows, we are going to see even more negative effects as the years go by. I represent,
in my district, a company called Caterpillar, a company that used to be America’s largest exporting
company.

Caterpillar estimates that in the last 15 months alone, if this amendment has been on the books,
they would have lost $125 million in sales. Thousands of jobs would be lost.

What this amendment does; it is what might be considered the “Japanese bonanza amendment of
1986.” This supports Japanese industry, it supports German industry, it supports Belgian industry-
and the intent of this bill is to support American industry and American jobs.

So I certainly hope that the refinement of the Rahall amendment offered by the gentleman from
North Carolina <Mr. NEAL> is adopted, and with that, let me also express my own concern that
the views that Mr. RAHALL has expressed are views that must be borne in mind by this body as we
develop legislation of this nature; but let us not be so concerned that we do something that ends up
being counterproductive and irrational; let us get about the business of dealing with Mr. RAHALL’s
concerns in the proper format, not in this particular legislation where I think his own industries will
be negatively, not positively impacted.

....

Mr. FRENZEL. . . . However, there is only one thing standing between this splendid bill and
House passage, and that is the Rahall amendment, which in effect tries to prohibit any adverse
impact and in fact, in my judgment, gums up all Exim decision-making for the future.


                                             C-9
              EVALUATION REPORT RELATING TO
               ECONOMIC IMPACT PROCEDURES
OIG-EV-10-03

      The Neal amendment would, I think, rescue us from the worst effects of the Rahall amendment but
      in my judgment, the law should remain as it is.

      The situation is that as of now we have three statutory provisions that require Exim to take into
      account serious effects of the U.S. economy. As has been pointed out more than once here today,
      most cases the project is going to go forward anyway. The Neal amendment at least takes that basic
      fact into account. The Rahall amendment does not.

      I believe because it does not, the Rahall amendment would wreak greater havoc on Exim’s programs
      and greater havoc on American exports than any of the budget cuts that have yet been suggested for
      Exim.

      The Rahall amendment says in effect, “Never mind if the project goes through; never mind if the
      effect on us is exactly the same: As long as we’re going to suffer, let’s make some other U.S. industries
      suffer with us.”

      It says that, “As long as my favorite industry, in this case coal, is going to be hurt, let’s hurt somebody
      else as well.” It is a sort of a pull-up-the-gangplank-I’m-on-board sort of amendment, which then
      finds out “never mind if it isn’t even on board, let’s all drown together.”

      That does not make any sense, Mr. Chairman. The Neal amendment at least says, if we are going
      to have some kind of an impact in any case, let us make sure we get some American jobs involved. I
      think the committee has been very careful to try to defend these American export jobs.

      What I think is at the heart of the whole problem is that many of us still look on Exim as some
      form of foreign aid, and that we can express our displeasure about foreign actions or projects or even
      politics by voting against Exim or voting to condition Exim operations.

      Actually, Exim is American aid. It is designed to sell American products made by American labor
      and sold by American people abroad. For us to try to limit Exim by the adoption of the Rahall
      amendment, in my judgment would be one of the most serious mistakes we could make.

      To do it at a time we are suffering a $150 billion trade deficit would be, I think, compounding a
      folly.

      So I would urge the Members of this body, if they believe that American jobs are worthwhile, to
      support the Neal amendment to the Rahall amendment and at least preserve some sense in our
      export program.




                                                      C-10
               EVALUATION REPORT RELATING TO
                ECONOMIC IMPACT PROCEDURES
                                                                                              OIG-EV-10-03

After these remarks, Representatives Levin and Chandler took up the arguments on each side of the issue:

       Mr. LEVIN: . . . Mr. Chairman, there has been a lot of emotion expressed here, and I think there
       should be. I think it is somewhat misplaced. Let me, if I might, put it in a context that I think
       is relevant. Our main emotion should be about what is happening to industrial America. A lot is
       happening throughout this country. It is not only coal. There is very little coal in Michigan. It is
       not only steel, it is not only automobiles, it is not only textiles; it is across America.

       I looked again at the figures for the last few months, and I think there is a kind of, if not euphoria,
       a complacency that is spreading through parts of America because the stock market, at least until a
       few days ago, was up.

       Industrial jobs are down. In March the number of industrial jobs lost 39,000. Then in April down
       to 10,000. I think many people felt we were turning that corner.

       But in May 45,000 and in June 56,000 jobs lost, manufacturing jobs lost. That is where the emotion
       should be placed.

       What is a problem is that we have no policy. America has no policy, no industrial policy. America’s
       industry is being nibbled to death and we are nibbling each other to death.

       One area has a temporary opportunity to gain some more jobs, so they take it even though it is
       going to do in other areas. Suppliers from other countries are now coming in here and they are
       gaining bonanzas to come here even though they are going to eliminate jobs of American producers.
       That is the crux of the problem here. It is not just a blind gesture to get at coal. I do not think that
       is Mr. RAHALL’s purpose, at least alone, to get at coal. We ought to take it much more seriously
       than that.

       Now here is the nub of the problem: A proposal comes before Eximbank, I am a supporter of
       Eximbank, and I am worried about Third World countries, as the gentlemen know, as former
       Assistant Administrator of AID; but here is the problem: When an applicant comes before
       Eximbank, and Eximbank is supposed to make an impact study, and let us say that Eximbank
       makes that impact study and determines that if that job proceeds, if that project overseas proceeds,
       there is going to be a net loss of American jobs. That is what this amendment, as it has been
       redrafted-far different than its original language-that is what it suggests, what it is based on, a net
       loss of American jobs.

       Are we going to use American taxpayer dollars to support an application for participation in a
       project after Eximbank determines that there is going to be a net loss of American jobs? Now that
       is not an easy decision to make because there are some jobs involved, there are some jobs involved in
       the applicant.


                                                     C-11
              EVALUATION REPORT RELATING TO
               ECONOMIC IMPACT PROCEDURES
OIG-EV-10-03

      Now, it may be trucks for steel plants overseas, or it may be railroad equipment for a copper project
      overseas, or I suppose it could be some bearings or whatever it is for a large auto plant overseas. But
      this amendment talks about a net loss.

      Mr. NEAL. . . . Mr. Chairman, here is the difficulty I see in the gentleman’s view of this: if a
      project is going to be built, whether it is coal, copper, steel, cars, you name it, and the import is
      coming into this country anyway, how can you factor in those jobs that import into any kind of
      equation? It is happening anyway, whether Eximbank is involved or not. There is no way to make
      that kind of assessment that the gentleman is talking about, net job loss.

      ....

      Does the gentleman see the point? There is no reason in the world for factoring those jobs into any
      kind of equation. That is happening anyway. If you want to stop that, you have got to stop it some
      other way. You have got to stop it by some protectionist legislation somewhere that will simply keep
      those products out of our country.

      The Eximbank does not do that. My point is that every single job that Eximbank finances is a
      net plus. There is nothing on the other side of the equation. There is no net loss because of Exim
      financing. These 21,000 man-years of employment that went into building this coal project in
      Colombia, those are the net gains, every single job is a net gain for this country.

      If some of that coal comes back in here, whether Eximbank had anything to do with it or not, it
      comes in. That is the point.

      Mr. LEVIN of Michigan. The gentleman has made the point well, and I believe it needs a response.
      And I think the response is twofold or threefold.

      First of all, we have provisions in the law today requiring Eximbank to make an impact study. Those
      provisions do not have the condition that you want to attach to this bill or this amendment.

      What this amendment tries to tell Eximbank, and it is not in the most artful way, it is hard to
      get at larger industrial policy issues in a specific piece of legislation, but it is an honest attempt.
      What it says to Eximbank is, “Look at the impact on net employment in this country. And if net
      employment is going to be negative, then do not provide the loan.”

      Now, there are three other provisions in the law. It has been referred to here.




                                                      C-12
        EVALUATION REPORT RELATING TO
         ECONOMIC IMPACT PROCEDURES
                                                                                        OIG-EV-10-03

The gentleman used it as an argument against the Rahall amendment. But then I have to point
out that the condition that the gentleman from North Carolina would provide does not apply to
these other three provisions, and they should not. And I will tell you why: because we need in this
country to begin to look at the overall impact of our policies. We need in this country not to be
piecemealing ourselves to industrial death. That is the long and short of it, it seems to me. The
same argument can be used, for example, in arms sales. We hear it: ”Well, somebody else is going to
provide those arms, so vote for it anyway because the only impact if you vote against American arms
sales is the loss of American jobs.” And most of us do not buy that argument. Why do we not buy
it? We do not buy that because we think there is a need for an overall American policy regarding
that arms sale.

....

We also do not buy it when it comes to issues of economic sanctions. Somebody else may supply the
goods, but we do not want American tax dollars participating in that particular project if there is a
question of economic sanctions.

The same thing is true here, it seems to me. We need to ask ourselves: What are we going to do
about the loss of American industrial jobs? Are we going to ask the Eximbank more effectively to
take into account employment, net employment factors? I think they should. It is interesting, the
Chamber of Commerce indicates that using the three provisions already in the law, since 1981 the
Bank has used this authority to deny support on proposed exports valued at $385 million. That is
using the three provisions already in law.

If Mr. Neal’s amendment were adopted and applied as to those three other provisions, those $385
million would have proceeded.

....

But Eximbank documents indicate that virtually all of their loans are in situations where there is
competition. So, look, you have to face the basic issue, whether without an industrial policy you
want Eximbank to proceed taking into less account than they should the issues of net employment
impact in America. I think the time has come to say clearly, “We need to look at net employment
in industrial and in the rest of America.” This is an effort to do that. It is not a perfect way. It is
much more perfect than it was as originally introduced, but it clearly is one way. Eximbank has
indicated to us they could carry it out, they do not want to but it is a practical factor to look at net
employment.




                                              C-13
              EVALUATION REPORT RELATING TO
               ECONOMIC IMPACT PROCEDURES
OIG-EV-10-03

      If you want to go back into your districts, in the absence of a steel policy in this country and say
      that you support loans in situations where there is going to be a net employment loss in America, go
      ahead and do it. But what I want to do is go back to my district and to the rest of the country and
      say that we in this Congress are trying at long last to force the adoption in this country of some kind
      of overall industrial policy, not central planning by any means but some overall industrial policy so
      we make sense of everything including Eximbank.

      Mr. CHANDLER. . . . . Mr. Chairman, the gentleman from Michigan, a good friend of mine,
      serving on the committee who does an outstanding job, said a moment ago something I very much
      agree with even though I disagree with his fundamental stand. He said we should not piecemeal
      ourselves into industrial bankruptcy. If we need an industrial policy for the United States, and I am
      not sure that we do, you certainly do not find it in this amendment. If ever I saw piecemealing, this
      is it, piecemealing at its worst.

      He said this is not the most artful way of getting at what he wants. If that is not an understatement,
      I do not know what is.

      We are going to cause the Bank to determine whether to grant a loan based on two of the broadest
      directions I can imagine. They are going to have to determine whether the loan will result in the
      importation of more than an inconsequential quantity, stating it in the negative, and also a net
      domestic increase in unemployment in the United States. I just have to ask you: How on Earth are
      you ever going to determine that? And that is going to be determined over the life of the loan.

      Then he asked what is happening in America? Well, I think we are finding ourselves faced with
      some pretty fierce competition in the rest of the world, that is what is happening in America. And to
      quote one of today’s great orators, “Dandy Don” Meredith, he says:” If ‘ifs’ and ‘buts’ were candy and
      nuts, what a wonderful world it would be.” I think we ought to entitle this the “Candy and Nuts”
      amendment because what you are suggesting is: Let us ignore the fact that labor costs in the rest of
      the world are less than here; let us ignore the fact that many countries around the rest of the world
      are manufacturing products in competition with us in plants that are new and modern while many
      of ours are dilapidated. They are doing that because they have savings rates of 20 percent-plus while
      ours is down around 5, and they have the money to recapitalize and we do not.

      Out home right now our workers in the timber products industry are on strike against the
      Weyerhaeuser Co. I suspect that this is one isolated example of a great overall realignment of what is
      going on in industrial America.

      I do not like it any better than you. I represent many of those people whose homes are being lost
      and who are facing real tragedy in their lives. But, darn it, let us not kid them by coming in here
      and saying we have an answer in something like this, when all this is going to do is turn around and
      put their brethren at Pac Car over in the gentleman from Washington’s Seventh District out of work.
      That is all this is going to accomplish.

                                                     C-14
                EVALUATION REPORT RELATING TO
                 ECONOMIC IMPACT PROCEDURES
                                                                                               OIG-EV-10-03

....

Mr. Rahall continued to rise to respond to the opponents of his amendment to emphasize his view, and
that of his supporters, that it was simply wrong for the U.S. government to support new foreign exports that
would inflict substantial injury on U.S. industries, even if the U.S. gained in exports and employment in
other sectors:

       Mr. RAHALL. . . . The basic question is, “What should U.S. policy be?” There comes a time, in
       my opinion, when the U.S. Government and the U.S. taxpayer says enough is enough, that enough
       of our tax dollars, through U.S entities, are going to finance foreign products that come into the
       borders of the United States, thereby putting out of work our domestic workers.

       That is what has happened through the financing mechanisms of the Export-Import Bank in the
       past.

       This amendment, narrow enough in scope, gives the feeling of the American people that enough
       is enough of American taxpayer dollars going to finance jobs outside this country and causing
       unemployment in this country.

During the debate, it was noted that the Bank’s Charter already required that the Board consider economic
impact issues. Mr. Rahall expressed his frustration that it appeared that the Bank and its Board were not in
fact considering economic impact issues in making their decisions.

       Mr. ROEMER. Mr. Chairman, if we read the charter of the Eximbank, it says that the board
       of directors shall take into account any serious adverse effect of such loan or guarantee on the
       competitive position of U.S. industry and employment in the United States. As I understand the
       Rahall amendment, what the gentleman is trying to do in this amendment is to make sure that in
       the recapturing there be a requirement that if we use the taxpayers’ money to extend credit, we do it
       in such a way that we not lose on a net basis American jobs. Am I right in my understanding?

        Mr. RAHALL. The gentleman is correct, but that study is not being implemented today. It is not
        being done. What is on the books not being done by the Export-Import Bank when they make
        these loans, such as the case in Columbia, there was no examination of what the long-term adverse
        impact on United States jobs would be over the life of that loan that was granted by the Export-
        Import Bank.

The practical impossibility of the task that the Rahall amendment would require of the Bank’s Board, and
the limits of its effectiveness were also noted in the debate. The severe conditions affecting basic extractive
industries in the states that sought to benefit from the Rahall Amendment were reiterated, as was the
countervailing view of the damage the Rahall Amendment would do to manufacturers in other states, and
the interstate conflict the whole discussion revealed.


                                                      C-15
              EVALUATION REPORT RELATING TO
               ECONOMIC IMPACT PROCEDURES
OIG-EV-10-03

      Mr. KLECZKA. . . . Mr. Chairman, a lot has been said this afternoon relative to the Rahall
      amendment. Coming from the Midwest where we are producers of machines and machine tools, I
      see this amendment as totally devastating.

      The gentleman from Wyoming indicated that copper and coal are in trouble. Well, I say that if we
      look at other areas of our economy, they are in trouble also.

      The problem with Rahall is that we are going to make it much worse for those other industries. If I
      can give an example, and a very crude one at best of Rahall in operation, let us say that Bucyrus Erie
      in South Milwaukee, WI, was selling a dragline, a large shovel, to a country, Colombia or Jordan,
      and let us say that after Eximbank looked at it, they indicated that the Baker-Western Corp., which
      owns Bucyrus Erie, will gain 50 jobs over the life of the contract; however, and I do not know how
      they are going to ascertain this, but however Eximbank looks at Rahall and indicates that this sell
      will result in the importation of more than an inconsequential quantity of commodities, which
      possibly could be true, but let us say that answer is in the affirmative and it will result in a net
      domestic increase in unemployment.

      Well, the Bank would indicate that because of the sale, it is expected that we will lose 100 mining
      jobs; so the net decrease in employment is 50 at tAt that point, we do not provide any direct loan or
      any I-match to the corporation involved. They lose the order.

      The United Kingdom and a host of other countries are just waiting, chomping at the bit to sell that
      dragline; so in essence, instead of losing a net of 50 jobs in this country, we will lose 150. That is the
      effect of Rahall. That is the net effect of Rahall.

      Mr. Chairman, I tried to work with the gentleman from West Virginia in what is really a serious
      problem for the coal-mining States, for the copper States. It is a serious problem.

      We looked at the Rahall I. It was ill advised.

      We looked at Rahall II, which the gentleman from West Virginia indicated he went a whole mile,
      and I found that it really did not cross the street; but nevertheless; we are faced here with Rahall III,
      which will provide the same problems as the first two products.

      I do have a substitute amendment prepared, which hopefully will alleviate some of the ill-advised
      aspects to the amendment; however, I do not think even that will get the job done.

      So our best bet at this point is to support Neal, which makes a terrible amendment somewhat better.
      It does not have the effect of closing the Eximbank.

      My friends, just read the amendment. With such wording like the importation of more than an
      inconsequential quantity of a commodity, my God, that covers everything.
                                                       C-16
        EVALUATION REPORT RELATING TO
         ECONOMIC IMPACT PROCEDURES
                                                                                        OIG-EV-10-03

We also indicate that no guarantee shall be offered if the export will be used or is intended for
use in the production or manufacture of any commodity, mineral or material or product, which is
produced or manufactured in substantial quantities in the United States.

As we all know, that includes almost everything.

So first of all, I say for the Eximbank to try to ascertain whether the ill effects of the loan would
come under Rahall, I think is difficult at the front end.

Second, for those in the coal States and the copper States, if this amendment would stop the
production of one piece of coal or one ounce of copper, if it would stop the production or
importation of one ounce-not a pound, not a ton-I might look favorably on the amendment, but it
will not. Those commodities will be ending up at our door and I say the answer is the Bunker bill,
which would address the trade practices of this country.

It is an issue to be taken up by the trade representative, not the Eximbank; but the net effect is to
do disaster to areas that I happen to represent that make machines and machine tools or the litany
of the other products that the gentleman from Iowa <Mr. LEACH> has enumerated so eloquently
before.

So I ask the Members to support Neal, and if in fact that is adopted, I think Rahall at that point is
palatable. It is not good, and in fact if Neal is not adopted, I think instead of closing the Eximbank,
that should just close down the amendment.

....

Mr. RICHARDSON. . . .I would just like to say that the last thing I think we want to do
is pit region against region, industry against industry. I think we have a situation where the
gentleman from Wisconsin has been very eloquent in some of the concerns he has voiced; but as a
Representative of a coal State and a coal area and a copper area and a uranium area and a strategic
minerals area where we have been devastated, literally devastated, where towns have died, where men
and women have lost their jobs, where industries have collapsed, where state economies are on the
brink of ruin, I think all we are asking is for a little gasp of support.

We are not saying close down the Eximbank. I think it has had some substantial positive effects
on the world economy and our foreign policy and international commercial policy. All we are
saying simply is, for God’s sakes, do not give an unfair competitive advantage that is going to bring
domestic unemployment to some of our industries.




                                              C-17
              EVALUATION REPORT RELATING TO
               ECONOMIC IMPACT PROCEDURES
OIG-EV-10-03

      Let me be specific. Copper, since 1980 the Bank has granted $279.9 million in assistance for copper-
      related projects. We have got copper plants in Arizona, in New Mexico, in the Southwest closing
      down, not simply gasping. They are literally closing down. It is not a question of a revival for them.

      Mexico in seven instances has received a total of $162.7 million from 1980 to 1984, including $9.2
      million in 1981 for construction of a copper smelter and $75.7 million in 1982 for expansion of a
      copper mine.

      In May 1986 the Copper Caucus in this House wrote to the bank questioning an additional line of
      credit of $23.5 million to Campania Minerva de Cannae in Sonora State for equipment to expand
      their copper operations. Also, Peru received a $45 million loan in 1982, a country that is refusing to
      pay their debts.

      Let me just explain the irony of the situation. The copper operation in Mexico in Cannae is polluting
      the Southwest of this country. Do you know how we are going to get out of polluting the Southwest
      of this country? We are considering loans from our multilateral institutions to these mining projects
      that have been financed by the American taxpayer and now we are going to bail them out again by
      giving them loans so that they can clean up their pollution which they refuse to do internally.

      I mean, how much are we going to put up with? This is why I think a clear signal in support of the
      amendment of my colleague, the gentleman from West Virginia, is important.

      Mr. KLECZKA. . . . Is the gentleman saying that if in fact Rahall was part of the law during the
      time of those transactions that additional copper ore would not have been mined or those countries
      involved would not have been able to get the equipment to mine that product on the international
      markets?

      Mr. RICHARDSON. I would say so. I do not know of cases where Mexico or some of the copper-
      producing countries, the Peruse of the world with their debt records, whether anybody else is lending
      them money at this time.

      I mean, here we have a case where if we can send a signal, and we know that this is going to be
      diluted, I do not see why the gentleman is so negative toward it when I think it could have a positive
      effect.

      Mr. KLECZKA. Well, if the gentleman from New Mexico will yield further, if in fact that is
      the case and these other countries were not vying for the sale of that equipment, then the Neal
      amendment which is before us next would apply and if there is no competition, then the other
      criteria; so basically what the gentleman is doing with that example anyway is arguing for Neal; but
      to say that the additional copper would not have been mined, that the equipment would not have
      been purchased from the United Kingdom or any other country, is sheer hogwash.


                                                     C-18
               EVALUATION REPORT RELATING TO
                ECONOMIC IMPACT PROCEDURES
                                                                                             OIG-EV-10-03

       The only thing we are doing with the Rahall amendment is denying our manufacturers and our
       U.S. employees from making that equipment, because it is going to be made and sold anyway. 132
       Cong. Rec. H4439-02, 1986 WL 778329 (Cong.Rec.)

At that point, Representative Rahall requested a vote on the addition of Representative Neal’s amendment
that would allow the Bank to approve transactions if the new foreign production of Exportable Goods
would occur anyway. Representative Neal’s Anti-Economic Impact amendment which was then approved
by a large margin of 307 to 87.




Congress did not depart 1986 with the Rahall Amendment as the final expression of its intent regarding
economic impact issues. During the Senate’s consideration of the Ex-Im Bank reauthorization bill Senator
Byrd introduced an amendment proposing the fundamental compromise that became the basis for Section
2(e) of the Bank’s Charter [Congressional Record- Senate Proceedings and Debates of the 99th Congress,
Second Session Monday, July 21, 1986]:

       Section 2 of the Export-Import Bank Act of 1945 is amended by adding at the end thereof the
       following:

               (e) The Bank may not make any loan, any assistance, or any other financial commitment
               for establishing or expanding production of any commodity for export by any country other
               than the United States, if-

                      (1)(A) the commodity is likely to be in surplus on world markets at the time the
                      resulting productive capacity is expected to become operative, or (B) the resulting
                      production capacity is expected to compete with United States production of the
                      same, similar, or competing commodity; and

                       (2) the assistance will cause substantial injury to United States producers of the same,
                       similar, or competing commodity.

                       Such prohibition shall not apply in any case where, in the judgment of the Board of
                       Directors of the Bank, the short and long-term benefits to industry and employment
                       in the United States are likely to outweigh the injury to United States producers of
                       the same, similar, or competing commodity.




                                                    C-19
              EVALUATION REPORT RELATING TO
               ECONOMIC IMPACT PROCEDURES
OIG-EV-10-03

      ....

      Mr. BYRD. [Congressional Record- Senate Proceedings and Debates of the 99th Congress, Second
      Session Monday, July 21, 1986] . . . Mr. President, the Export-Import Bank has supported an
      estimated $160 billion in exports since its inception in 1945. In a year in which our trade deficit
      could exceed $160 billion, American exporters need and deserve help in competing with foreign
      subsidies and loans-especially through programs such as Eximbank which do not cost taxpayer
      dollars. Japan supports about 35 percent of its exports with government financing-Great Britain
      assists more than 40 percent of its exports with government loans.

      Exim has helped one of America’s best export commodities-coal-to compete in a world market
      where American workers and companies increasingly find themselves in competition with foreign
      governments. From October 1, 1985 to July 3, 1986, Exim has assisted more than $12 million in
      West Virginia coal exports through its credit insurance program. I am pleased that Exim has begun
      to be more aggressive in its support of coal sales overseas. Manufactured goods are vital to our
      export economy, but we are shortsighted if we do not promote all our competitive exports-including
      coal-to the fullest extent possible.

      ...

      In 1984, a new surface mine known as El Cerrejon began production in the South American nation
      of Colombia. The mine is one of the largest surface mining operations in the world, with estimated
      reserves of 1.6 billion tons and a productive capacity of 15 million tons per year. Productive capacity
      is projected to reach 30 million tons per year in the not-too-distant future.

      The El Cerrejon mine produces high quality, low-sulfur steam coal, which is very attractive to
      utilities in the east and gulf coast regions of the United States.

      The mine is a $3.2 billion joint venture between Exxon Corp., and the Colombian Government
      through Carbocol, the state-owned coal company. Financing of the mine includes about $1 billion
      provided by government export banks in Canada, Japan, England, and France. In addition, the U.S.
      Export-Import Bank provided $200 million for mining equipment. . . . .

      The entry of Colombian coal into international coal markets will intensify the already fierce
      competition for markets in Western Europe and other countries. This has disturbing implications
      for U.S. coal exporters. Colombia is actively marketing its product in Western Europe, the
      Caribbean, Mexico, and Japan-which collectively accounted for about two-thirds, or 51 million
      tons, of the United States coal exports in 1983. Thus, Colombian coal may displace United States
      coal in foreign markets because of a price advantage resulting from lower mining costs and lower
      transportation costs. In fact, Colombia has recently negotiated contracts with several nations that
      currently are or have been consumers of United States coal, including Denmark, Israel, Mexico,
      Finland, Spain, Ireland, Jamaica, Puerto Rico, and the Dominican Republic.

                                                     C-20
        EVALUATION REPORT RELATING TO
         ECONOMIC IMPACT PROCEDURES
                                                                                     OIG-EV-10-03

I appreciate that the goal is to allow American equipment companies to get a piece of the Colombian
market-a market that will otherwise go to Japanese equipment producers. But I am also convinced
that the Bank needs to reexamine its priorities and assume a more balanced approach.

That is why I offer this amendment. This legislation amends the Export-Import Bank Act of 1945
by explicitly prohibiting the Bank from making loans when those loans will result in production
capacity that is expected to compete with U.S. production of the same or similar commodity if such
loans will cause substantial injury to a U.S. producer of that commodity. The law had prohibited
such loans when the result was overproduction. My amendment keeps that prohibition, but adds the
constraint on loans what will create competing production, and incorporates both provisions as part
of the charter language in the original Bank legislation. In addition, it requires the Bank to look at
the short and long-term employment consequences in deciding whether such loans do more harm
than good to employment in the United States.

Let me be very clear about the intent here. This language prohibits any direct loans to projects that
would, upon their completion, produce commodities that compete with American commodities,
when such loans would injure U.S. producers and workers. I believe this amendment will erase any
doubt that the management of Eximbank might have about the intent of Congress as regards loans
to increase foreign coal production, copper production, or production of any commodity-including
steel or chemicals-that will displace American commodities from their natural markets in this
country, or abroad, and cause injury to American workers and industry.

The board should be assured that this Senator and many of his colleagues-including, I know, the
distinguished chairman of the Banking Committee, Senator GARN and the distinguished ranking
member of that committee, Senator PROXMIRE-are going to watch that process with the utmost
care. . . . .

Mr. HEINZ. As the Senator says, the purpose of his amendment is to make sure that the Eximbank
does not lend money for exports of equipment, machinery that would be employed in some third
country, some foreign country, to add to the already great woes of commodity surplus categories,
whether it be coal, steel, or copper, any number of commodities which we can name.

He further states that the only exception to such a prohibition would be if the Eximbank Board
found that the short- and long-term benefit of not making that loan was outweighed by the benefit
of making that loan. And I suppose-and here is where I seek clarification-that the Senator was
referring to-and this is to the best of my knowledge a hypothetical example, although there are
parallel ones like it-where the Brazilian Government decides, because they are a state-controlled
economy, that they are going to build a steel mill.




                                            C-21
              EVALUATION REPORT RELATING TO
               ECONOMIC IMPACT PROCEDURES
OIG-EV-10-03

      Now, the Senator from West Virginia and I know that there is already a worldwide overcapacity in
      steel. Indeed, my projections are that there are in excess of 200 million tons of excess capacity in the
      world today. And for anybody who follows this, U.S. steel-making capacity is in the neighborhood
      of around 100 million tons.

      Our capacity utilization of that tonnage is currently about 60 percent. We are, therefore, only
      making about 60 million tons versus a world capacity situation of roughly 200 million tons, almost 3
      1/3 times the amount of steel we currently ship from U.S. mills in this country.

      To return to the example, the Brazilians, notwithstanding the fact they know they have to subsidize
      the production of that steel, they are probably going to have to dump it on the world market; they
      have made that decision and they are entertaining bids for steel mills. One is from the United States,
      another is from the French, another is from the Germans, a fourth is from the Japanese. And, as I
      understand what the Senator’s amendment does, is it says to the Eximbank, “You have a decision to
      make. You have to decide, with too much capacity, whether or not that steel mill is going to be built;
      we are simply not going to support United States suppliers who are in competition with French,
      German, Japanese, and others, or whether or not the decision not to do that would be balance be a
      mistake as that mill is going to be built anyway.”

      They have to make that judgment, one way or the other, and we do not know how they are going to
      decide, but that is the judgment, in effect, as I understand the Senator seeks to explicitly ask them to
      make. And I think, by the way, they should make it. But do I understand the Senator’s amendment
      more or less correctly?

      Mr. BYRD. Yes, the distinguished Senator does understand the intent of the amendment. It would
      be a tough decision but the board would have to make that decision, and it would have to make
      the decision on the basis of whether or not that particular loan-in the short and long term-benefits
      American workers or whether or not, overall, it is a detriment to the industry and the employees in
      that industry in this country. It would be a tough decision, but that board would have to make that
      decision.

      I think this language would give the board better guidance on which to make the decision and
      would assure-come nearer assuring-American industry and American workers that they are going to
      be protected in that decision.

      Mr. HEINZ. Mr. President, I thank my friend and colleague, the Democratic leader, for clarifying
      his amendment.

      I wanted to be assured that the Bank was going to have the appropriate role of making judgments
      on these matters. As the Senator from West Virginia has indicated, they are inherently difficult
      judgments, and the Bank is being asked, as I understand the amendment, to safeguard American
      economic interests first and foremost.

                                                     C-22
        EVALUATION REPORT RELATING TO
         ECONOMIC IMPACT PROCEDURES
                                                                                      OIG-EV-10-03

Sometimes that is going to cause the Bank to say “no” to somebody applying for a direct loan or a
guarantee or insurance, and sometimes they are going to decide to say ”yes” and they will have to
justify those judgments.

Above all, I think what the amendment of the Senator from West Virginia does is to say to the
Bank: “From here on out, we are going to hold you accountable for your judgments, because they
are very important to the economic well-being of this country; and the time has to come to an end
where you can make those judgments irrespective of any of the circumstances.” That is what we are
asking with the amendment of the Senator from West Virginia, that those judgments be made and
that they consider those consequences.

On that basis, Mr. President, I am prepared to accept the amendment.

Mr. PROXMIRE. . . .The bill provides on page 6, line 4, as follows-this was my amendment in
committee:

In all cases to which this section applies, the Bank shall consider and address in writing the views
of parties or persons who may be substantially adversely affected by the loan or guarantee prior to
taking final action on the loan or guarantee.

The purpose of that was to serve the same purpose as the amendment by the Senator from West
Virginia, but his amendment is very useful because it makes it explicit and particular, and I think it
serves a very useful purpose, and I welcome it.

Mr. BYRD. . . . The language in the bill does say, as the distinguished Senator from Wisconsin
pointed out, that the banks shall “consider and address in writing the views of parties or persons
who may be substantially adversely affected by the loan or guarantee prior to taking final action on
the loan or guarantee.”

I think this amendment adds teeth, by virtue of the fact that it does not just require the bank to
consider and address in writing the views. It requires the Bank to determine whether or not injury
will be caused to American workers.

It should erase, as I say, any questions or doubts the Eximbank may have as to what the intent of
Congress is in the making of these loans. It forces the board to weigh the benefits. Do the benefits
outweigh the damaging effects, or vice versa?

I thank both managers, and I hope the Senate will adopt the amendment.

The PRESIDING OFFICER. The question is on agreeing to the amendment.


                                             C-23
                 EVALUATION REPORT RELATING TO
                  ECONOMIC IMPACT PROCEDURES
OIG-EV-10-03

        The amendment (No. 2215) was agreed to. 132 Cong. Rec. S9367-01, 1986 WL 776919 (Cong.
        Rec.)


 As Senator Proxmire notes in the preceding section, the 1986 reauthorization of the Bank also included an
 amendment to the policy statement in 12 U.S.C. 635a requiring that “the Bank shall consider and address in
 writing the views of parties or persons who may be substantially adversely affected by the loan or guarantee
 prior to taking final action on the loan or guaranteIn the reconciliation of the House and Senate bills in the
 Fall of 1986 the Byrd amendment was adopted substantially intact and became Section 2(e) of the Bank’s
 Charter:

        (2)(e) Limitation on assistance which adversely affects the United States

                (1) In general - The Bank may not extend any direct credit or financial guarantee for
                establishing or expanding production of any commodity for export by any country other
                than the United States, if--

                        (A) the Bank determines that--

                                (i) the commodity is likely to be in surplus on world markets at the time the
                                resulting productive capacity is expected to become operative; or

                                (ii) the resulting production capacity is expected to compete with United
                                States production of the same, similar, or competing commodity; and

                        (B) the Bank determines that the extension of such credit or guarantee will cause
                        substantial injury to United States producers of the same, similar, or competing
                        commodity.

                (2) Exception - Paragraph (1) shall not apply in any case where, in the judgment of the Board
                of Directors of the Bank, the short- and long-term benefits to industry and employment in
                the United States are likely to outweigh the injury to United States producers of the same,
                similar, or competing commodity.

 The reports to each house by the sponsors of the specific amendments addressing economic impact in the
 1986 legislation confirmed that the language finally adopted med their intent.




                                                       C-24
        EVALUATION REPORT RELATING TO
         ECONOMIC IMPACT PROCEDURES
                                                                                      OIG-EV-10-03

Mr. RAHALL. [Congressional Record —- House of Representatives Proceedings and Debates
of the 99th Congress, Second Session Monday, September 22, 1986] Mr. Speaker, the legislation
before us today is a compromise between the bill originally passed by the House on July 15 and
the version adopted by the other body on July 22 to reauthorize the programs of the U.S. Export-
Import Bank. When the House considered this legislation last July, I along with our colleague
from Michigan, SANDY LEVIN, sought to amend the bill (H.R. 4510) with a provision that
would prohibit Eximbank assistance to foreign projects which in turn would export to the U.S.
commodities that would compete with our own domestic producers and result in a net employment
loss.

This amendment was modified somewhat on the House floor and was subsequently adopted. In
the other body, an amendment with a similar intent was offered by the senior Senator from West
Virginia, ROBERT BYRD, and was also adopted by that body. I am pleased to say that while a
conference was never held on H.R. 4510, the compromise bill before us this afternoon contains
prohibition language similar in scope to what was previously adopted in the context of H.R. 4510.

Mr. Speaker, with unemployment levels still at a very high level in many of our basic industries it
makes little sense for the Eximbank to provide assistance to foreign projects that will in turn export
like and similar commodities into the United States and as such, further aggravate our domestic
unemployment problem. Yet, we have witnessed the Bank time and time again engage in such
transactions, the most outrageous of which have involved coal, copper, and steel projects.

The intent of the prohibition provision of this legislation is to insure that never again will the
Eximbank provide assistance to projects such as the El Cerrejon Coal Mine in Colombia. This
project received $850 million in Eximbank assistance and will soon be the largest surface coal
mine in the world. Already, coal from El Cerrejon is infiltrating U.S. electric utility markets and
displacing U.S. export coal on the international market.

It is time we cease the shortsighted policy of the Bank in transactions such as this which are so
clearly against the best interest of the Nation. I can assure the Eximbank that I will closely monitor
its implementation of this legislation. 132 Cong. Rec. H8047-01, 1986 WL 784510 (Cong.Rec.)

....

Mr. BYRD. [Congressional Record —- Senate Proceedings and Debates of the 99th Congress,
Second Session Friday, September 26, 1986] Mr. President, I am pleased to see that this
reauthorization of the Export-Import Bank includes the amendment which I offered to that
legislation.

Exim has supported more than $12 million in West Virginia coal exports since October 1, 1985. I
am gratified that the Bank is supporting one of our most competitive exports, because coal is vital to
many jobs in my State, and in several other States.

                                             C-25
              EVALUATION REPORT RELATING TO
               ECONOMIC IMPACT PROCEDURES
OIG-EV-10-03

      But I have been deeply concerned about the direction of some of Exim Bank’s lending. In particular,
      I have called to my colleagues’ attention the case of the El Cerrejon-pronounced El Sarahone-mine
      in Colombia, South America. The Export-Import Bank provided a loan of $200 million to support
      development of that mine, even though the coal it produces will compete directly with U.S. coal.

      The amendment I introduced on July 21, 1986, and which is included in this legislation will go a
      long way toward putting an end to Exim financing for production of foreign commodities-including
      coal, steel, chemicals, fertilizer, and others-that would compete with U.S. products and which cause
      lost jobs in this country. This amendment will prohibit loans which would result in a surplus of a
      commodity or would compete with U.S. commodity production unless Exim weighs the short- and
      long-term benefits to employment and industries in this country and determines that the benefits of
      the loan outweigh the harm to U.S. firms and workers. This is a tough standard, but a realistic one.
      Congress will closely watch its operation.

      Now more than ever, we must expand our exports. We are losing our lead as the world’s greatest
      exporting nation. In the most recent month for which trade figures are available-July-we imported
      twice the dollar value of our exports. This is totally unacceptable, and it is cheapening the quality of
      life for our people.

      I commend the members of the Banking Committee, and Senators PROXMIRE, GARN, and
      HEINZ in particular, for their work on this legislation and their help in assuring the success of my
      amendment. I am grateful for the support of Senators FORD and ARMSTRONG and my many
      other colleagues who supported this important amendment. I believe it will give the Bank a very
      clear signal of the intent of Congress. The Fertilizer Institute has indicated that the pendency of this
      legislation caused Exim Bank to reconsider a loan that would have resulted in competition with U.S.
      commodities. I trust the passage of this legislation will guarantee continued vigilance by the Bank.

      Mr. PROXMIRE. Mr. President, I rise to support the enactment of H.R. 5548, a bill to amend
      and renew the charter of the Export-Import Bank. That charter will expire on September 30, next
      Tuesday. This bill will, among other things, renew the Bank’s charter for 6 additional years. . . . .

      Section 11 of H.R. 5548 is a provision I heartily endorse. Senator BYRD originally offered this
      provision on the floor and I worked to ensure that it is in this compromise bill because it is such
      a good provision. It prohibits the Bank from making any loans or guarantees that will result in
      the production abroad of any commodities that will compete with U.S. production of the same or
      similar commodity if such production will cause substantial injury to the U.S. producer of that
      commodity. The prohibition does not apply where, in the judgment of the board of directors of the
      bank, the short- and long-term benefits to industry and employment in the United States are likely to
      outweigh the injury to U.S. producers of the same, similar, or competing commodity.




                                                     C-26
                EVALUATION REPORT RELATING TO
                 ECONOMIC IMPACT PROCEDURES
                                                                                             OIG-EV-10-03

       That section should be read in conjunction with section 12 of H.R. 5548 which contains a provision
       I authored and which was in the bill passed by the Senate in July. Section 12 requires the Bank to
       consider and address in writing the views of parties or persons who may be substantially adversely
       affected by the loan or guarantee prior to taking final action on it. We expect that this section
       will ensure that the cost-benefit analysis done in section 11 is in writing and incorporates the views
       of those domestic workers, or farmers, or companies, who might be adversely impacted by the
       Eximbank’s loans or guarantees. As I said prior to the Senate’s passage of section 12 in July ”I hope
       the administration will take this position very seriously and will positively seek out and give a day in
       court to those adversely affected * * *.” It is important that Americans not be injured by the actions
       of their own Government and this provision is intended to protect them from inadvertent actions by
       the Export-Import Bank. 132 Cong. Rec. S13773-01, 1986 WL 793420 (Cong.Rec.)




1988 – An Adjustment to Section 2(e) With Little Explanation

In response to the controversy over economic impact and several other issues that emerged during the 1986
reauthorization hearings, the Bank was only reauthorized for two years in 1986. When Congress took up
the Bank’s reauthorization in 1988, economic impact was not the subject of the vigorous floor debates and
competing amendments that had characterized the 1986 process. Instead, several minor refinements were
made to Section 2(e) along with one significant modification, the addition of subsection 2(e)(3), which was
done with no explanation provided in the legislative history as to its source (1988 changes indicated by
underlining and mark-through).

       Section 2(e) Limitation on assistance which adversely affects the United States -

               (1) In general - The Bank may not extend any direct credit or financial guarantee for
               establishing or expanding production of any commodity for export by any country other
               than the United States, if--

                       (A) the Bank determines that--

                               (i) the commodity is likely to be in surplus on world markets at the time the
                               resulting commodity will first be sold [productive capacity is expected to
                               become operative]; or

                               (ii) the resulting production capacity is expected to compete with United
                               States production of the same, similar, or competing commodity; and

                       (B) the Bank determines that the extension of such credit or guarantee will cause
                       substantial injury to United States producers of the same, similar, or competing
                       commodity.
                                                    C-27
                 EVALUATION REPORT RELATING TO
                  ECONOMIC IMPACT PROCEDURES
OIG-EV-10-03

                 (2) Exception - Paragraph (1) shall not apply in any case where, in the judgment of the Board
                 of Directors of the Bank, the short- and long-term benefits to industry and employment in
                 the United States are likely to outweigh the short- and long-term injury to United States
                 producers and employment of the same, similar, or competing commodity.

                 (3) Definition - For purposes of paragraph (1)(B), the extension of any credit or guarantee
                 by the Bank will cause substantial injury if the amount of the capacity for production
                 established, or the amount of the increase in such capacity expanded, by such credit or
                 guarantee equals or exceeds 1 percent of United States production.




 The recollection of the PPG staff is that the addition of subparagraph (3) was not in response to any fact-
 finding effort by Congress or determination that substantial injury to a U.S. producer had been identified in
 a specific instance where the 1 percent of United States production threshold had been crossed. Instead, it
 was attributed to the use of that threshold in a PPG economic impact report that had been provided to the
 staff of the Senate Banking Committee. The use of the 1% threshold in that report was described as a di
 minimus level of potential new foreign production of an Exportable Good that was so small that it could be
 safely assumed that it was highly unlikely that any substantial injury to U.S. producers could occur at that
 level. It was not described as reflecting any empirical work or conclusion on the matter by the PPG staff, or
 as having been presented to congressional staff as having empirical support.

 The placement of a specific numerical threshold in the statute does address two issues that were referenced in
 the floor debates during the 1986 reauthorization, as well as what the PPG staff has described as a recurring
 degree of frustration in Congress relative to the Bank’s handling of economic impact cases. The two issues
 that the threshold addresses are the difficulty encountered by the Bank’s staff in making determinations
 of whether a proposed Ex-Im Bank supported transaction would in fact cause substantial injury to U.S.
 producers, and the perception in Congress that the transactions where U.S. producers were most outraged to
 find their foreign competition benefiting from Ex-Im Bank supported financing had been approved based on
 the Bank’s staff’s recommendations without independent consideration of adverse economic impact by the
 Board.

 The reauthorization of the Bank in 1988 and the amendments to Section 2(e) of the Bank’s Charter were
 undertaken as part of a much larger Omnibus Trade and Competitiveness bill [Pub.L. 100-418] that
 addressed many issues that were perceived as contributing the U.S. trade deficit, which may in part explain
 the limited attention given to the specific actions affecting the Bank’s Charter in the legislative history.
 The limited history that does exist derives from the reports in each house of the results of the reconciliation
 process:




                                                        C-28
        EVALUATION REPORT RELATING TO
         ECONOMIC IMPACT PROCEDURES
                                                                                   OIG-EV-10-03

[Congressional Record – Senate, Proceedings and Debates of the 100th Congress, Second Session,
Tuesday, April 19, 1988] B. Comparative Injury Determinations: The Conference Agreement
requires the Export-Import Bank to be concerned about extending loans or guarantees for
production of certain commodities when the product is first to be sold on the world market if it
causes harm to U.S. producers. The Conference Agreement defines substantial injury if the loan
guarantee for the production of a certain commodity will expand production in excess of 1 percent
of the U.S. production of that commodity.

[Congressional Record - House of Representatives, Proceedings and Debates of the 100th Congress,
Second Session, Wednesday, April 20, 1988] AMENDMENTS TO SECTION 2(E) OF THE
EXPORT-IMPORT BANK ACT OF 1945:

A. Time for Determining Supplies

       House bill

               The House bill contains no provision.

       Senate amendment

               Section 1106(a) of the Senate amendment amends the Export-Import Bank Act of
               1945 to provide that the Export-Import Bank shall be concerned about extending
               loans or loan guarantees for production of certain commodities in foreign countries
               when the product is first to be sold on the world market rather than when
               production capacity is expected to become operative.

       Conference Agreement

               The House recedes to the Senate.


B. Making Comparative Injury Determinations

       House bill

               The House bill contain no provision.

       Senate amendment




                                           C-29
                EVALUATION REPORT RELATING TO
                 ECONOMIC IMPACT PROCEDURES
OIG-EV-10-03

                       Section 1106(b) of the Senate amendment requires the Export-Import Bank when
                       making a determination of injury to specify both the long and short term injury to
                       U.S. producers and to U.S. employment.

               Conference Agreement

                       The House bill recedes to the Senate.


        C. Definition of Substantial Injury for Export-Import Bank Determination

               House bill

                       The House bill contains no provision.

               Senate amendment

                       Section 1106(c) of the Senate amendment provides that the extension of any credit or
                       guarantee by the Export-Import Bank will result in substantial injury if that credit or
                       guarantee is responsible for the establishment or expansion of production equal to or
                       in excess of 1% of U.S. production.

               Conference Agreement

                       The House recedes to the Senate.




 Comparison of Section 2(e) of the Ex-Im Bank Charter as Enacted in 1986 and Following 1988, 2002 and
 2006 Amendments, with Statutory References

    A.	 As enacted in 1986

        (2)(e) Limitation on assistance which adversely affects the United States

               (1) In general - The Bank may not extend any direct credit or financial guarantee for
               establishing or expanding production of any commodity for export by any country other
               than the United States, if--

                       (A) the Bank determines that--

                                                       C-30
               EVALUATION REPORT RELATING TO
                ECONOMIC IMPACT PROCEDURES
                                                                                             OIG-EV-10-03

                                (i) the commodity is likely to be in surplus on world markets at the time the
                                resulting productive capacity is expected to become operative; or

                                (ii) the resulting production capacity is expected to compete with United
                                States production of the same, similar, or competing commodity; and

                       (B) the Bank determines that the extension of such credit or guarantee will cause
                       substantial injury to United States producers of the same, similar, or competing
                       commodity.

               (2) Exception

               Paragraph (1) shall not apply in any case where, in the judgment of the Board of Directors
               of the Bank, the short- and long-term benefits to industry and employment in the United
               States are likely to outweigh the injury to United States producers of the same, similar, or
               competing commodity.




   B.	 1988 Amendments][Added [Deleted]]

       (2)(e) Limitation on assistance which adversely affects the United States

               (1) In general

The Bank may not extend any direct credit or financial guarantee for establishing or expanding production
of any commodity for export by any country other than the United States, if--

                       (A) the Bank determines that--

                                (i) the commodity is likely to be in surplus on world markets at the time the
                                resulting commodity will first be sold [productive capacity is expected to
                                become operative][1988]; or

                                (ii) the resulting production capacity is expected to compete with United
                                States production of the same, similar, or competing commodity; and




                                                     C-31
              EVALUATION REPORT RELATING TO
               ECONOMIC IMPACT PROCEDURES
OIG-EV-10-03

                     (B) the Bank determines that the extension of such credit or guarantee will cause
                     substantial injury to United States producers of the same, similar, or competing
                     commodity.

             (2) Exception

             Paragraph (1) shall not apply in any case where, in the judgment of the Board of Directors of
             the Bank, the short- and long-term benefits to industry and employment in the United States
             are likely to outweigh the short- and long-term [1988] injury to United States producers and
             employment [1988] of the same, similar, or competing commodity.

             3) Definition [1988]

             For purposes of paragraph (1)(B), the extension of any credit or guarantee by the Bank will
             cause substantial injury if the amount of the capacity for production established, or the
             amount of the increase in such capacity expanded, by such credit or guarantee equals or
             exceeds 1 percent of United States production. [1988]




   C.	 As Currently In Effect After 2002 and 2006 Amendments [Added [Deleted]]

      (2)(e) Limitation on assistance which adversely affects the United States

             (1) In general

                     The Bank may not extend any direct credit or financial guarantee for establishing or
                     expanding production of any commodity for export by any country other than the
                     United States, if--

                     (A) the Bank determines that--

                              (i) the commodity is likely to be in surplus on world markets at the time the
                              resulting commodity will first be sold; or

                              (ii) the resulting production capacity is expected to compete with United
                              States production of the same, similar, or competing commodity; and



                                                     C-32
EVALUATION REPORT RELATING TO
 ECONOMIC IMPACT PROCEDURES
                                                                               OIG-EV-10-03

       (B) the Bank determines that the extension of such credit or guarantee will cause
       substantial injury to United States producers of the same, similar, or competing
       commodity.

       In making the determination under subparagraph (B), the Bank shall determine
       whether the facility that would benefit from the extension of a credit or guarantee
       is reasonably likely to produce a commodity in addition to, or other than, the
       commodity specified in the application and whether the production of the additional
       commodity may cause substantial injury to United States producers of the same, or a
       similar or competing, commodity. [2006]

(2) Outstanding orders and preliminary injury determinations [2002]

       (A) Orders [2002]

       The Bank shall not provide any loan or guarantee to an entity for the resulting
       production of substantially the same product that is the subject of--

               (i) a countervailing duty or antidumping order under title VII of the Tariff
               Act of 1930; or

               (ii) a determination under title II of the Trade Act of 1974.

       (B) Affirmative determination [2002]

       Within 60 days after the date of the enactment of this paragraph, the Bank shall
       establish procedures regarding loans or guarantees provided to any entity that is
       subject to a preliminary determination of a reasonable indication of material injury
       to an industry under title VII of the Tariff Act of 1930. The procedures shall help
       to ensure that these loans and guarantees are likely to not result in a significant
       increase in imports of substantially the same product covered by the preliminary
       determination and are likely to not have a significant adverse impact on the domestic
       industry. The Bank shall report to the Committee on Financial Services of the
       House of Representatives and the Committee on Banking, Housing, and Urban
       Affairs of the Senate on the implementation of these procedures.

       (The Bank shall establish procedures under which the Bank shall notify interested
       parties and provide a comment period [of not less than 14 days (which, on request of
       any affected party, shall be extended to a period of not more than 30 days)][2006]
       with regard to loans or guarantees reviewed pursuant to subparagraph (B) or (D).

       (D) Consideration of investigations under title II of the Trade Act of 1974 [2002]
                                    C-33
           EVALUATION REPORT RELATING TO
            ECONOMIC IMPACT PROCEDURES
OIG-EV-10-03

                   In making any determination under paragraph (1) for a transaction involving more
                   than $10,000,000, the Bank shall consider investigations under title II of the Trade
                   Act of 1974 that have been initiated at the request of the President of the United
                   States, the United States Trade Representative, the Committee on Finance of the
                   Senate, or the Committee on Ways and Means of the House of Representatives, or by
                   the International Trade Commission on its own motion.

                   (E) Anti-circumvention [2006]

                   The Bank shall not provide a loan or guarantee if the Bank determines that providing
                   the loan or guarantee will facilitate circumvention of an order or determination
                   referred to in subparagraph (A).

           (3)[(2)] [2002] Exception

           Paragraphs (1) and (2) [2002] shall not apply in any case where, in the judgment of the Board
           of Directors of the Bank, the short- and long-term benefits to industry and employment in
           the United States are likely to outweigh the short- and long-term injury to United States
           producers and employment of the same, similar, or competing commodity.

           (4) [(3)] [2002] Definition

           For purposes of paragraph (1)(B), the extension of any credit or guarantee by the Bank will
           cause substantial injury if the amount of the capacity for production established, or the
           amount of the increase in such capacity expanded, by such credit or guarantee equals or
           exceeds 1 percent of United States production.

           (5) Designation of sensitive commercial sectors and products [2006]

           Not later than 120 days after the date of the enactment of this Act, the Bank shall submit
           a list to the Committee on Banking, Housing, and Urban Affairs of the Senate and the
           Committee on Financial Services of the House of Representatives, which designates sensitive
           commercial sectors and products with respect to which the provision of financing support by
           the Bank is deemed unlikely by the President of the Bank due to the significant potential for
           a determination that such financing support would result in an adverse economic impact on
           the United States. The President of the Bank shall review on an annual basis thereafter the
           list of sensitive commercial sectors and products and the Bank shall submit an updated list to
           the Committee on Banking, Housing, and Urban Affairs of the Senate and the Committee
           on Financial Services of the House of Representatives of such sectors and products.

           (6) Financial threshold determinations [2006]

                                                 C-34
EVALUATION REPORT RELATING TO
 ECONOMIC IMPACT PROCEDURES
                                                                             OIG-EV-10-03

For purposes of determining whether a proposed transaction exceeds a financial threshold
under this subsection or under the procedures or rules of the Bank, the Bank shall aggregate
the dollar amount of the proposed transaction and the dollar amounts of all loans and
guarantees, approved by the Bank in the preceding 24-month period, that involved the same
foreign entity and substantially the same product to be produced.

(7) Procedures to reduce adverse effects of loans and guarantees on industries and
employment in United States [2006]

       (A) Consideration of economic effects of proposed transactions [2006]

       If, in making a determination under this paragraph with respect to a loan or
       guarantee, the Bank conducts a detailed economic impact analysis or similar study,
       the analysis or study, as the case may be, shall include consideration of--

               (i) the factors set forth in subparagraphs (A) and (B) of paragraph (1); and

               (ii) the views of the public and interested parties.

       (B) Notice and comment requirements [2006]

               (i) In general

               If, in making a determination under this subsection with respect to a loan or
               guarantee, the Bank intends to conduct a detailed economic impact analysis
               or similar study, the Bank shall publish in the Federal Register a notice of
               the intent, and provide a period of not less than 14 days (which, on request
               by any affected party, shall be extended to a period of not more than 30
               days) for the submission to the Bank of comments on the economic effects
               of the provision of the loan or guarantee, including comments on the factors
               set forth in subparagraphs (A) and (B) of paragraph (1). In addition, the
               Bank shall seek comments on the economic effects from the Department
               of Commerce, the Office of Management and Budget, the Committee on
               Banking, Housing, and Urban Affairs of the Senate, and the Committee on
               Financial Services of the House of Representatives.

               (ii) Content of notice

               The notice shall include appropriate, nonproprietary information about--




                                     C-35
           EVALUATION REPORT RELATING TO
            ECONOMIC IMPACT PROCEDURES
OIG-EV-10-03

                              (I) the country to which the goods involved in the transaction will be
                              shipped;

                              (II) the type of goods being exported;

                              (III) the amount of the loan or guarantee involved;

                              (IV) the goods that would be produced as a result of the provision of
                              the loan or guarantee;

                              (V) the amount of increased production that will result from the
                              transaction;

                              (VI) the potential sales market for the resulting goods; and

                              (VII) the value of the transaction.

                      (iii) Procedure regarding materially changed applications

                              (I) In general

                              If a material change is made to an application for a loan or guarantee
                              from the Bank after a notice with respect to the intent described in
                              clause (i) is published under this subparagraph, the Bank shall publish
                              in the Federal Register a revised notice of the intent, and shall provide
                              for a comment period, as provided in clauses (i) and (ii).

                              (II) Material change defined

                              As used in sub clause (I), the term “material change”, with respect to
                              an application, includes--

                              (aa) a change of at least 25 percent in the amount of a loan or
                              guarantee requested in the application; and

                              (bb) a change in the principal product to be produced as a result of
                              any transaction that would be facilitated by the provision of the loan
                              or guarantee.

               (C) Requirement to address views of adversely affected persons [2006]


                                               C-36
                EVALUATION REPORT RELATING TO
                 ECONOMIC IMPACT PROCEDURES
                                                                                                OIG-EV-10-03

                        Before taking final action on an application for a loan or guarantee to which
                        this section applies, the staff of the Bank shall provide in writing to the Board
                        of Directors the views of any person who submitted comments pursuant to
                        subparagraph (B).

                        (D) Publication of conclusions [2006]

                        Within 30 days after a party affected by a final decision of the Board of Directors
                        with respect to a loan or guarantee makes a written request therefore, the Bank
                        shall provide to the affected party a non-confidential summary of the facts found
                        and conclusions reached in any detailed economic impact analysis or similar study
                        conducted pursuant to subparagraph (B) with respect to the loan or guarantee, that
                        were submitted to the Board of Directors.

                        (E) Rule of interpretation [2006]

                        This paragraph shall not be construed to make subchapter II of chapter 5 of Title 5,
                        applicable to the Bank.

                        (F) Regulations [2006]

                        The Bank shall implement such regulations and procedures as may be appropriate to
                        carry out this paragraph.




1986 Amendments. Subsec. (2)(e). Pub.L. 99-472, § 11, added subsec. (e).

1988 Amendments. Subsec. (e)(1)(A)(i). Pub.L. 100-418, § 3304(a), substituted “commodity will first be
sold” for “productive capacity is expected to become operative”.

Subsec. (e)(2). Pub.L. 100-418, § 3304(b), added “short- and long-term” following “to outweigh the” and
“and employment” following “United States producers”.

Subsec. (e)(3). Pub.L. 100-418, § 3304(c), added par. (3).

2002 Amendments. Subsecs. (e)(2) to (4). Pub.L. 107-189, § 18, added par. (2) and redesignated former
pars. (2) and (3) as (3) and (4) respectively. Prior to redesignation, in par. (2), struck out “Paragraph (1)” and
inserted “Paragraphs (1) and (2)”.



                                                      C-37
                 EVALUATION REPORT RELATING TO
                  ECONOMIC IMPACT PROCEDURES
OIG-EV-10-03

 2006 Amendments. Subsec. (e)(1). Pub.L. 109-438, § 7(1), at the end of par. (1), inserted: “In making the
 determination under subparagraph (B), the Bank shall determine whether the facility that would benefit
 from the extension of a credit or guarantee is reasonably likely to produce a commodity in addition to,
 or other than, the commodity specified in the application and whether the production of the additional
 commodity may cause substantial injury to United States producers of the same, or a similar or competing,
 commodity.”

 Subsec. (e)(2)(C). Pub.L. 109-438, § 8(b), inserted “of not less than 14 days (which, on request of any
 affected party, shall be extended to a period of not more than 30 days)” after “comment period”.

 Subsec. (e)(2)(E). Pub.L. 109-438, § 7(2), added subpar. (E).

 Subsec. (e)(5). Pub.L. 109-438, § 5, added par. (5).

 Subsec. (e)(6). Pub.L. 109-438, § 7(3), added par. (6).

 Subsec. (e)(7). Pub.L. 109-438, § 8(a), added par. (7).




                                                           C-38
               EVALUATION REPORT RELATING TO
                ECONOMIC IMPACT PROCEDURES
                                                                                            OIG-EV-10-03

                        Appendix D - Methodology and
                          Background of this Report


Assignment Methodology

The following work was completed in support of the preparation of this Report:

       •	 Review in detail the Bank’s files pertaining to the medium-term credit insurance provided in
          support of the Trinidad project.

       •	 Review of additional Bank files related to other transactions that were subjected to economic
          impact review during the period of January 1, 2002 to May 1, 2008.

       •	 Review the Bank’s Charter and its policies and procedures for approving transactions involving
          less than $10 million of financing and for determining economic impact.

       •	 Interviews during 2007 and 2008 of various officials regarding the methodology and
          interpretation of economic impact analyses, including (1) all five members of the Bank’s Board
          of Directors; (2) the Bank’s General Counsel; (3) senior Bank officials in its Policy and Analysis
          Division; (4) officials from other U.S. government agencies that provide comments on the
          Bank’s draft economic impact analyses, including the Treasury and Commerce Departments,
          and the Office of the U.S. Trade Representative; and (5) discussions of the work supporting the
          2007 OIG Report with representatives of GAO and members of the staff of the Senate Finance
          Committee.

       •	 Discussion of the findings and suggestions set forth in this Report with members of the Bank’s
          senior staff, Board and representatives of certain of the Reviewing Agencies.

This work was completed by the Inspector General with support from a senior auditor detailed to the OIG
by the Office of Inspector General of the Federal Deposit Insurance Corporation.

No one interviewed during the preparation of this Report expressed satisfaction with the Economic Impact
Procedures, or confidence in their efficient and effective functioning. The sources of dissatisfaction and
lack of confidence varied as to cause and strength among the individuals interviewed. Comments from
transaction sponsors or opponents were not obtained during the preparation of this Report. The statements
and testimony of interested parties delivered to Congress regarding the Economic Impact Procedures in
the Bank’s reauthorization hearings held in 2006 were reviewed. That testimony and reports received
from several of the individuals who were interviewed, who have interacted with transaction sponsors and
opponents, presented a relatively consistent picture of dissatisfaction and lack of confidence arising from
those quarters as well.
                                                    D-1
                 EVALUATION REPORT RELATING TO
                  ECONOMIC IMPACT PROCEDURES
OIG-EV-10-03

 2007 GAO Report

 The 2007 GAO Report was considered and the documentation provided by the Bank to GAO upon which
 that report was based was reviewed. GAO conducted its work from September 2006 through August 2007
 in which it reviewed: (1) the Bank’s overall policies and procedures for determining economic impact; (2)
 the extent to which the Bank’s procedures provide for the identification and appropriate analysis of projects
 that could potentially cause adverse economic impact; and (3) the extent to which the Bank’s policies,
 procedures and decisions are transparent to interested and affected parties.

 Overall, GAO reported that the Bank has established procedures to identify applications for projects that
 have the greatest potential to adversely affect U.S. industry and to conduct detailed analyses on those
 identified projects. GAO found challenges and areas for improvement in the screening and detailed
 analysis of projects for economic impact. They also found limitations in the transparency of the Bank’s
 economic impact process. Based on its work, GAO made several recommendations in each of two areas:
 (1) improving the Bank’s identification and analysis of applications for economic impact and (2) improving
 the public transparency of the economic impact process for interested and affected parties. The GAO’s work
 was considered during the preparation of this Report, but no attempt was made to duplicate it.




 Congressional Interest in the Bank’s Economic Impact Procedures

 The Bank’s economic impact procedures have been under Congressional scrutiny for the past several years.
 In September 2004, Senator Charles E. Grassley sent a letter to the Bank regarding the Bank’s support
 for the export of U.S. manufacturing equipment used in an ethanol dehydration plant in Trinidad and
 Tobago, questioning whether the Bank properly applied the “substantial injury” language contained in
 Section 2(e)(4) of the Bank’s Charter. Shortly thereafter the Consolidated Appropriations Act of 2005 (PL
 108-447) required that the Bank submit a report to the Appropriations Committees of the Senate and
 House containing an analysis of the economic impact on United States producers of ethanol of the Trinidad
 project.

 After consideration of the Bank’s response to these communications and other information, Congress
 directed in November 2005 that the 2007 OIG Report be prepared. Senators Grassley and Crapo later
 requested that the GAO review the Bank’s economic impact analysis process, resulting in the 2007
 GAO Report. Congress also made significant changes in the Bank’s economic impact responsibility in
 amendments to the Charter in connection with the Bank’s 2006 reauthorization (P.L. 109-438, December
 20, 2006).




                                                        D-2
               EVALUATION REPORT RELATING TO
                ECONOMIC IMPACT PROCEDURES
                                                                                           OIG-EV-10-03

Request by Chairman Jim Lambright

The OIG’s inquiries in support of the 2007 OIG Report of necessity touched upon all aspects of the Bank’s
Economic Impact Procedures. It would not have been possible to address the narrower questions that were
the subject of the 2007 OIG Report without an understanding of the broader context. Jim Lambright, the
Bank’s Chairman at the commencement of work on the 2007 OIG Report, requested that the OIG examine
the Economic Impact Procedures more broadly. In particular, the Chairman requested that the OIG
consider the findings and recommendations in the 2007 GAO Report in view of the OIG’s independent
review of the Economic Impact Procedures and, if deemed advisable, offer more detailed recommendations
for improvements based upon them. This Report is the result of that request.




Actions Leading to Public Release of this Report

This Report was written by Michael W. Tankersley during his tenure as the first Ex-Im Bank Inspector
General, with support during the preparation of the 2007 OIG Report provided by a senior auditor detailed
to the Ex-Im Bank OIG by the Office of Inspector General of the Federal Deposit Insurance Corporation.
This Report has been reviewed by Osvaldo Gratacos, the Acting Inspector General of Ex-Im Bank, and
his comments have been incorporated in the final Report. Unlike other evaluation reports released by the
Ex-Im Bank OIG in 2009 and 2010, the Office of Audits did not participate in the preparation of this
Report. Substantially all of the substantive work supporting this Report was completed during 2007 and
2008, prior to the arrival of the Ex-Im Bank OIG’s professional staff. The existence of the Ex-Im Bank OIG
commenced in August 2007 when Michael W. Tankersley was sworn in as the first Ex-Im Bank Inspector
General. The Assistant Inspector General for Audits was not employed until May 2008.

Drafts of this Report were provided to the PPG staff and senior management of the Bank at several points
during 2008 and 2009, and some of the findings and suggestions in this Report that were reflected in
those drafts were incorporated in economic evaluations during 2008 and 2009. The Inspector General
determined not to release the Report in the Fall of 2008 after the Bank’s Chairman and General Counsel
were detailed to serve as senior officials of the Troubled Asset Relief Program based on his conclusion that
substantive consideration of these findings and suggestions would be most constructive if undertaken by the
Bank’s leadership under the appointees of the new administration that would take office in January 2009. A
draft of this Report and background materials, together with a short briefing, were provided to the Bank’s
newly appointed senior management in August 2009. Michael W. Tankersley resigned from the Office of
Inspector General in October 2009.




                                                   D-3
                EVALUATION REPORT RELATING TO
                 ECONOMIC IMPACT PROCEDURES
OIG-EV-10-03

 As a result of continuing interest in the Report’s subject matter by the PPG staff, the Bank’s senior
 management and other observers of the economic impact process, including members of Congress and the
 staff of the Senate Committee on Banking, Housing and Urban Development, Acting Inspector General
 Gratacos requested that Mr. Tankersley complete final editing of the Report and respond to his comments,
 a process that has resulted in the public release of this Report.




                                                     D-4
               EVALUATION REPORT RELATING TO
                ECONOMIC IMPACT PROCEDURES
                                                                                             OIG-EV-10-03

                  Appendix E - Excerpts from Economic
                    Impact Procedures – April 2007


Stage V: Analysis of the Economic Impact of Transactions by Categories

The fifth stage of the economic impact analysis consists of screens to determine whether a transaction
requires a detailed economic impact analysis. The detailed economic impact analysis incorporates multiple
components to determine the overall economic impact. No individual component of the analysis is
determinative.

Category A: Processing Transactions Not Subject to Specified Trade Orders or Preliminary Trade Actions

....

       2. Risk of Substantial Injury: Transactions that enable a foreign buyer to establish or expand
       foreign production by an amount that is equal to or greater than 1% of U.S. production (of the
       same, similar, or competing good) are subject to detailed economic impact analysis in screen 3. In
       determining “substantial injury”, the concept referred to as “proportionality” (i.e., where the relation
       of the dollar value of the Ex-Im Bank financed U.S. component to the overall cost of the transaction/
       project measures whether the 1% screen has been met) shall not be the only element used to avoid a
       full economic analysis. If a facility that would benefit from the provision of Ex-Im Bank financing is
       reasonably likely to produce a commodity other than, or in addition to, the commodity specified in
       the application, such commodity will also be subject to a substantial injury determination.

       3. Detailed Economic Impact Analysis to Determine if the 2(e)(1) Prohibition is Applicable -Factors
       to be Evaluated:

               a. Public Notice and Comment: When Ex-Im Bank determines that a transaction poses
               a risk of substantial injury (i.e., the resulting production is equal to or exceeds 1% of U.S.
               production), the Bank shall publish in the Federal Register and on its website a notice of
               intent, and provide a period of not less than 14 days (which, on written request by any
               affected party, shall be extended to a period of not more than 30 days), for the submission
               to the Bank of comments on the economic effect of the provision of the loan or guarantee,
               including comments on whether the commodity is likely to be in surplus on world markets
               at the time the resulting commodity will first be sold; and the resulting production capacity
               is expected to compete with United States production of the same, similar, or competing
               commodity. Concurrently, Ex-Im Bank will specifically notify relevant USG agencies and
               Congressional committees of the transaction and weigh carefully the analytical and policy

                                                     E-1
               EVALUATION REPORT RELATING TO
                ECONOMIC IMPACT PROCEDURES
OIG-EV-10-03

               views of such entities. The USG agencies and Congressional Committees to be notified
               include: the U.S. Department of Commerce; the U.S. Department of Treasury, the U.S.
               Department of State, the Office of Management and Budget, the Office of the U.S. Trade
               Representative, the Committee on Banking, Housing, and Urban Affairs of the Senate, and
               the Committee on Financial Services of the House of Representatives. The content of the
               notice shall include appropriate, nonproprietary information about: (i) the country to which
               the goods involved in the transaction will be shipped; (ii) the type of goods being exported;
               (iii) the amount of the loan or guarantee involved; (iv) the goods that would be produced as
               a result of the provision of the loan or guarantee; (v) the amount of the increased production
               that will result from the transaction; (vi) the potential sales market for the resulting goods;
               and (vii) the value of the transaction. The buyer’s and the applicant’s names, as well as any
               proprietary information, will not be released. The economic impact analysis will include a
               summary of the comments received. The full text of comments received by the Bank will be
               attached as an appendix to the Board memo.

               If a material change is made to an application for Ex-Im Bank financing subsequent to the
               public notice, the Bank shall publish a revised notice and shall provide for a new comment
               period. The term material change with respect to an application includes: a change of at
               least 25% percent in the amount of Ex-Im Bank financing requested in the application; or a
               change in the principal product to be produced by the foreign buyer.

               b. Oversupply and Competition: For a transaction to be eligible for denial based on
               economic impact, Ex-Im Bank’s Charter requires that – in addition to meeting the criteria
               for substantial injury – the foreign buyer’s resulting production must either likely be in
               surplus on world markets at the time it will first be sold (hereafter called oversupply) or
               compete with U.S. production of the same, similar or competing good.1




                        i. Assessment of oversupply: Ex-Im Bank’s Charter requires the economic impact
                        analysis to address whether the foreign buyer’s production resulting from Ex-Im
                        Bank support may come on-stream during a period of oversupply. There are no
                        generally accepted definitions of oversupply, so each transaction is analyzed on a
                        case-by-case basis. Anti-Dumping or Countervailing Duty Orders against a product
                        shall be factored as a consideration into any extensive economic impact analysis
                        of a similar product elsewhere as a possible indicator of oversupply. Section 201
                        investigations initiated at the request of the President, the U.S. Trade Representative,
                        the Senate Committee on Finance, the House Committee on Ways and Means or by
                        the International Trade Commission on its own motion shall be considered by Ex-Im
                        Bank as indicators of oversupply. Other possible indicators of oversupply that Ex-Im
                        Bank may consider on a case-by-case basis include: (i) stagnating or falling global

   1	   All analysis will be based on reasonably available data and information.
                                                              E-2
             EVALUATION REPORT RELATING TO
              ECONOMIC IMPACT PROCEDURES
                                                                                                      OIG-EV-10-03

                      prices and/or falling gross margins (price minus variable cost) of domestic producers;
                      (ii) industry bankruptcy trends and/or industry unemployment trends; (iii) Trade
                      Adjustment and Assistance (TAA) Program petitions; and (iv) preliminary Anti-
                      Dumping or Countervailing Duty determinations; and (v) multi-lateral production
                      limitation agreements.2

                      ii. Valuation of broad competitive impacts to U.S. industry: The foreign project’s
                      potential impact on U.S. industry is analyzed in a cost-benefit framework. The
                      economic impact analysis weighs the quantitative benefits (e.g., the value of the U.S.
                      exports, follow-on spare parts sales) and costs (e.g., the value of the displaced U.S.
                      sales or lost market share) of the transaction. In addition to measuring whether the
                      foreign buyer’s increased production could displace U.S. production of the same,
                      similar, or competing good in markets where the foreign buyer directly competes
                      head-to-head with U.S. production, the economic impact analysis will also consider
                      other secondary factors and impacts of the proposed transaction. These other factors
                      include: concurrent additions to production capacity of the product in the U.S.,
                      buyer’s country and any markets that may directly affect the prospects for current
                      U.S. producers, the current and expected international trade flows of the product
                      including the possibility that the foreign buyer’s production may displace production
                      from a third-country resulting in displaced U.S. production, or reduced U.S. market
                      share. The time horizon for measuring the economic impact is the length of Ex-Im
                      Bank support.

            c. Evaluation of Quantitative and Qualitative Information: The next step in the economic
            impact process is the weighing of the analytical findings of the preceding steps and the
            qualitative information received through the notice and comment period (e.g., views from
            other USG agencies and affected parties) to determine the overall impact of Ex-Im Bank
            financing on the U.S. economy. At the conclusion of the economic impact analysis, staff
            makes a recommendation based on its evaluation of the various components. The Board
            takes all these components into account in reaching a decision.




2	 By policy and practice, Ex-Im Bank is directly and unexceptionally constrained by guidelines established by
   the Export Credit Group, a body of the Organization for Economic Cooperation and Development.
                                                        E-3
                EVALUATION REPORT RELATING TO
                 ECONOMIC IMPACT PROCEDURES
                                                                                              OIG-EV-10-03

        Appendix F - Trade Flow Analysis Methodology


The Bank’s trade flow analysis methodology generally involves the following steps and assumptions:

       (i)	   The volume of U.S. production of the Exportable Good is determined in a base year, and U.S.
              domestic consumption, including foreign imports, and U.S. exports of that good to specific
              foreign markets for that year are also identified.

       (ii)	 The potential annual volume of production of the Exportable Good by the foreign buyer
             of the exported capital equipment proposed to be supported by the Bank is identified.
             Manufacturer supplied information is considered by the Bank’s engineering staff to confirm
             this quantity. Where the exported equipment is merely replacing existing equipment and no
             new production capacity will be created, the volume of new production associated with the
             Bank’s supported financing is assumed to be zero.

       (iii)	 These production, consumption, export and import numbers are then modified to reflect
              anticipated trends to arrive at projected future data for the relevant future years. In some
              cases, for example where a market appears to be relatively static, no adjustment to historical
              data is made. In other cases increases or decreases may be projected from recent trends. In
              cases where markets are perceived to be cyclical, projected trade flows for some future years
              may be substantially reduced to reflect potential volatility.

       (iv)	 The relevant years for which projected U.S. production, consumption, imports, exports and
             foreign production figures are developed are assumed to begin with the year in which the
             Bank supported equipment will first be placed into production and to end with the term of
             the Bank supported financing. As a result of this assumption, changes in the duration of the
             Bank’s financing can alter the outcome of the analysis.

       (v)	 It is assumed that 100% of the production of the Exportable Good will “displace” U.S.
             production, to the extent that the Exportable Good is reasonably capable of being exported
             to the U.S. or to a market to which U.S. producers have demonstrated exports. Second order
             competition between U.S. production and the foreign production of the Exportable Good
             is considered too distant and difficult to model and so is not considered. Exports to nations
             that U.S. producers do not export to are assumed not to have any negative impact on U.S.
             producers of the Exportable Good.

       (vi)	 The dollar value of the assumed “displaced” sales, discounted to a present value, are compared
             with the dollar value of the capital equipment proposed for Ex-Im Bank support and projected
             follow-on part or service revenues to the U.S. from the supported transaction.
                                                     F-1
              EVALUATION REPORT RELATING TO
               ECONOMIC IMPACT PROCEDURES
OIG-EV-10-03

      (vii)	 If the dollar value of the displaced sales by U.S. producers of the Exportable Good exceeds the
             dollar value of the supported export transaction, a negative trade flow effect is identified by
             the PPG staff and the transaction generally receives a negative staff recommendation due to
             perceived “substantial injury to U.S. producers.” If the dollar value of the displaced sales by
             U.S. producers of the Exportable Good is less than the dollar value of the supported export
             transaction, a positive trade flow effect is identified by the PPG staff and the transaction
             generally receives a positive recommendation.

      (viii)	 If the result of the analysis reflected in items (vi) and (vii) above is negative in a case in which
              the PPG staff identifies other data suggesting that the method overstates the likelihood of
              injury to U.S. producers, or in which other mitigating factors exist that strongly suggest that
              no injury to U.S. producers is likely (see 1.(d) below), the PPG staff has on occasion introduced
              modifications to the method, or recommended changes in the transaction structure, so that
              the results of the model are more consistent with the other data. The results produced by the
              revised model then allow the staff to confirm that there is not a negative trade flow effect.
              Examples of this include considering imports of an Exportable Good only in every other
              year for cyclical industries, and applying the concept of “proportionality” to consider only a
              small percentage of the Exportable Goods produced as displacing U.S. production where the
              contribution of the Ex-Im Bank supported export to the new foreign production capacity is
              small or indirect.




                                                        F-2
                EVALUATION REPORT RELATING TO
                 ECONOMIC IMPACT PROCEDURES
                                                                                           OIG-EV-10-03

            Appendix G - 2007 OIG Report to Congress

                                            November 5, 2007



The Honorable Spencer Bachus
House Committee on Financial Services
2129 Rayburn House Office Building
Washington, DC 20515-1306


Dear Congressman:


The Export-Import Bank of the United States (Bank) Office of Inspector General (OIG) has completed
its analysis of issues related to medium-term credit insurance provided to an ethanol dehydration plant in
Trinidad and Tobago (the “Trinidad Project”), and related matters. The OIG initiated this special project
at the direction of the Congress. Specifically, Conference Report 109-265, dated November 2, 2005 (the
“November 2005 Conference Report”), included the following language:


       The conferees direct that the Inspector General shall provide a written analysis to the
       Committees on Appropriations and other appropriate committees, including the Senate
       Finance Committee, within 90 days of appointment as to whether loan guarantees provided
       to an ethanol dehydration plant in Trinidad and Tobago met the conditions of section 2(e)
       (4) of the Export-Import Bank Act of 1945 or any provision in the Bank’s charter. This
       analysis shall include whether “value added” methodology is routinely used by the Bank to
       determine whether or not a proposed loan guarantee or export credit meets the statutory
       test found in section 2(e)(4). The Inspector General shall also make recommendations as to
       whether it is appropriate to use such methodology in making determinations of substantial
       injury.


In responding to the November 2005 Conference Report, the OIG focused its attention on the three
specific issues which are analyzed herein:


(1)	   Whether the medium-term credit insurance provided by the Bank in support of the Trinidad Project
       met the conditions of Section 2(e)(4) or any other provision of the Export-Import Bank Act of 1945
       (the “Charter”) (see Appendix A for relevant provisions of the Charter).


                                                    G-1
                EVALUATION REPORT RELATING TO
                 ECONOMIC IMPACT PROCEDURES
OIG-EV-10-03

 (2)	   Whether the Bank routinely uses “value added” methodology to determine whether a proposed loan
        guarantee or export credit meets the statutory test of substantial injury, as specified in Section 2(e)(4)
        of the Charter.
 (3)	   Whether it is appropriate for the Bank to use “value added” methodology in making determinations
        of substantial injury.


 Results in Brief


 Following is a brief synopsis of our conclusions. A more comprehensive discussion of our findings begins on
 page 6.


 Issue 1. We have concluded that as a legal matter the Trinidad Project met the conditions of Section 2(e)
 (4) of the Bank’s Charter and other related provisions pursuant to procedures authorized by the Bank in
 the exercise of its discretion. Under these procedures, as a transaction involving less than $10 million of
 financing, (i) the Trinidad Project was not evaluated by the Bank’s staff to determine whether it would
 result in the production of dehydrated ethanol in an amount that would equal or exceed 1% of United States
 production and (ii) the transaction was authorized by the Bank’s Credit Committee.


 Issue 2. We have concluded that value added methodology is not routinely used by the Bank to determine
 whether or not a proposed loan guarantee or export credit meets the statutory test found in Section 2(e)
 (4) of the Charter. We identified no transactions during the period we examined of 2002 to present which
 have been authorized by the Bank based upon use of value added methodology. Value added methodology
 was used by the Bank in a 2005 report to Congress, after the Trinidad Project had been authorized (referred
 to herein as the “2005 Response”), to support the proposition that the Trinidad Project had not resulted in
 substantial injury to any U.S. producers of ethanol under the standards set forth in the Charter.


 Issue 3. Based upon the limited procedures performed in support of this analysis, we have concluded that
 the use of value added methodology with respect to the Trinidad Project as expressed in the 2005 Response
 was not appropriate. In particular, the OIG does not believe that it was appropriate for the Bank in its
 2005 Response to Congress to suggest that value added methodology be used to determine whether the 1 %
 threshold set forth in Section 2(e)(4) of the Charter had been crossed.


 As noted in a recently released report prepared by the U.S. Government Accountability Office (GAO),
 Export-Import Bank – Improvements Needed in Assessment of Economic Impact (GAO-07-1071) (September
 2007 GAO Report), which addressed the Bank’s economic impact procedures more generally, the
 determination of economic impact required of the Bank pursuant to the Charter is challenging and
 complex. The OIG is performing additional procedures with the objective of making recommendations to



                                                         G-2
                EVALUATION REPORT RELATING TO
                 ECONOMIC IMPACT PROCEDURES
                                                                                           OIG-EV-10-03

management regarding certain aspects of the Bank’s economic impact procedures based upon further review
of the conceptual basis for value added methodology, issues raised in the September 2007 GAO Report and
other matters identified by the OIG in the course of preparing this analysis.


Background


In March 2004 the Bank approved the issuance of a medium-term insurance policy with a credit limit of
$9.87 million to support the export of U.S. manufactured equipment to a company in Trinidad and Tobago
to be used in a new ethanol dehydration facility. The equipment supported by the Bank was to be used to
produce “anhydrous” ethanol by removing water from “hydrous” fuel-grade ethanol produced in Brazil, with
the intent of exporting up to 100 million gallons of anhydrous fuel-grade ethanol to the U.S. In accordance
with the Bank’s policies, because the amount of financing supported by the Bank was less than $10 million,
no public notice was provided in the Federal Register during the Bank’s consideration of whether to provide
financial support for the project, no detailed economic impact analysis was conducted to determine whether
the transaction would cause substantial injury to U.S. producers of fuel-grade ethanol and the transaction
was approved by the Bank’s Credit Committee.


In September 2004, Senator Charles E. Grassley sent a letter to the Bank questioning the Bank’s support
for the Trinidad Project. In particular, Senator Grassley cited the “substantial injury” language contained
in Section 2(e)(4) of the Bank’s Charter. Shortly thereafter Division D of the Consolidated Appropriations
Act, 2005 (PL 108-447) (2005 Appropriations Act) was enacted, which required that the Bank submit a
report to the Appropriations Committees of the Senate and House “containing an analysis of the economic
impact on United States producers of ethanol of the extension of credit and financial guarantees for the
development of an ethanol dehydration plant in Trinidad and Tobago, including a determination of whether
such extension will cause substantial injury to such producers, as defined in section 2(e)(4) of the Export-
Import Bank Act of 1945 (12 U.S.C. 635(e)(4)).”


In January 2005 the Bank delivered a report responding to Senator Grassley’s letter and the 2005
Appropriations Act. The 2005 Response considered the question of adverse economic impact relative
to the Trinidad Project from three perspectives: (1) substantial injury based on a comparison of the
production capacity of the Trinidad Project as a percentage of U.S. production; (2) whether there would
be an “oversupply” of ethanol on U.S. markets, which would be exacerbated by the Trinidad Project; and
(3) substantial injury as measured by net trade flows, comparing the dollar value of exports being financed
against the dollar value of U.S. production that might be “displaced” by imported ethanol from the
Trinidad Project. The Bank’s 2005 Response concluded:


    •	 The 100 million gallon per year production of the Trinidad Project would not cause substantial
       injury to U.S. producers because (i) the Bank supported equipment did not produce ethanol, but
       only added value to an existing stock of fuel grade ethanol by reducing its water content and (ii)
       the exported equipment would add only 10% to the value of the final product and therefore only

                                                    G-3
                EVALUATION REPORT RELATING TO
                 ECONOMIC IMPACT PROCEDURES
OIG-EV-10-03

        10% of the output, or 10 million gallons, should be considered as “associated” with the Bank’s
        support. When 10 million gallons was measured against U.S. production of 2.8 billion gallons, the
        resulting 0.35% of U.S. production was described in the 2005 Response as being substantially below
        the 1% threshold of Section 2(e)(4) of the Charter. We note that this determination represented
        the application of “value added” analysis and that without the application of value added analysis
        the annual output of the Trinidad Project would equal 3.5% of U.S. production, well above 1%
        threshold.


        The 2005 Response stated “Since the additional value associated with this new production is
        less than 1% of U.S. production, the transaction does not require an economic impact analysis.
        However, pursuant to the requirement in the Consolidated Appropriations Act, 2005, the standard
        economic impact procedures are applied to this case and are presented below.”


    •	 Based on price trends and indicated levels of demand for fuel grade ethanol in the United States
       at the time and predicted in future years, ethanol would not be likely to be in “oversupply” in the
       United States when the Trinidad Project commenced operation in 2005.


    •	 The result was indeterminate based on analysis of trade flows from the Trinidad Project. A positive
       trade flow effect was predicted if a proposed 90 million gallon cap on duty-free imports of ethanol
       from Caribbean Basin countries was implemented, effectively blocking the Trinidad Project’s ability
       to sell ethanol in the U.S. A negative trade flow effect was predicted if the cap was not implemented.
       This analysis also adopted a “value added” approach in quantifying the negative trade flow by
       considering only 10% of the anticipated production of the Trinidad Product over the seven year term
       of the financing. We note that had 100% of the output of the Trinidad Project been considered, the
       potential negative trade flow considered in the 2005 Response would have been much higher.


 After consideration of the Bank’s 2005 Response and other information, Congress directed in the
 November 2005 Conference Report that this written analysis be submitted to Congress within 90 days of
 the Inspector General taking office. Senators Grassley and Crapo later requested that the GAO review the
 Bank’s economic impact analysis process, resulting in the September 2007 GAO Report described in more
 detail below. Congress also made significant changes in the Bank’s economic impact review standards and
 policies in amendments to the Charter in connection with the Bank’s 2006 reauthorization (P.L. 109-438,
 December 20, 2006). The Bank revised its published economic impact review policies in response to these
 developments in April 2007. The Bank’s Policy Analysis Division has undertaken an ongoing process to
 revise its economic impact methodology in view of these developments, and has implemented a number
 of changes informally, with a formal process to revise the Bank’s economic impact procedures planned
 following receipt of this analysis and management recommendations expected to result from the OIG’s
 continuing review of the Bank’s economic impact procedures.




                                                       G-4
                EVALUATION REPORT RELATING TO
                 ECONOMIC IMPACT PROCEDURES
                                                                                            OIG-EV-10-03

Methodology


To conduct our analysis of the issues raised in the November 2005 Conference Report, we performed the
following work:


   •	 Reviewed in detail the Bank’s files pertaining to the medium-term credit insurance provided in
      support of the Trinidad Project.
   •	 Reviewed additional Bank files related to other transactions that were subjected to economic impact
      review.
   •	 Reviewed the Bank’s 2005 Response and supporting documentation.
   •	 Reviewed the Bank’s Charter and its policies and procedures for approving transactions involving
      less than $10 million of financing and for determining economic impact.
   •	 Interviewed various officials regarding the methodology and interpretation of economic impact
      analyses, including (1) all five members of the Bank’s Board of Directors; (2) the Bank’s
      General Counsel; (3) senior Bank officials in its Policy Analysis Division; and (4) officials from
      other U.S. government agencies that provide comments on the Bank’s draft economic impact
      analyses, including the Treasury and Commerce Departments, and the Office of the U.S. Trade
      Representative.


Further, we considered the September 2007 GAO Report and reviewed the documentation provided by the
Bank to GAO upon which that report was based. GAO conducted its work from September 2006 through
August 2007 in which it reviewed: (1) the Bank’s overall policies and procedures for determining economic
impact; (2) the extent to which the Bank’s procedures provide for the identification and appropriate analysis
of projects that could potentially cause adverse economic impact; and (3) the extent to which the Bank’s
policies, procedures and decisions are transparent to interested and affected parties.


Overall, GAO reported that the Bank has established procedures to identify applications for projects that
have the greatest potential to adversely affect U.S. industry and to conduct detailed analyses on those
identified projects. GAO found challenges and areas for improvement in the screening and detailed
analysis of projects for economic impact. They also found limitations in the transparency of the Bank’s
economic impact process. Based on its work, GAO made several recommendations in each of two areas:
(1) improving the Bank’s identification and analysis of applications for economic impact and (2) improving
the public transparency of the economic impact process for interested and affected parties.


Relevant to the first issue addressed in this analysis, GAO concluded that “The effectiveness of the $10
million screen, introduced under Ex-Im’s statutory authority, is uncertain. Ex-Im has not determined
whether it removes from review those projects that could meet the statutory definition of substantial injury


                                                    G-5
                  EVALUATION REPORT RELATING TO
                   ECONOMIC IMPACT PROCEDURES
OIG-EV-10-03

 (producing 1% or more of U.S. production in an industry).” In reaching this conclusion, GAO referenced
 two circumstances where transactions involving financing of less than $10 million appeared to support the
 production of exportable goods exceeding 1% of U.S. production, one of them being the Trinidad Project.
 In conducting our analysis, we considered but did not attempt to duplicate GAO’s work.


 Findings and Conclusions


 Question 1: Did Bank medium-term credit insurance provided to an ethanol dehydration plant
 in Trinidad and Tobago meet the conditions of Section 2(e)(4) or any other provisions of the Bank’s
 Charter?


 OIG Response: We have concluded that as a legal matter the Bank’s extension of medium-term credit
 insurance in support of the Trinidad Project met the conditions of Section 2(e)(4) of the Charter and other
 related provisions of the Charter describing factors the Bank is required to consider in evaluating whether
 individual transactions will result in substantial injury to U.S. producers. Under procedures authorized by
 the Bank in the exercise of its discretion, as a transaction involving less than $10 million of financing, (i) the
 Trinidad Project was not evaluated by the Bank’s staff to determine whether it would result in the production
 of dehydrated ethanol in an amount that would equal or exceed 1% of United States production and (ii) the
 Trinidad Project was authorized by the Bank’s Credit Committee, rather than the Board, pursuant to authority
 delegated to the Credit Committee by the Board. Transactions under $10 million generally are not reviewed
 for their economic impact, or under other policy directives applicable to larger transactions, such as review for
 environmental impact.


 Paraphrased, Section 2(e) of the Bank’s Charter sets forth the following key propositions:


         The Bank is not authorized to extend any direct credit or financial guarantees to support the
         establishment or expansion of production of any commodity for export (Exportable Goods) if the
         resulting production will compete with U.S. production of the same, similar or competing commodity
         if the Bank determines that substantial injury to U.S. producers of the Exportable Good will result.


         Substantial injury will be presumed to exist if the amount of new or expanded production of the
         Exportable Good exceeds 1% of U.S. production.


         Notwithstanding the fact that the 1% threshold may be exceeded, the Board of the Bank is authorized
         to approve a transaction if it determines that the short- and long-term benefits to industry and
         employment in the United States are likely to outweigh the short- and long-term injury to United States
         producers and employment resulting from the transaction.


                                                          G-6
                  EVALUATION REPORT RELATING TO
                   ECONOMIC IMPACT PROCEDURES
                                                                                                  OIG-EV-10-03

        The Bank is authorized to implement regulations and procedures as may be appropriate to carry out Section
        2(e) so long as they do not contravene an express statutory requirement.


The Bank’s authority to exercise discretion as an independent executive agency of the government in implementing
regulations and procedures is confirmed by decisions of the U.S. Supreme Court in


Chevron U.S.A. Inc. v. Natural Resources Defense Council, Inc., 467 U.S. 837, 104 S.Ct. 2778, 81 L.Ed.2d 694
(1984) and U.S. v. Mead Corporation, 533 U.S. 218, 121 S.Ct. 2164 (2001).


Interviews with the Board and management of the Bank and review of economic impact reports in other
transactions confirmed that preparing an economic impact report is a labor-intensive undertaking. The Board and
staff of the Bank have for many years relied upon the $10 million of financing threshold as a rough “rule of thumb”
dividing line where it was determined that the likelihood of missing a transaction that would in fact result in
substantial injury to U.S. producers was sufficiently low that it was not deemed to be an effective use of the Bank’s
limited resources to subject these smaller transactions to a detailed review.


The September 2007 GAO Report accepts the fundamental legality and legitimacy of the $10 million screen,
while criticizing the Bank for not undertaking to validate the $10 million screen, a comment with which the OIG
concurs. GAO identified the Trinidad Project and one other as examples of transactions approved by the Bank that
would result in Exportable Goods exceeding 1% of U.S. production. At the same time, the September 2007 GAO
Report noted that of the 19 cases subjected to a full economic impact report between 2003 and 2005, only two
were denied.


The September 2007 GAO Report suggests that it might be possible to implement other cost-effective procedures
that would identify transactions below the $10 million threshold, such as transactions affecting smaller U.S.
industries, where there was a greater risk of the resulting Exportable Goods exceeding 1% of U.S. production. In
the Bank’s response to the GAO report, and in discussions with the OIG relating to this analysis, the management
and Board of the Bank have expressed interest and commitment to evaluate the effectiveness of the $10 million
screen and to consider other cost-effective measures to address the potential for substantial injury to U.S. producers
in smaller transactions.


Question 2: Does the Bank routinely use “value added” methodology to determine whether or not a
proposed loan guarantee or export credit meets the statutory test found in Section 2(e)(4)?


OIG Response: We found that the Bank does not routinely use value added methodology to determine
whether or not a proposed loan guarantee or export credit meets the statutory test of substantial injury found in
the Charter. We identified no transactions during the period we examined of 2002 to present which have been
authorized by the Bank based upon use of value added methodology. Value added methodology was used by

                                                         G-7
                  EVALUATION REPORT RELATING TO
                   ECONOMIC IMPACT PROCEDURES
OIG-EV-10-03

the Bank in the 2005 Response, after the Trinidad Project had been authorized, to support the proposition that
the Trinidad Project had not resulted in substantial injury to any U.S. producers of ethanol under the standards
set forth in the Charter.


As part of our work, we reviewed a list of transactions requiring detailed economic impact analysis between
2002 and June 2007. Of the 31 detailed analyses included on the list, a senior Bank official reported that only
one, in 2006, had considered value added methodology at the draft report stage, and that the value added
methodology was not reflected the final report. We inquired as to the origin of the use of the value added
methodology set forth in the Bank’s 2005 Response to Congress. The Bank’s use of value added methodology
as expressed in the 2005 Response was identified by a senior Bank official as a logical extension of another
methodology, known as proportionality, which the Bank’s Policy Analysis Division has considered in a limited
number of other economic impact reports but which has not been relied upon by the Board to approve any
transactions subject to economic impact analysis.


Question 3: In the opinion of the OIG, is it appropriate for the Bank to use “value added” methodology in
making determinations of substantial injury?


Based upon the limited procedures performed in support of this analysis, we have concluded that the use of
value added methodology described in the Bank’s 2005 Response with respect to the Trinidad Project was not
appropriate. The 2005 Response applied value added methodology to conclude that the Bank’s financing should
only be associated with 10% of the 100 million gallon annual production of the Trinidad Project because the
exported equipment would not produce ethanol from feedstock, but instead would merely add 10% to the value
of existing hydrous ethanol purchased from Brazil. The 2005 Response asserted that when 10 million gallons
was considered as “associated” with the Bank’s support and compared to U.S. production of 2.8 billion gallons,
the resulting 0.35% of U.S. production was substantially below the 1% threshold for substantial injury set forth
in Section 2(e)(4) of the Charter. The 2005 Response stated “Since the additional value associated with this new
production is less than 1% of U.S. production, the transaction does not require an economic impact analysis.”


Interviews with Bank staff, reviews of supporting materials for the Bank’s 2005 Response and reviews of other
economic impact analyses prepared by the Bank’s staff confirm that the economic impact analysis expressed in
the 2005 Response, and particularly the use of value added methodology, was not representative of the Bank’s
then existing policies and procedures for undertaking economic impact analysis.


The OIG’s review of the 2005 Response and interviews with senior bank officials indicate that the work
performed by the Bank’s policy analysis group as set forth in the 2005 Response was not fully reflective of the
work that would have been done had the Trinidad Project been presented for review as a transaction involving
more than $10 million of financing. Because of a number of issues relative to the Bank’s economic impact
procedures that are noted in the September 2007 GAO Report, including a lack of transparency and certain
inconsistencies between the Bank’s published procedures and how they were implemented in practice, it is


                                                        G-8
                 EVALUATION REPORT RELATING TO
                  ECONOMIC IMPACT PROCEDURES
                                                                                            OIG-EV-10-03

difficult to draw clear distinctions between the work supporting the 2005 Response and the work that would
be done for transactions involving more than $10 million of financing. Among differences noted between the
work supporting the 2005 Response and the Bank’s regular economic impact review practices were:


   •	 The value added analysis used in the 2005 letter had not previously been used by the policy analysis
      staff in preparing economic impact reports, and particularly had not been used in assessing whether the
      1% threshold of Section 2(e)(4) of the Charter had been crossed.


   •	 The value added analysis expressed in the trade flow portion of the 2005 Response was not among
      the methodologies that had been used previously to support adjustments decreasing the dollar value of
      trade flows from a Bank supported project deemed to “displace” U.S. production. For example, in one
      section of the 2005 Response, the expected volume of ethanol that would be produced by the Trinidad
      Project over the seven year life of the loan was calculated to be 440 million gallons. That amount was
      then reduced to 44 million gallons (10% of the predicted volume) in the trade flow analysis based on the
      10% value added to the hydrous ethanol by the equipment supported by the Bank’s medium-term credit
      insurance.


   Also, the Trinidad Project was not considered under the procedures applicable to transactions involving
   more than $10 million of financing when initially approved, and the Bank did not consider it feasible to
   recreate that process after the fact. As a result:


   •	 Agencies that normally provide the Bank with market data analysis to support economic impact reports
      were not consulted regarding the 2005 Response.


   •	 The Bank’s analysis reflected in the 2005 Response was not reviewed by any of the agencies that
      typically review and comment on draft economic impact reports.


   •	 The Trinidad Project was not published in the Federal Register, so that no comments from the public,
      industry or Congress were received to be taken into account in preparing the 2005 Response.


   •	 The Board of the Bank is charged by the Charter with making the determination as to whether an
      adverse economic impact will result from a proposed transaction. In this instance, the Board was not
      consulted relative to the preparation of the 2005 Response and it does not reflect their judgment of the
      matter.




                                                     G-9
                  EVALUATION REPORT RELATING TO
                   ECONOMIC IMPACT PROCEDURES
OIG-EV-10-03

The OIG has concluded that it was inappropriate to apply value added analysis as set forth in the 2005 Response
in assessing whether the 1% threshold established by Section 2(e)(4) of the Charter had been crossed because
that usage conflicts with Congressional intent. The Supreme Court in American Tobacco Co. v. Patterson, 456
U.S. 63, 102 S.Ct. 1534, 71 L.Ed.2d 748 (1982) instructed that in cases involving statutory construction, the
starting point must be the
language employed by Congress, which assumes that the legislative purpose is expressed by the ordinary
meaning of the words used. Absent a clearly expressed legislative intent to the contrary, the plain language
should be controlling.


The OIG’s reading of Congressional intent as expressed in the plain language of Section 2(e)(3) and (4) of the
Charter and their legislative history is that Congress intends the Bank’s Board, a politically accountable body
appointed by the President and confirmed by the Senate, to make the difficult balancing judgments of when a
given export transaction should be approved or declined in circumstances where more than a very small amount
of new production of an Exportable Good will result. A determination that the Bank will not support an export
transaction on economic impact grounds will injure the exporter directly and certainly. Under the Bank’s
Charter, this must be balanced against the economic injury that may accrue to U.S. producers if an export
transaction is approved, which will generally be indirect and less certain.


Applying value added methodology to determine whether the 1% threshold of Section 2(e)(4) has been crossed,
a methodology that has not been approved for such use by the Board, would undercut this important check
and balance. It is important to note that the Bank’s management has confirmed that value added analysis
has not been used to remove transactions above the $10 million threshold from economic impact analysis and
consideration by the Board. Because the $10 million threshold has been approved by the Board, as noted above
in the response to Question 1, the legality and legitimacy of the approval of the Trinidad Project by the Credit
Committee, without an economic impact analysis, is not subject to the same criticism.


The OIG has not undertaken an exhaustive legal analysis of the construction of the language used in Section
2(e)(1), (3) and (4) of the Charter. At the same time, it is plain from the words that Congress used in those
provisions that the key issue linking a Bank sponsored transaction to the substantial injury that the Bank is
obligated to avoid, and the determinations that Congress charged the Board with making, is assessing causation
of production and causation of substantial injury:


       (1) The Bank may not extend any direct credit or financial guarantee . . if: . . (B) . . . the Bank
       determines that the extension of such credit or guarantee will cause substantial injury to United States
       producers . . .


       (4) . . . the extension of any credit or guarantee by the Bank will cause substantial injury if the amount of
       the capacity for production established, or the amount of the increase in such capacity expanded, by such
       credit or guarantee equals or exceeds 1 percent of United States production . . . (emphasis added).

                                                        G-10
                  EVALUATION REPORT RELATING TO
                   ECONOMIC IMPACT PROCEDURES
                                                                                                OIG-EV-10-03
Causation is an inherently factual inquiry that depends as much or more on common sense and logic than it
does on specialized knowledge of industrial processes. This is why the job of deciding economic impact cases
was assigned by Congress to the Board, not to the Bank’s expert staff.


The OIG has concluded that it is difficult, and may be disingenuous, to assert that the Bank’s financing has
caused either 0% or 10% of the production attributable to a project for purposes of applying Section 2(e)(3) and
(4) of the Charter in a transaction such as the Trinidad Project, where (i) it appears that 100% of the anticipated
output is intended to be exported to the United States, (ii) but for the creation of the new capacity for anhydrous
fuel-grade ethanol output resulting from the Bank’s support of the Trinidad Project in a country qualifying for
favorable U.S. import duty treatment, the trade flow of the product was unlikely to occur, and (iii) the Bank’s
financing supports equipment that was integrally responsible for producing the Caribbean Basin Initiative
qualified dehydrated ethanol that was the core reason for constructing the Trinidad Project. For these reasons,
the OIG believes that it was inappropriate for the 2005 Response to assert that the Bank’s support was either
causative of none of the Trinidad Project’s dehydrated ethanol production, or at most 10% of the Trinidad
Project’s production.


In the course of the interviews conducted in support of this analysis, the OIG encountered a range of views as
to whether value added methodology, and the related analytical tool of proportionality, may have appropriate
application in contexts that are factually distinct from the circumstances of the Trinidad Project. The OIG
has not reached a conclusion as to whether these concepts would be appropriate for inclusion among a larger set
of considerations that the Bank’s staff and the Board consider as mitigating factors when evaluating an export
transaction for its potential for substantial injury to U.S. producers under Section 2(e)(3) and (4) of the Charter.
While proportionality analysis has been discussed among the staff of the Bank for a number of years, and has
been included in a small number of draft economic impact reports, it has not appeared in any final economic
impact report for any transaction approved by the Board during the period that was reviewed in preparing this
analysis. Accordingly, the OIG determined not to address these concepts in detail in this analysis.


The conceptual argument underlying both value added and proportionality methodology is that there are some
transactions where the portion supported by the Bank is so small relative to the entire project, and where the
equipment supported by the Bank is so tangential or incidental to the production process, that it does not make
sense to conclude that the Bank’s support has caused 100% of any adverse economic impact that might result
from the output of the project. As noted in the September 2007 GAO Report, the Bank has not defined in a
clear and consistent way how and when these concepts might be appropriate to use. The Bank’s management,
in response to the September 2007 GAO Report, and in interviews in support of this analysis, has undertaken
to perform a careful review of the use of these concepts and to work to develop written policies for their use that
will support increased transparency in the future, for the benefit of the public and of other interested parties
such as the recipients of this analysis.




                                                       G-11
                    EVALUATION REPORT RELATING TO
                     ECONOMIC IMPACT PROCEDURES
OIG-EV-10-03
Additional Work to be Performed


The Inspector General is continuing its review of certain aspects of the Bank’s economic impact procedures with
the objective of developing recommendations to management addressing the conceptual basis for value added
methodology, issues raised in the September 2007 GAO Report and other matters identified by the OIG in the
course of preparing this analysis.


This analysis is not an audit and it was not prepared in accordance with Generally Accepted Government
Auditing Standards. Given the limited time and scope of this analysis, it does not include any recommendations
to the Bank’s management.


We are also providing copies of this analysis to the Chairman House Committee on Financial Services Senate
Committee on Appropriations, U.S. House of Representatives Committee on Appropriations, U.S. Senate
Committee on Banking, Housing, and Urban Affairs, the U.S. Senate Finance Committee. Should you or your
staff have any questions or wish to discuss the results of our analysis, please call me at (202) 565-3923


Sincerely,


   //signed


Michael W. Tankersley
Inspector General


Attachments




                                                       G-12
               EVALUATION REPORT RELATING TO
                ECONOMIC IMPACT PROCEDURES
                                                                                       OIG-EV-10-03

cc:
Senator Robert C. Byrd, Chairman, Senate Committee on Appropriations
Senator Thad Cochran, Ranking Member, Senate Committee on Appropriations
Senator Max Baucus, Chairman, Senate Committee on Finance
Senator Charles E. Grassley, Ranking Member, Senate Committee on Finance
Senator Chris J. Dodd, Chairman, Senate Committee on Banking, Housing and Urban Affairs
Senator Richard C. Shelby, Ranking Member, Senate Committee on Banking, Housing and Urban Affairs
Senator Evan Bayh, Senate Committee on Banking, Housing and Urban Affairs
Senator Mel Martinez Senator, Senate Committee on Banking, Housing and Urban Affairs
Senator Wayne Allard, Senator, Senate Committee on Banking, Housing and Urban Affairs
Congressman Dave Obey, Chairman, House Committee on Appropriations
Congressman Jerry Lewis, Ranking Member, House Committee on Appropriations
Congressman Barney Frank, Chairman House Committee on Financial Services
Emilia Disanto, Chief Investigator Senate Committee, Senate Committee on Finance
David Johanson, International Trade Counsel, Senate Committee on Finance
Gregg Richard, Legislative Assistant, Senate Committee on Banking, Housing and Urban Affairs
Joe Hepp, Professional Staff Member, Senate Committee on Banking, Housing and Urban Affairs
Kellie Larkin, Professional Staff Member, Committee on Financial Services




                                                  G-13
                 EVALUATION REPORT RELATING TO
                  ECONOMIC IMPACT PROCEDURES
OIG-EV-10-03


 Appendix A
 Export-Import Bank Act of 1945, as amended


 Sec. 2(e) Limitation on assistance which adversely affect[s] the United States.

 (1) In general. The Bank may not extend any direct credit or financial guarantee for establishing or
 expanding production of any commodity for export by any country other than the United States, if

    (A) the Bank determines that –

      (i) the commodity is likely to be in surplus on world markets at the time the resulting commodity will
      first be sold; or

      (ii) the resulting production capacity is expected to compete with United States production of the
      same, similar, or competing commodity; and

    (B) the Bank determines that the extension of such credit or guarantee will cause substantial injury to
    United States producers of the same, similar, or competing commodity.

 In making the determination under subparagraph (B), the Bank shall determine whether the facility that
 would benefit from the extension of a credit or guarantee is reasonably likely to produce a commodity in
 addition to, or other than, the commodity specified in the application and whether the production of the
 additional commodity may cause substantial injury to United States producers of the same, or a similar or
 competing, commodity.

 (3) Exception. Paragraphs (1) and (2) shall not apply in any case where, in the judgment of the Board of
 Directors of the Bank, the short- and long-term benefits to industry and employment in the United States
 are likely to outweigh the short- and long-term injury to United States producers and employment of the
 same, similar, or competing commodity.

 (4) Definition. For purposes of paragraph (1)(B), the extension of any credit or guarantee by the Bank
 will cause substantial injury if the amount of the capacity for production established, or the amount of the
 increase in such capacity expanded, by such credit or guarantee equals or exceeds 1 percent of United States
 production.




                                                       G-14
                EVALUATION REPORT RELATING TO
                 ECONOMIC IMPACT PROCEDURES
                                                                                             OIG-EV-10-03

                         Appendix H - Federal Trade
                       Commission’s Hart-Scott Method
The Federal Trade Commission (“FTC”), under the Hart Scott Rodino Antitrust Improvements Act of 1976
(“Hart-Scott”), developed a pre-transaction antitrust review applied to corporate mergers and acquisitions
named the Hart-Scott Method. Under the FTC’s Hart-Scott procedures, the transaction proponents are
required to make a simplified filing at least 30 days before the transaction is to close which includes: (i) a
breakdown of each party’s revenues according to SIC codes and sub-codes for the most recently completed
fiscal year and as they existed in an earlier year; (ii) a copy of documents describing the terms of the
transaction and (iii) materials in the possession of either party that evaluate the market for their respective
goods or the competitive effects of the transaction. The FTC staff then applies a simplified quantitative
screen to the transaction – referred to as the “Herfindahl Index” – that compares the market share in
percentages of each party based on their reported SIC code data. If the FTC has not taken formal action to
request additional information or object to the transaction within 30 days of filing, the parties are allowed
to proceed without further delay.

If the mathematical result of the Herfindahl Index analysis is below a specified level, further review of the
transaction is passed and the 30 day waiting period is typically waved within 7-10 days of submission to the
FTC. Among the factors that might suggest further FTC review are involvement of the participants in an
industry known to have antitrust enforcement challenges, or where the market evaluation materials provided
to the FTC suggest that the parties were contemplating obtaining undue market power or narrowly
avoiding violations of the antitrust laws in the context of the transaction. If the result of the quantitative
market share analysis is above the specified level or there are other concerns present, the FTC makes a
“second request” for expanded information to support a detailed staff evaluation of the competitive effects
of the transaction. While the high fee charged for Hart-Scott review has drawn continuing criticism, the
substance of the process is generally viewed as efficient and effective by transaction participants.

The information that the FTC requests and considers at the first instance in Hart-Scott review is generally
easily available to the parties. The cut-off level of the Hefindahl Index above which a second request for
information can be expected is publicly disclosed. This allows parties to a potential transaction very early
in the process, even before merger discussions are initiated, to efficiently evaluate the likelihood of FTC
interest and detailed review, and to avoid transactions where long delays or rejection can be anticipated.
Because the sort of information that the FTC specifies in its “second requests” is known, and because
its analytical methods and concerns have been transparently made available to the public, transaction
proponents can consult counsel and other advisors to obtain a reasonable estimation of the timing and
substantive requirements to be expected from a detailed FTC review, and the likely outcome of that review.
In those cases, the companies’ advisors will frequently submit a whitepaper analysis incorporating more
information than the initial filing requires that addresses the FTC’s anticipated concerns. Counsel may also
arrange to meet with FTC staff to discuss the case before or shortly after the initial filing. These actions
also help expedite even more complex and challenging cases.


                                                   H-1
                 EVALUATION REPORT RELATING TO
                  ECONOMIC IMPACT PROCEDURES
OIG-EV-10-03

 Because the Bank has not made much of its learning on the subject of economic impact analysis available
 to the public, and because the facts and results of specific cases, while relying on common analytical
 methods, tend in the final analysis to be very fact specific to particular markets, potential transaction
 sponsors contemplating an application for Ex-Im Bank support have had a limited ability to analyze their
 own prospects of passing an economic impact review. This uncertainty has a real, and potentially large, cost
 to U.S. exporters and to the mission of Ex-Im Bank. Transactions that might have been approved may not
 be submitted to the Bank, while other transactions are submitted to the Bank that have limited chances
 of approval based on the Bank’s analytical methods, absorbing considerable staff and proponent time and
 expense to then dispose of. Making more information regarding the Economic Impact Procedures available
 to the public, as suggested in Section C of this Report, will allow transaction proponents to more efficiently
 determine their prospects for approval, and will also allow them to gather relevant data to support their own
 analysis and to share that data with the Bank’s PPG staff as part of their application process.




                                                        H-2
EVALUATION REPORT RELATING TO
 ECONOMIC IMPACT PROCEDURES
                                   OIG-EV-10-03

Appendix I - Ex-Im Bank’s Management
     Comments to Draft Report




           See Next Page




                 I-1
                                      EXPORT-IMPORT BANK
                                          OF THE UNITED STATES


ALICE P. ALBRIGHT, CCA                                           EXECUTIVE VICE PRESIDENT &
                                                                  CHIEF OPERATING OFFICER

                                       September 10, 2010


Mr. Osvaldo L. Gratacós
Inspector General (acting)
Export-Import Bank of the United States
811 Vermont Avenue, NW
Washington, DC 20571

Re: Draft Evaluation Report Relating to Economic Impact Procedures (OIG-EV-10-XX)

Dear Mr. Gratacós,

Thank you for the opportunity to review the referenced draft report. I appreciate the significant
time and effort your office dedicated to this issue. The substance covered in the report reflects
an in-depth understanding of both the evolution of the economic impact mandate and the
complexities associated with its implementation.

Guided by the analysis and recommendations of the Bank's professional staff, the Board of
Directors presently balances a variety of interests when considering the benefit of a particular
transaction against its potential economic impact. It is an ongoing challenge to develop and
consistently apply procedures that account for each of these diverse economic interests consistent
with the Bank's mission to sustain and create jobs through export finance. The Bank's
management agrees that its current economic impact procedures (including methodology) should
be improved, including enhanced transparency and consistency across analyses.

Management has decided that any significant adjustment to the Bank's economic impact
procedures, however, should coincide with the Bank's impending Congressional reauthorization.
As the Bank begins a dialogue with Congress regarding its 2011 reauthorization, it will also
initiate a full review and likely overhaul of its economic impact procedures. This public,
transparent process will enable a wide range of stakeholders to provide valuable input and
express any concerns they may have. The review will also carefully consider the findings and
suggestions of your report as well as the recommendations addressed by the September 2007
GAO report entitled, "Improvements Needed in Assessment of Economic Impact".

The Bank's management continuously seeks to improve its policies and procedures to better
fulfill its mission and is grateful for your suggestions.




                         811 VERMONT AVENUE, N.W WASHINGTON, D.C. 20571
cc: Fred P. Hochberg
    Jonathan Cordone
Office of Inspector General
Export-Import Bank of the United States
811 Vermont Avenue, NW
Washington, DC 20571
202-565-3908
www.exim.gov/oig
